<html>
<title> - A SHARED RESPONSIBILITY: COUNTERNARCOTICS AND CITIZEN SECURITY IN THE AMERICAS</title>
<body><pre>[Senate Hearing 112-57]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-57
 
 A SHARED RESPONSIBILITY: COUNTERNARCOTICS AND CITIZEN SECURITY IN THE 
                                AMERICAS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                  CORPS, AND GLOBAL NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.fdsys.gpo.gov



                  U.S. GOVERNMENT PRINTING OFFICE
67-800                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294e5946694a5c5a5d414c4559074a464407">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE          
             CORPS, AND GLOBAL NARCOTICS AFFAIRS          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            MARCO RUBIO, Florida
JIM WEBB, Virginia                   MIKE LEE, Utah
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia
                                     JOHN BARRASSO, Wyoming

                             (ii)          

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Arnson, Dr. Cynthia, director, Latin American Program, Woodrow 
  Wilson International Center for Scholars, Washington, DC.......    40
    Prepared statement...........................................    42
Brownfield, Hon. William R., Assistant Secretary of State, Bureau 
  of International Narcotics Control and Law Enforcement Affairs, 
  Department of State, Washington, DC............................     9
    Prepared statement...........................................    11
Felbab-Brown, Dr. Vanda, fellow, foreign policy, Brookings 
  Institution, Washington, DC....................................    28
    Prepared statement...........................................    29
Johnson, Stephen, director, Americas Program, Center for 
  Strategic and International Studies, Washington, DC............    46
    Prepared statement...........................................    48
Kerlikowske, Hon. R. Gil, Director, National Drug Control Policy, 
  Washington, DC.................................................     3
    Prepared statement...........................................     4
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Olson, Eric, senior associate, Mexico Institute, Latin American 
  Program, Woodrow Wilson International Center for Scholars, 
  Washington, DC.................................................    51
    Prepared statement...........................................    53
Wechsler, William F., Deputy Assistant Secretary of Defense for 
  Counternarcotics and Global Threats, Department of Defense, 
  Washington, DC.................................................    13
    Prepared statement...........................................    14

                                 (iii)

  


 A SHARED RESPONSIBILITY: COUNTERNARCOTICS AND CITIZEN SECURITY IN THE 
                                AMERICAS

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
          Peace Corps and Global Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Office Building, Hon. Robert Menendez 
(chairman of the subcommittee) presiding.
    Present: Senators Menendez and Rubio.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. The committee hearing will 
come to order. Welcome to our hearing on shared responsibility, 
counternarcotics and citizen security in the Americas. Let me 
thank our panelists for coming today. We look forward to your 
insights.
    Let me begin by laying out the framework for our discussion 
today and some sobering statistics. Latin America and the 
Caribbean region has one of the highest crime rates of any 
region in the world. According to the U.N. Office on Drugs and 
Crimes, in 2003 the homicide rate in Latin America and the 
Caribbean was 19.9 per 100,000 people. By 2008, the rate had 
climbed to an astounding 32.6 per 100,000 people.
    In El Salvador, the rate is estimated to be as high as 71 
per 100,000, despite President Funes's tremendous efforts to 
combat the maras, gangs that are largely responsible for 
violent crime. It is not a coincidence that cocaine seizures in 
Central America have also tripled during this time period.
    The problem is no longer limited to transit or trafficking 
in drugs, but has expanded into production and domestic 
consumption. Earlier this month, Honduran authorities found a 
cocaine processing laboratory in the remote northeastern 
mountains capable of producing 440 to 880 pounds of cocaine a 
week.
    Our successes through Plan Colombia, while significant, 
failed to take into account the ability of the market to find 
new avenues to move its product and new territories to 
infiltrate. However, the successes we achieved in Colombia 
through close bilateral cooperation demonstrated that it is 
possible to take on the drug trafficking organizations and to 
achieve success.
    The recipe for victory in my mind is clear. Our efforts 
must be shouldered jointly, recognizing a shared responsibility 
to address supply and demand for narcotics, as well as a shared 
responsibility to take into account the social and economic 
factors contributing to the trade. It is also necessary that we 
control the flow of weapons and cash from the United States to 
the region, for they are fueling the violent attacks that are 
leaving hundreds of people dead every week in Mexico and 
enabling traffickers to fight off law enforcement officers or 
co-opt their efforts.
    Let me say, for the record, that I am extremely 
disappointed that the Bureau of Alcohol, Tobacco, and Firearms 
declined to participate in today's hearing and accept our 
invitation to address this aspect of the narcotics equation. 
While they may have avoided today's hearing, I can assure them 
that they will not avoid a hearing in perpetuity.
    In the past, our strategy for dealing with this threat has 
been targeted eradication of production and interdiction of 
supply. What we have seen in response is a balloon effort, 
where supply routes have moved from the Caribbean to Mexico, 
with drug trafficking organizations moving from Colombia to 
Mexico and now making inroads into Central America. The truth 
is, as you can see on the charts, we are being attacked from 
all directions.
    Unfortunately, in my mind our budget priorities do not 
reflect the scale of the problem. The budget request for fiscal 
year 2012 for State-INL appears to be significantly lower than 
the fiscal year 2010 enacted level, $565.6 million versus 
$701.4 million. At the same time, we anticipate cuts to funding 
for programs that are crucial to addressing the underlying 
social and economic causes of the drug trade.
    So our commitment to shared responsibility must also be 
shared by our government and the bureaucracies that need to 
work together to coordinate efforts to bring a whole government 
approach to the task. To that end, in the last Congress I 
worked with Senators Kerry and Lugar on legislative vehicles 
that would rechannel our efforts to address this issue, and 
create a comprehensive multiyear strategy for combating 
narcotics, taking into account the demand and supply issues, 
the role of U.S. weapons flowing south, and the balloon effort 
that has moved the problem from one part of the hemisphere to 
the other.
    I plan to reintroduce legislation this Congress that I hope 
will refocus the administration's efforts on developing a 
comprehensive strategy that will bring together all the pieces 
of the puzzle and truly commit us to the promises of assistance 
and cooperation articulated by President Obama during his 
recent visit.
    With that, I know that Senator Rubio, the ranking member, 
will be here a little later, since we had to change the time of 
this hearing and he had a conflicting commitment.
    I want to thank our distinguished panel for appearing 
today. Let me introduce them. They are: Ambassador William 
Brownfield, the Assistant Secretary for International Narcotics 
Control and Law Enforcement; Gil Kerlikowske, the Director, 
Office of the National Drug Control Policy; and David Wechsler, 
the Deputy Assistant Secretary for Counternarcotics and Global 
Threats.
    Gentlemen, we look forward to your testimony. I'd ask you 
to summarize your testimony into 5-minute statements. Your full 
testimony will be entered into the record and we will start 
with Director Kerlikowske.

 STATEMENT OF HON. R. GIL KERLIKOWSKE, DIRECTOR, NATIONAL DRUG 
                 CONTROL POLICY, WASHINGTON, DC

    Mr. Kerlikowske. Thank you, Chairman Menendez. I look 
forward to the hearing also and appreciate the invitation with 
Ranking Member Rubio and members of the subcommittee, for the 
opportunity to discuss the counternarcotics and citizen 
security in the Western Hemisphere. We're all aware that 
substance abuse strains families, communities, economies, 
health care, and criminal justice systems, not only in the 
United States but in the Western Hemisphere and overseas.
    The President's national drug control strategy strengthens 
our focus on community-based prevention, evidence-based 
treatment, support for those in recovery, coordinated law 
enforcement initiatives, innovative criminal justice policies 
and programs, and stronger, more productive international 
partnerships. The strategy addresses drug production and 
consumption throughout the world by building on these 
partnerships.
    The Western Hemisphere remains our highest priority. 
Violent consequences of drug trafficking, social disruption, 
and public health consequences are evident. The northern border 
is exploited by drug traffickers. The majority of cocaine and 
heroin available in our borders is produced by our neighbors to 
the south.
    To highlight the importance of drug policy issues in the 
Western Hemisphere, I visited Colombia twice, Peru once, Mexico 
on numerous occasions, and the Southwest border. In this 
effort, ONDCP is preparing a Western Hemisphere 
counternarcotics strategy to merge the multiple active regional 
counternarcotics efforts. We're working to release the strategy 
this summer, which will address interdiction and disruption of 
transnational criminal syndicates, institutional strengthening, 
construction of strong and resilient communities, and drug 
demand reduction.
    We are coordinating with my colleagues that are here today 
and the other Federal agencies to strengthen our efforts to 
support security and law enforcement through provision of 
equipment, training, and law enforcement intelligence, as well 
as to support those resources for the high seas interdiction, 
air smuggling detection and monitoring, and intelligence 
coordination, the strengthening of institutions through sharing 
expertise, sponsoring judicial exchanges, and training 
prosecutors, and the provision of assistance in building strong 
communities through sharing and increasing access to effective 
evidence-based substance abuse prevention and treatment, and 
last, prevention and treatment through the sharing of knowledge 
and best practices bilaterally.
    The Western Hemisphere strategy will also bring together 
the multiple interconnected regional approaches to 
counternarcotics strategy. They include the Merida Initiative, 
the Southwest Border Strategy, the Central America Regional 
Security Initiative, and the Caribbean Basin Security 
Initiative, and the Colombian Strategic Development Initiative.
    This coordinated approach will carry us through as we seek 
to help our northern and southern neighbors to reduce the 
demand for and interdict the flow of drugs and develop 
democratic institutions. Our increased emphasis in 
international demand reduction will also require continued 
support through guidance, training, and technical assistance.
    In a recent example of international demand reduction 
coordination, the United Nations Commission on Narcotic Drugs 
passed a U.S.-proposed resolution regarding drugged driving. 
Supporting countries included Peru, Uruguay, Mexico, Costa 
Rica, and Brazil, and the EU. With the help of our 
international partners, the United States has also made 
historic progress in removing cocaine from the transit zone 
year after year.
    Not only has Colombia become a safer and more prosperous 
country, it has expanded the rule of law and continues to 
instill respect for human rights. Gains in Colombia have 
directly translated into progress against drug trafficking in 
the United States through drastic decreases in potential heroin 
and cocaine production, coupled with reductions in purity and 
increases in price for street-level cocaine in the United 
States.
    Colombia remains a strong example of a successful 
partnership in Latin America. As with Colombia, partnerships 
with our hemispheric neighbors must continue to reinforce 
counternarcotics and citizen security efforts.
    I look forward to working with the members of this 
subcommittee and others in Congress as we continue to 
strengthen our coordinated response. Thank you for the 
opportunity and I look forward to your questions.
    [The prepared statement of Mr. Kerlikowske follows:]

                Prepared Statement of R. Gil Kerlikowske

    Mr. Chairman, Ranking Member, and the Members of this subcommittee, 
thank you for the opportunity to testify before you today. On behalf of 
the Office of National Drug Control Policy, I look forward to 
continuing to work with the members of this subcommittee to advance and 
improve U.S. policies in the Western Hemisphere.

                      A NEW APPROACH TO THE THREAT

    Substance abuse strains families, communities, economies, health 
care and criminal justice systems, not just in the United States, but 
throughout the Western Hemisphere and world. Effective drug control 
relies upon a comprehensive approach balancing both public health and 
public safety. And the Obama administration has such a comprehensive 
approach to drug control policy. The President's National Drug Control 
Strategy (Strategy) strengthens our focus on community-based 
prevention, evidence-based treatment, support for those in recovery 
from addiction, coordinated law enforcement initiatives, innovative 
criminal justice policies and programs, and stronger, more productive 
international partnerships.
    The administration's Strategy recognizes that the criminal justice 
system plays a vital role in reducing the costs and consequences of 
drug crimes and should employ innovative, evidence-based solutions to 
stop the all-too-common cycle of arrest, incarceration, release, and 
rearrest. An increasing body of evidence suggests that the right 
combination of appropriate policies and strategies and the provision of 
a continuum of evidence-based interventions can effectively address the 
needs of the offender, ensure the safety of the community and 
ultimately break that cycle. Some innovations include: Drug Market 
Intervention, a prearrest strategy shown to reduce open air drug 
markets; testing and sanctions strategies to address probation and 
parole violations in a swift yet modest manner to facilitate offender 
compliance; reentry support strategies to prepare offenders for life 
after release; and of course, drug courts which are well-suited for 
high-risk, high-need offenders. These interventions can result in a 
more efficient allocation of resources, a reduction in offender 
recidivism, while ensuring offender accountability and maintaining 
public safety.
    The global nature of the drug threat requires a strategic response 
that is also global in scope. It is not realistic for countries to 
expect to be effective if they are operating in a vacuum. We no longer 
live in an either/or world of ``demand reduction'' versus ``supply 
reduction'' or ``producer country'' versus ``consumer country.'' 
Accordingly, the Strategy addresses drug production and consumption 
throughout the world and explicitly builds on international 
partnerships to achieve our national drug control goals.
    By the same token, criminal conduct engaged in by transnational 
criminal organizations is not limited to drug trafficking. 
Increasingly, international criminal syndicates are involved in 
kidnapping, extortion, human trafficking, arms trafficking, and a 
variety of other illegal activities.

                               LEADERSHIP

    No environment is more compelling, urgent, or consequential to U.S. 
drug control policy than that of the Western Hemisphere. The violent 
consequences of illicit drug trafficking and the social disruption and 
public health threat caused by drug consumption are evident. Although 
the United States itself produces illicit drugs, and the Northern 
border is a region exploited by drug traffickers, the majority of the 
cocaine and heroin available in the United States is produced by 
transnational drug trafficking organizations operating in the nations 
to the south. Substantial proportions of methamphetamine traverse 
Central America and Mexico en route to the United States. Cocaine also 
is exported to Europe, increasingly through West Africa. The quantity 
of illegal trafficking leaves nations in the region vulnerable to the 
violence, institutional instability, and public corruption caused by 
international trafficking organizations and local criminal gangs 
involved in a wide variety of criminal enterprises.
    President Obama reiterated the need for a clear and cooperative 
approach to the most pressing issues in this hemisphere at the Summit 
of the Americas in 2009, and followed up during his recent visits to 
Brazil, Chile, and El Salvador. As he noted again in Santiago, progress 
in the Americas has not come fast enough for ``the communities that are 
caught in the brutal grips of cartels and gangs, where the police are 
outgunned and too many people live in fear.''
    We are working internationally to develop and implement a similar 
comprehensive approach through programs that we do at home. Again, 
citing the President, we are working with ``our partners from Colombia 
to Mexico and new regional initiatives in Central America and the 
Caribbean.'' We have increased our support for security forces, border 
security, and police to keep communities safe. But we are doing more. 
As the President said, `` . . . we will never break the grip of the 
cartels and the gangs unless we also address the social and economic 
forces that fuel criminality. We need to reach at-risk youth before 
they turn to drugs and crime. So we are joining with partners across 
the Americas to expand community-based policing, strengthen juvenile 
justice systems, and invest in crime and drug prevention programs.''
    We do this with the understanding that circumstances differ 
dramatically among nations in the hemisphere, requiring flexibility, 
pragmatism, and program adaptation. The role of the Office of National 
Drug Control Policy remains to lead and coordinate interagency actors 
and programs to advance the President's policy efficiently and 
effectively domestically and internationally.
    To highlight the importance of drug policy issues in the Western 
Hemisphere, I have visited and met with high ranking public officials 
in Colombia twice, Peru once, and Mexico numerous times since my 
confirmation as Director of National Drug Control Policy. In addition, 
ONDCP and the State Department cosponsored a bilateral demand reduction 
conference with Mexico last year, and we will do the same this summer. 
I hold regular discussions with partners involved in Western Hemisphere 
drug policy implementation and have visited the Southwest border region 
numerous times. This on-the-ground review has underscored the 
importance of coordinating U.S. agencies in support of our 
international allies' efforts to address drug violence in the 
hemisphere, stem the proliferation of drugs, enhance treatment and 
prevention programs, and obstruct the southbound flow of money and 
weapons. Our policy in the Western Hemisphere will continue to 
emphasize the importance of regular and reliable communication with our 
international partners. We strive to assist them in meeting the 
counterdrug objectives as they are defined and developed within their 
countries.

                    POLICY IN THE WESTERN HEMISPHERE

    The foundation of our Nation's hemispheric counterdrug policy 
consists of a series of interconnected regional approaches. These 
approaches include the Merida Initiative, the Southwest Border 
Counternarcotics Strategy, the Central American Regional Security 
Initiative (CARSI), the Caribbean Basin Security Initiative (CBSI), and 
the Colombian Strategic Development Initiative (CSDI). In addition, a 
``Northern Border Counternarcotics Strategy'' is under development--
with ONDCP as the lead--pursuant to Public Law 111-356, the Northern 
Border Counternarcotics Strategy Act of 2010.
    In recognition of the need to clearly and comprehensively enunciate 
the administration's approach to Western Hemisphere drug policy issues 
(excerpted from the 2010 ``National Drug Control Strategy''), ONDCP, in 
consultation with relevant interagency partners, is also preparing a 
single document that will merge the interlocking regional plans in 
Latin America. We expect this ``Western Hemisphere Counterdrug 
Strategy'' to be completed this summer. It will address interdiction 
and disruption of transnational criminal organizations, institutional 
strengthening, construction of strong and resilient communities, and 
drug demand reduction.
    In developing this Western Hemisphere Strategy, we must be 
cognizant of the unique political, social, and economic circumstances 
of the individual nations within the region that could affect 
implementation of drug control policies and programs. We will solicit 
input from a broad range of government and policy experts with 
experience in and knowledge of the issues and the region.

             FOUR PARTS TO THE WESTERN HEMISPHERE STRATEGY

    Security and Law Enforcement: We are placing much of our attention 
and resources in Central America, Mexico, and the Caribbean. 
Transnational drug trafficking organizations are most active there. In 
each of these three geographic areas, we support national institutions 
whose first function is to disrupt international criminal syndicates 
and powerful national-level criminal groups. The U.S. Government 
provides equipment, training, and law enforcement intelligence. In 
addition, a fundamental goal of our participation is to bring to bear 
the United States unique resources for high-seas interdiction, air 
smuggling detection and monitoring, and intelligence coordination to 
bolster the capacities of our allies.
    Strengthening Institutions: We support the strengthening of 
institutions that implement the rule of law, strengthen the democratic 
process, and inculcate respect for human rights. In countries such as 
Colombia and Mexico, which are transitioning from a paper-bound, 
anachronistic criminal judicial system to faster and more transparent 
trial procedures, we are providing U.S. experts, sponsoring judicial 
exchanges, and training prosecutors and attorneys. In late February 
2011, the Department of Justice convened the 12th iteration of a 2-week 
Trial Advocacy course for Mexican Federal prosecutors. This course was 
held in Mexico City, with three assistant U.S. attorneys from Utah, 
Texas, and Oregon serving as instructors. The United States also funds 
human rights education for law enforcement and security, as part of the 
Merida Initiative, and such programs are a core component of our 
assistance to Colombia.
    Strong and Resilient Communities: We provide assistance in building 
strong communities that resist criminal enterprises and offer 
alternatives to drug abuse and crime. The United States Agency for 
International Development (USAID) works with regional partners to 
address the social and economic forces that fuel narcotics trafficking 
and other criminality. In source countries, USAID supports alternative 
development programs that provide rural populations with opportunities 
to earn sustainable, licit incomes in place of engaging in narcotics 
cultivation. USAID programs also work to expand community-based 
policing, strengthen juvenile justice systems, and support crime and 
substance abuse prevention programs. A critical element of this support 
for strong communities includes the sharing of, and increased access 
to, effective, evidence-based substance abuse prevention and treatment 
programming. For example, our leading nongovernmental demand reduction 
organization, the Community Anti-Drug Coalitions of America (CADCA), 
has been working to equip prevention leaders in several Western 
Hemisphere countries with the skills, knowledge, and resources needed 
to build effective coalitions. With support from the Department of 
State's Bureau of International Narcotics and Law Enforcement Affairs, 
CADCA's international work has focused primarily upon providing 
training and technical assistance to nongovernment organizations in the 
area of core competencies for community mobilization to reduce illegal 
drugs. Currently, CADCA is working in Peru, Guatemala, Honduras, El 
Salvador, Colombia, Mexico, and Brazil. In addition, the organization 
hosted a conference in Kingston, Jamaica, on March 2-4, 2011, for 
Caribbean University, government and international organization 
representatives to discuss how to prepare graduates to tackle the 
social, economic, and criminal consequences of the drug problem in the 
Caribbean, especially in the demand reduction field. The underlying 
purpose was to prepare government officials and intellectuals to deal 
with the consequences of drug trafficking and abuse.
    Prevention and Treatment: The United States shares prevention and 
treatment knowledge and best practices bilaterally and through 
international agencies such as the Inter-American Drug Abuse Control 
Commission (CICAD) Experts Group on Demand Reduction, which the United 
States currently chairs. In that forum, we anticipate focusing experts 
on support for three key elements of CICAD's Hemispheric Drug Strategy 
and its implementation plan, which was approved in Guadalajara on 
February 25. Specific areas of focus currently being explored mirror 
three major demand reduction signature initiatives highlighted in the 
National Drug Control Strategy: community-based prevention, drugged 
driving, and prescription drug abuse.

                  BRINGING THE REGIONAL PLANS TOGETHER

    Merida Initiative: The United States collaboration with the 
Government of Mexico against violent drug trafficking organizations is 
monumental in its scope and commitment. In order to disrupt entrenched 
drug trafficking organizations throughout the country, significant 
time, resources, and perseverance by both governments will be required. 
The U.S. Congress has appropriated $1.5 billion for Mexico since the 
inception of the Merida Initiative in FY 2008, of which over $400 
million has been expended to date and over $500 million more is planned 
for delivery in 2011. In 2009, the Governments of the United States and 
Mexico agreed on new goals to broaden and deepen our cooperation to 
affect lasting change. The programs to increase Mexican counterdrug 
capacity and to institutionalize our partnership focus on four pillars: 
Disrupt Organized Criminal Groups, Strengthen Institutions, Create a 
21st Century Border, and Build Strong and Resilient Communities.
    The Southwest Border Security Initiative: The administration is 
backing up its commitment by making major investments along the 
Southwest border. The Southwest Border Security bill, signed by 
President Obama in August 2010, included $600 million in supplemental 
funds for enhanced border protection and law enforcement on the U.S. 
side of the border. To ensure the effective coordination of resources 
and initiatives related to the National Southwest Border 
Counternarcotics Strategy (Southwest Border Strategy), I have formed a 
Southwest Border Strategy Executive Steering Group, which has met five 
times since I became Director of ONDCP in 2009. The group is comprised 
of officials from the Departments of Justice, State, Homeland Security, 
Defense, Treasury, and others, and meets to oversee Southwest Border 
Strategy implementation and address any issues which may impede our 
progress. The group has guided preparation of the Southwest Border 
Strategy and a companion document on Southwest Border Strategy 
implementation that was transmitted to Congress in the fall of 2010.
    Northern Border Strategy: Our Northern border communities and our 
Nation as a whole are significantly impacted by the large scale 
trafficking of synthetic drugs and high potency marijuana from Canada. 
Canada is the primary source of MDMA/Ecstasy--a dangerous drug which is 
often made more potent due to synthetic drug producers adding 
methamphetamine or other substances into the product. DHS and the DOJ 
have increased the presence of personnel, technology, and other 
resources on the border in response to this significant threat, however 
additional efforts are required due to the scale of the trafficking 
activity. Canada has also taken some important steps to address the 
drug threat--notably enacting in late March 2011 new tougher penalties 
for involvement in synthetic drug production. The National Northern 
Border Counternarcotics Strategy (Northern Border Strategy), currently 
under development by ONDCP and our interagency partners, will 
articulate the administration's plans to substantially reduce the flow 
of illicit drugs and drug proceeds in both directions across the border 
with Canada , with a focus on small border communities and enhanced 
relationships and cooperation with tribal governments. The drafting 
process for the Northern Border Strategy involves close consultation 
with Congress, State and local entities, tribal authorities, community 
coalitions, and the Government of Canada. Upon completion this summer, 
it will address our combined efforts in the following areas: 
intelligence collection and information-sharing; interdiction at and 
between ports of entry, as well as in the air and maritime domains; 
investigations and prosecutions; and disrupting and dismantling drug 
trafficking organizations.
    Central American Regional Security Initiative (CARSI): Addressing 
the threat beyond the Mexican border, CARSI responds to multiple 
threats facing the region and builds upon existing strategies and 
programs, both on a bilateral and regional basis. It is designed to 
disrupt the flow of narcotics, arms, weapons, and bulk cash generated 
by illicit drug sales, and to confront gangs and criminal 
organizations. CARSI aims to integrate our security efforts from the 
U.S. Southwest border to Panama, including the littoral waters of the 
Caribbean. The pillars of CARSI include fostering streets free of 
violence and crime; disrupting the movement of criminals and 
contraband; supporting strong and accountable governments willing to 
combat the drug threat with trained and resourced law enforcement; 
building state presence in communities at risk; and enhancing regional 
cooperation. CARSI is designed to produce a safer and more secure 
region where criminal organizations no longer wield the power to 
destabilize governments or threaten national and regional security and 
public safety; as well as to prevent the entry and spread of illicit 
drugs, violence, and transnational threats to countries throughout the 
region and to the United States.
    Caribbean Basin Security Initiative (CBSI): CBSI is a broad 
initiative focused on citizen safety that brings all members of CARICOM 
and the Dominican Republic together to collaborate on regional security 
with the United States as a partner. The United States and partnering 
Caribbean countries have identified three strategic priorities to deal 
with the threats facing the Caribbean: to substantially reduce illicit 
trafficking in drugs and interrupt the flow of illegal arms; to advance 
public safety and security through programs ranging from reducing crime 
and violence to improving border security; and to further promote 
social justice through expanding education and workforce development 
opportunities for at-risk youth and other vulnerable populations as an 
alternative to crime and other illicit activity, and reforming the 
juvenile justice sector, combating government corruption, and expanding 
community-based policing.
    Colombian Strategic Development Initiative (CSDI): CSDI is the 
United States interagency program to support the Colombian National 
Consolidation Plan. CSDI coordinates U.S. foreign assistance by 
focusing, combining, and sequencing aid in priority regions where 
international assistance fills gaps in Colombian Government 
programming. CSDI will help Colombia transition into a post-conflict 
country and aims to strengthen the strategic partnership between the 
United States and Colombia by advancing the long-term national security 
interests of both nations. Although Colombian Government programming 
was weighted toward public security enhancements during the early 
phases of state consolidation, CSDI is an inherently civilian-led 
effort. USAID is the lead agency within the U.S. Embassy in Bogota for 
CSDI coordination and implementation. CSDI collaborates with the 
Colombian Federal Government and 14 civilian ministries. CSDI 
recognizes that security gains made during the Plan Colombia period 
will only be sustainable if local populations become confident that the 
Colombian state--in its local, departmental, and national forms--is a 
more reliable partner than illegally armed groups which have previously 
exercised de facto control in these zones.

                   ACCOMPLISHMENTS AND THE WAY AHEAD

    We must reduce the demand for drugs and the supply of drugs both at 
home and within our partner nations. Rising drug consumption rates 
continue to plague nations such as Mexico, Brazil, and Argentina. We 
must provide more assistance within the hemisphere to understand the 
importance of strengthening their public health capacities. There is 
considerable work to be done in this area. Accordingly, we are 
increasingly emphasizing international efforts in demand reduction to 
prevent the onset and progression of drug use among youth and urge that 
treatment and recovery support services be provided for individuals 
with substance use disorders. We are accomplishing this at home through 
guidance, training, and technical assistance in the implementation of 
evidence-based best practices, such as school-based prevention 
programs; mass media educational campaigns; screening, brief 
intervention, and referral to treatment programs; testing and sanctions 
criminal justice programs; drug courts; and peer-based recovery support 
services.
    The United States is demonstrating its leadership on issues of drug 
demand reduction in the Western Hemisphere by chairing the Organization 
of American States (OAS)/CICAD Experts Group on Demand Reduction during 
2011-12, where we will work to emphasize the importance of 
strengthening the capacities of our partner nations to reduce the 
demand for illegal drugs as an essential component of comprehensive 
national drug control policies.
    With the help of our international partners, the United States has 
made historic progress in removing cocaine from the transit zone \1\ 
year after year. This removal, in combination with dramatically reduced 
cocaine production in Colombia, has resulted in a trend of higher 
prices and lower cocaine purity in the United States. From January 2007 
through September 2010, the price per pure gram of cocaine increased 
68.8 percent from $97.71 to $164.91, while the average purity decreased 
by 30 percent. Unlike in the past, we are now in the midst of a 
sustained, 3-year period of escalating prices and decreasing purity.
---------------------------------------------------------------------------
    \1\ A 6-million-square-mile area, including the Caribbean, Gulf of 
Mexico, and Eastern Pacific. The path(s) used by drug traffickers to 
transport illicit drugs to their market. Geographically, these paths 
normally connect, but do not include, the source and arrival zones. See 
National Interdiction Command and Control Plan--March 17, 2010 
(Glossary of Terms).
---------------------------------------------------------------------------
    Our strong partnership with Colombia has resulted in unequivocal 
success. Not only has Colombia become a safer, more prosperous country, 
it has expanded the rule of law and continues to instill respect for 
human rights. Gains in Colombia have directly translated into progress 
against drug trafficking in the United States. From the high point of 
output in 2001, Colombian potential production of heroin plummeted 82 
percent by 2009, which represents the latest data available. 
Comparably, potential cocaine production has decreased 60 percent over 
the same time period; moreover, total Andean potential production of 
cocaine has declined by 34 percent during this time. Reductions in 
purity and increases in price for street-level cocaine in the United 
States coupled with falling rates of cocaine use signal a major 
disruption of the market for Colombian cocaine.
    These achievements are a result of a comprehensive and balanced 
strategy of suppressing illegal drug cultivation and production, 
disrupting narcoterrorist organizations, and building effective 
national programs to expand government presence and security along with 
major economic development in the form of alternative livelihoods.
    We continue to move forward to improve the strength and number of 
our alliances in the hemisphere and promote the integration of demand 
and supply reduction. Today, a comprehensive Western Hemisphere 
Counterdrug Strategy, composed of numerous integrated programs and 
multinational partnerships, is becoming a reality. In developing the 
Strategy we are reaching out to Members of Congress, nongovernmental 
organizations, the counterdrug and countercrime divisions of the OAS, 
and foreign government partners in the region. We are convinced that 
their views need to be taken into consideration if we are to design a 
truly comprehensive, collaborative, and viable strategy. Thank you for 
your support and encouragement as we continue to strengthen our 
coordinated response to counternarcotics and citizen security issues in 
the Western Hemisphere. I look forward to working with the members of 
this committee and others in Congress toward these goals. Thank you for 
the opportunity to appear today and I am happy to address any questions 
that you may have.

    Senator Menendez. Thank you, Director.
    Ambassador Brownfield.

STATEMENT OF HON. WILLIAM R. BROWNFIELD, ASSISTANT SECRETARY OF 
   STATE, BUREAU OF INTERNATIONAL NARCOTICS CONTROL AND LAW 
    ENFORCEMENT AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Brownfield. Thank you, Mr. Chairman, Senator 
Rubio, for the opportunity to appear today. May I add my 
personal thanks for your flexibility in moving this hearing 
forward to this morning, thereby permitting the true 
aficionados of the great American pastime the possibility of 
being at National Stadium at 1:05 promptly this afternoon. 
[Laughter.]
    Last year, Mr. Chairman, in open hearing before this 
committee I said to you I did not intend to be the first INL 
Assistant Secretary to deemphasize Latin America programs. I 
meant it then. I mean it now. Latin America is at the core of 
INL's global mission.
    For my part, I divide our counternarcotics and citizen 
security challenges in the hemisphere into four strategic 
regional components. While they are all interconnected, each 
presents its own set of challenges. First, starting in the 
south, the Andean Ridge of South America has been our focus for 
nearly 40 years. We've made real progress with Plan Colombia 
and the Andean Counter-Drug Initiative. Congress has been 
generous in providing resources. Our challenge now is to 
transition our programs in the Andean Ridge to a long-term 
sustainable posture in political, budgetary, and operational 
terms. This challenge is complicated by the dichotomy between 
some governments of the region, like Colombia and Peru, with 
whom we have excellent relations, and other governments with 
whom our relationship is more complicated.
    Second, to the north, in Mexico we have entered the third 
year of our bilateral cooperation under Merida. Both 
governments have shown serious political commitment to 
cooperation and willingness to put behind us 175 years of 
complicated issues and tension. Congress again has been 
generous in appropriating funds to support the effort. American 
and Mexican citizens have paid the ultimate price for 
challenging the vicious organizations that threaten our 
communities on both sides of the border.
    We see progress today from Merida and the partnership. Our 
challenge I suggest is to deliver sufficient support, 
equipment, and results so that citizens on both sides of the 
border see the value of Merida and the bipartisan political 
consensus that maintains it.
    Third, we come to that large section of the planet that 
connects the north and the south, the Central American isthmus. 
Ironically, Central America is a victim of our successes in 
Colombia. As we disrupted narcotics shipping routes from the 
north coast of South America, the traffickers moved their 
networks to the Central American isthmus. There they found weak 
government institutions and willing partners in the local 
gangs.
    All of Central America is caught in this unholy vise of 
drugs and gangs. As the President put it in El Salvador last 
week, this is a shared problem requiring a shared response. 
Fortunately, we do not start from scratch. We already have the 
CARSI regional initiative and the Central American governments 
have developed their own priorities through the CECA security 
consultative mechanism.
    We have traditional partners like Canada, Europe, the IDB, 
and the OAS, and we have new partners from the region willing 
to play a more active role, such as Colombia, Chile, and 
Mexico. Several parts of the U.S. Government, State, Defense, 
development, law enforcement, have programs and contributions 
to make.
    Our challenge I suggest is to link these existing partners 
and processes together efficiently, provide an overarching 
strategic framework for cooperation, and treat Central America 
as a regional whole and not a collection of seven individuals.
    Fourth--and while few Caribbeans may agree with this, the 
Caribbean today does not suffer the same degree of threat as 
Central America. But it will. We have seen this movie before. 
As our programs and cooperation under Merida and the Central 
America security partnership take hold, the traffickers will 
react. And if the past is any indication, they will probe their 
old routes and networks in the Caribbean.
    Our strategic challenge is to build infrastructure in the 
Caribbean to discourage their return. If we do not, then we're 
merely moving from one side of the tennis court to the other in 
order to hit the ball from a different direction.
    Mr. Chairman, I've been in the Latin America business for 
more than 30 years and I've been in the counternarcotics and 
security, citizen security, business for nearly 20. I do not 
believe there is a silver bullet solution. I believe we must 
think strategically and patiently. I think we must recognize 
that Latin America is not a monolithic region and deal 
differently with different regions. I believe we must address 
all elements of the problem and from all points on the rule of 
law continuum, and we must work effectively with our partners 
to stretch limited resources.
    I foresee tremendous challenges. Skeptics will say they are 
insurmountable. Skeptics also said Plan Colombia was 
impossible. They were wrong then and I hope they're wrong 
again.
    I thank you and I look forward to your questions.
    [The prepared statement of Ambassador Brownfield follows:]

         Prepared Statement of Ambassador William R. Brownfield

    Chairman Menendez, Ranking Member Rubio, and other distinguished 
Senators, thank you for the opportunity to appear before you today to 
discuss counternarcotics and citizen safety efforts in the Western 
Hemisphere. Today, we are facing complex and evolving threats from a 
wide range of transnational criminal organizations, established drug 
traffickers, foreign terrorist groups, and violent youth gangs in the 
region. Illegal narcotics remain the financial lifeblood of these 
organizations and while the interdiction and eradication of narcotics 
remains a major priority, we recognize that these efforts cannot be 
sustained without holistic support for the rule of law, measured most 
importantly by the safety of citizens in each country.
    In South America, drug production often occurs in areas controlled 
by groups like Sendero Luminoso in Peru and the FARC and ELN in 
Colombia which use proceeds to wage wars on their governments. In 
Mexico, we face a different threat from groups willing to use shocking 
amounts of violence to protect their criminal interests with no 
political aspirations beyond that of sheer profit. The most emergent 
threat in the hemisphere is that facing Central America. As our partner 
nations in the Andes assume greater responsibility for expanding the 
rule of law and as our cooperation with Mexico continues to grow, 
transnational criminal organizations are moving deeper into Central 
America, where weak institutions and low capacity offer a climate of 
impunity for criminal activity. To meet this threat, the Department is 
accelerating and refocusing the Central American Regional Security 
Initiative (CARSI) as a Citizen Security Partnership for Central 
America, to address the region's most urgent needs and support the 
growth of the strong institutions needed to fight violence in 
coordination with regional partners like Colombia and Mexico as well as 
other international donors.
    However, progress in Central America will only push drug 
traffickers elsewhere if we do not support strong institutions 
throughout the hemisphere. Recognizing this, we are also implementing 
the Caribbean Basin Security Initiative (CBSI), to address citizen 
safety and regional cooperation throughout the Caribbean, another 
conduit through which drugs and other contraband can enter the United 
States. As these projects unfold in Central America and the Caribbean, 
and our partnerships with Mexico and Colombia continue to grow, we are 
putting in place a comprehensive approach to address crime, violence, 
and trafficking throughout the hemisphere.
    Meeting these challenges will not be easy, but we have considerable 
experience to draw upon. In Colombia, we now have a partner assuming 
greater responsibility for the rule of law within its own territory. 
Over the past decade, Colombia has developed a robust institutional 
capacity to combat narcotics cultivation and trafficking. We estimate 
that potential pure cocaine production potential in Colombia fell to 
280 metric tons in 2009, a 60 percent decline from 2001. More important 
than these numbers, however, are the critical reforms made by the 
Colombians, who are now increasing responsibility for counternarcotics 
programs, to promote development and greater inclusion throughout the 
population. Most critical of all, the Government of Colombia has 
implemented tax reforms needed to pay for these critical initiatives. 
The Colombian experience demonstrates that U.S. assistance, coupled 
with strong leadership and political will, provides the support needed 
for a country to take responsibility for its own security.
    Although each country is different, Colombia's success holds 
important lessons for the hemisphere. Today, Mexico faces unprecedented 
levels of violence and, while Mexican cartels do not have the political 
motives of the FARC or the ELN, the magnitude of the violence overcome 
by Colombia suggests that supporting strong institutions is also 
essential in Mexico. Together with Mexico, we have already made 
significant progress under the Merida Initiative. Since December 2008, 
we have delivered a total of $408 million in equipment, technical 
assistance, and training to Mexico and we are committed to delivering 
$500 million in assistance this calendar year. Assistance delivered to 
date has trained over 57,033 Mexican police and justice sector 
officials, provided $29 million in nonintrusive inspection equipment, 
and provided 11 helicopters, including eight Bell 412's and 3 UH-60M 
Black Hawks. Since December 2009, information-sharing and technical 
assistance from the United States has contributed to the arrest or 
elimination of over 20 major drug cartel figures in Mexico while 
information shared by our Mexican counterparts was critical to U.S. 
operations such as Xcellerator, Coronado, and Deliverance that resulted 
in thousands of arrests of Mexico-linked traffickers in the United 
States.
    However, as in Colombia, institutions will make the lasting 
difference in Mexico. Some major drug trafficking organizations in 
Mexico have splintered and increasingly fight among themselves, and are 
now expanding into enterprises beyond drug trafficking such as 
extortion, kidnapping, immigrant smuggling, protection rackets, and 
domestic drug retailing. Supporting our partners in Mexico to face this 
evolving threat for the long term must be the primary goal of our 
partnership under the Merida Initiative, and with that in mind we are 
shifting our focus away from provision of equipment, toward capacity-
building and training efforts.
    It is with these lessons that we move to address the threats 
challenging Central America. As pressure intensifies on criminal groups 
in both Mexico and Colombia, drug traffickers increasingly look to 
Central America as a sanctuary. Weak institutions, populations 
mistrustful of their governments after years of civil war, and remote, 
often unpatrolled national borders allow free reign to drug trafficking 
organizations from Mexico and South America as well as violent gangs 
with roots in our own cities. The situation in Central America is dire, 
with the per capita murder rates in Guatemala, El Salvador, and 
Honduras among the highest in the world.
    We have learned from Plan Colombia and the Merida Initiative that 
citizen safety must be our priority in this region; only by helping to 
protect the people of Central America can we hope to build the 
partnerships necessary to fight transnational crime. We have also 
learned that progress in one region without building institutions in 
the next will only move the threat. That is why we have launched both 
the Central American Regional Security Initiative (CARSI) and the 
Caribbean Basin Security Initiative (CBSI), two regional partnerships 
aimed at improving these nations' ability to cooperate with each other 
as well as with the United States.
    We are currently working to accelerate and refocus our assistance 
to Central America toward the most critical threats, and will review 
our assistance to ensure we coordinate efficiently and effectively with 
the international community. Our priorities in the region include 
helping Central American nations provide safe streets for their 
citizens, disrupting the flow of criminals and contraband across 
national borders, and extending governance and rule of law to 
vulnerable groups, especially youth. We will do this by rewarding 
strong, accountable governments and by enhancing our regional 
partnerships with Mexico and Colombia to provide their own assistance 
to the region. Already, we are preparing an up to $20 million 
``Challenge Grants'' initiative intended to increase host-nation 
support. The initiative will award assistance to the country that 
submits the most competitive proposal in key law enforcement, citizen 
safety, and rule of law areas. We are also working closely with 
Colombian police to provide joint training and support to law 
enforcement in Central America and pursuing curriculum reform at the 
region's police academies drawing from best practices in Panama. In 
high-crime communities, we are working with police and local 
organizations to establish model precincts, which appear to have 
already reduced crime in some of Guatemala's most dangerous 
communities.
    Continued support for these initiatives, and a continued focus on 
what works and what is sustainable, is the only way to meet the 
criminal threat facing our half of the globe. Crime and violence 
anywhere in this hemisphere threatens the United States as well as its 
neighbors, and we must work together to ensure the security and well-
being of all Americans.
    Thank you Chairman Menendez, Ranking Member Rubio, and other 
distinguished Senators for your time. I look forward to answering your 
questions.

    Senator Menendez. Thank you, Ambassador.
    Mr. Secretary.

STATEMENT OF WILLIAM F. WECHSLER, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR COUNTERNARCOTICS AND GLOBAL THREATS, DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Wechsler. Thank you very much, Mr. Chairman, Senator 
Rubio. I really do appreciate this opportunity to discuss the 
Department of Defense's efforts to confront narcotics 
trafficking and related criminal activity in the Americas. I am 
particularly pleased to testify along with Director Kerlikowske 
and Ambassador Brownfield, both of whom I've worked with for 
some time and I'm pleased to say both made a central focus of 
their efforts.
    Given the evolving drug-fueled security crisis in Mexico, 
the increased drug trafficking threat to Central America, and 
the President's recent visit to the region, this hearing is 
particularly timely. As the title of this hearing clearly 
conveys, controlling drug-related crime and thereby enhancing 
the security of our citizens is indeed a shared responsibility, 
not only among every country in the Americas, but also among a 
variety of institutions within each country.
    I'd like to begin by offering some observations on recent 
trends in narcotics-related crime. First, drug trafficking and 
other forms of organized crime have become truly global 
phenomenon. The globalization of the legitimate economy has 
benefited the illicit economy in many of the same ways. Today 
nearly every country in the world now suffers from some degree 
from illegal drug consumption, production, or drug-related 
corruption and violence. Where once the Department of Defense's 
counternarcotics efforts were focused in this hemisphere only, 
today we are supporting counternarcotics activities worldwide, 
most notably in Afghanistan.
    Second, transnational criminal organizations, or TCOs, are 
becoming increasingly networked as they form relationships with 
each other and at times with insurgent or terrorist groups. 
These relationships range from tactical, episodic interactions 
at one end of the spectrum to full narcoterrorism at the other. 
This threat networking also undermines legitimate institutions 
in a way that create opportunities for other threats. There is 
indeed a nexus between all of these related threats and they 
shouldn't be approached in siloed individual actions, but as a 
whole.
    Third, TCOs are increasingly diversifying into other forms 
of criminal activity in order to spread risk and maximize 
potential profit. In some regions, for example, drug 
trafficking TCOs also engage in kidnapping, armed robbery, 
extortion, financial crime, and other activities.
    It's important to note that the Department of Defense's 
counternarcotics support activities are carried out always at 
the request of U.S. or foreign law enforcement officials. 
Department of Defense support includes training, equipment, 
information-sharing, communications, intelligence analysis, and 
other cooperation.
    I truly give Congress the credit for having had the 
original vision, indeed this subcommittee in many respects, to 
recognize the important role that the Department of Defense can 
and should play to counter the threat of drug trafficking, and 
particularly in providing military support to law enforcement.
    Mr. Chairman, you referred to, in your opening statement, a 
recipe for victory. Indeed, the Department of Defense is proud 
to be a part of that recipe. DOD counternarcotics activities 
employ two principal force multipliers to make the best use of 
finite resources available. These are particularly important in 
the current fiscal environment.
    First, we always emphasize networked partnership, both with 
other countries and among U.S. institutions. Through building 
capacity among our international partners, we enhance their 
ability to work with their U.S. counterparts and maximize the 
value of taxpayer dollars.
    Second, we stress intelligence and information-driven 
operations. For example, Department of Defense increasingly 
provides detection, monitoring, and law enforcement endgame 
support based on queued intelligence. Such targeting is more 
cost effective than trying to patrol vast areas with limited 
air, marine, maritime, and other assets. We always must stress 
the need, as you noted, the balloon effect. While we're 
squeezing one end of the balloon, then we squeeze another to 
keep those hands on while we squeeze in another place.
    It's important to recognize that when we discuss the 
transnational nature of this threat this includes criminal 
activities that take place outside as well as within the United 
States. For example, the influence of Mexican TCOs extends well 
beyond the Southwest border to cities across the country, such 
as Atlanta, Chicago, and Detroit.
    Unfortunately, coordination of domestic and international 
activities can be especially challenging at times. Such 
coordination is, however, also increasingly important in an age 
when criminal globalization, threat networking, and 
diversification are making distance and borders less important.
    In this regard, the Department of Defense can play an 
important role in facilitating coordination and information-
sharing through mechanisms such as Joint Task Force North in El 
Paso and Joint Inter-Agency Task Force South in Key West, both 
of which are models of interagency and international 
cooperation.
    Finally, Mr. Chairman, Senator Rubio, we must recognize 
that it is our own demand for drugs that is the engine for this 
illicit supply chain. Ultimately, this threat will only be 
eliminated when our demand is eliminated. We take pride in our 
efforts at the Department of Defense to reduce drug abuse in 
the armed forces and the defense workplace and providing 
outreach to DOD families and their communities.
    Thank you again for the opportunity to testify. I welcome 
your questions and comments.
    [The prepared statement of Mr. Wechsler follows:]

               Prepared Statement of William F. Wechsler

                              INTRODUCTION

    Mr. Chairman, Senator Rubio, and other distinguished members of the 
subcommittee, I appreciate this opportunity to testify about 
counternarcotics-related issues in the Americas.
    The title of this hearing, ``A Shared Responsibility--
Counternarcotics and Citizen Security in the Americas,'' frames the 
issue perfectly. Controlling drug-related and other criminal 
activities, and thereby enhancing citizen security, requires 
responsibilities to be shared among every country in the Americas as 
well as among a variety of institutions in each country. My remarks are 
organized to address the five topics the subcommittee listed for this 
hearing:
  <bullet> Regional trends in the spread of narcotics-related activity;
  <bullet> The effectiveness and adequacy of current programs and 
        funding;
  <bullet> Addressing citizen security within and beyond existing law 
        enforcement efforts;
  <bullet> The issues of demand reduction and gun control as aspects of 
        shared responsibility; and
  <bullet> The need for greater coordination between our domestic and 
        international efforts.

                                 TRENDS

    I will address three major, interrelated trends in illegal drug 
activities: globalization, networked threats, and criminal 
diversification. Globalization refers to the reality that almost every 
country in the world now suffers to some degree from illegal drug 
consumption, production, or drug-related corruption and violence. 
Certain parts of the Americas suffer particularly acute challenges, 
which in some circumstances are severe enough to undermine effective 
governance. Even in less-afflicted areas, law enforcement and judicial 
institutions may need support from national defense and other 
instruments of government to build whole-of-government campaigns to 
cope with powerful transnational criminal organizations (TCOs) and/or 
gangs with international links. United States Department of Defense 
(DOD) counternarcotics (CN) programs, which were originally oriented 
primarily toward the Andes, the Caribbean and, within our own country, 
are likewise now globalizing. The DOD CN program globalization is most 
pronounced with regard to Afghanistan, where opium and cannabis profits 
help fuel insurgency, but DOD CN efforts also now reach areas as 
diverse as Western Africa and Eastern Asia.
    The second major trend is toward threat networking. This refers to 
a tendency for drug trafficking and other TCOs to network with each 
other and at times to enable, support, or facilitate insurgency or 
terrorism, as well as to corrupt legitimate government, finance, and 
trade. The depth and intensity of such networked relationships vary 
widely, from tactical, episodic transactions up through strategic 
alliances, but their defining characteristic is flexibility. While DOD 
and other parts of the U.S. national security community tend to focus 
on violent threats, the counternarcotics community has long understood 
the power of money, which is often the main thread binding threat 
networks together. In fact, the corrupting influence of hundreds of 
millions of illicit dollars may so badly erode governance in some 
places that it creates an enabling environment for other threats, 
whether or not a more direct nexus exists. In such circumstances, TCOs' 
money can be more powerful than violence. At the low end of the 
spectrum, an extremist group may use drug-related or other crime to 
finance arms purchases. At the high end of the spectrum, profit-
oriented crime can become so intertwined with political/ideological 
terrorism or insurgency that the distinctions blur. This narcoterrorism 
phenomenon continues to be most pronounced in Colombia, although that 
country has made enormous strides in recent years toward defeating such 
threats and expanding the rule of law. Colombia, in fact, is now 
helping other countries with some of the lessons it has learned.
    Globalization and threat association are often linked to criminal 
diversification. Some TCOs may specialize in trafficking drugs, 
weapons, false identity documents or other contraband, but the overall 
trend is toward diversifying criminal activities to spread risk and 
maximize profit potential. In some parts of the Americas, for example, 
some TCOs that primarily concentrate on drug trafficking also engage in 
kidnapping, armed robbery, extortion, petroleum diversion, and/or 
financial crime. In some countries, this criminal diversification is 
driven in part by governmental success in disrupting the illegal drug 
industry. Just as DOD CN efforts are globalizing, they are also 
extending into closely associated areas to enhance their effectiveness 
against drug trafficking and associated TCOs. For example, DOD is 
currently increasing its capabilities to support other U.S. Government 
and foreign authorities with Counter Threat Finance (CTF) efforts.

           EFFECTIVENESS AND ADEQUACY OF PROGRAMS AND FUNDING

    In discussing the effectiveness and adequacy of programs and 
funding, it is important to note that DOD CN and associated activities 
are carried out at the request of U.S. or foreign law enforcement 
officials, or other officials with CN responsibilities. Such DOD 
support includes training, equipment, engineering, information-sharing, 
communications, intelligence analysis, radar and other sensor 
information technology, transportation and other cooperation with U.S. 
and foreign authorities. DOD also supports others' efforts as it 
fulfills its statutory responsibility as the lead U.S. Federal agency 
for detection and monitoring of aerial and maritime transit of illegal 
drugs toward the United States, working with U.S. law enforcement and 
intelligence partners, as well as with foreign military, law 
enforcement, and other security forces. The point throughout is that 
DOD supports, and does not drive, CN and related efforts.
    In fiscal year 2010, the ``Drug Interdiction and Counterdrug 
Activities, Defense'' appropriation included slightly more than $1\1/2\ 
billion dollars, including $346.6 million appropriated for overseas 
contingency operations (OCO) in Afghanistan and for support elsewhere 
in Central Asia. When OCO appropriations are subtracted from the total, 
this funding tracks closely with the levels provided during most of the 
last decade. So, although TCOs are nimbly globalizing, diversifying, 
associating with other threat actors, and reaping rapidly-growing 
profits, DOD CN efforts are likewise globalizing, expanding and 
networking with other U.S. Government and international partners, but 
without a proportional increase in resources.
    DOD CN and related activities employ two principal ``force 
multipliers'' to mitigate the effects of these fiscal constraints. 
First, we stress partnership and networking, both with other countries 
and among U.S. institutions. Second, we stress ever-more sophisticated 
intelligence and information-driven operations. To illustrate 
partnership and networking, consider an example in which DOD works with 
the Department of State to provide radios, boats, training, and docks 
to a Central American country's Navy. DOD would do so not only to help 
that country address its drug trafficking challenges, but also to 
enhance that country's capacity to work with U.S. and other regional 
efforts. Those U.S. efforts increasingly combine military activities 
with law enforcement, intelligence, diplomatic, and even economic, 
governance development, and public-private partnership initiatives led 
by the State Department and other U.S. Government departments and 
agencies. The point is that in the long run--and these things take 
time--building flexibly networked international and interagency 
partnerships is more cost-effective than trying to rely on our own 
capabilities.
    Information-sharing represents a particularly important subset of 
building networked partnerships. Although there are many complexities 
to sharing and exploiting information among U.S. agencies and foreign 
partners, we view these programs as crucial to ``working smarter.'' To 
illustrate the point, DOD is moving toward conducting CN detection, 
monitoring, surveillance, reconnaissance, law enforcement ``endgame'' 
support, and associated missions based on ``cued'' intelligence or 
other information from many sources, including foreign liaison. Such 
targeting is more cost-effective than trying to patrol vast areas with 
limited air, maritime, or other assets. The CN Tactical Analysis Team 
(TAT) program provides an example. The U.S. Southern Command places TAT 
analysts at U.S. diplomatic missions and international law enforcement 
operations centers in 21 countries to coordinate and synchronize 
intelligence analysis and reporting to support operations against TCOs. 
DOD also works with other U.S. agencies to exchange CN-related 
information and expertise with other countries as enabled with efforts 
such as the Cooperating Nations Information and Exchange System (CNIES) 
program. CNIES provides near real-time air and maritime radar and other 
sensor track data to 24 countries in the Americas, enhancing 
cooperation with the U.S. Joint Interagency Task Force-South.

                            CITIZEN SECURITY

    President Obama's visit to El Salvador on March 22-23 highlighted 
the theme of citizen security in one of the American countries that has 
suffered from loosely structured, but transnationally networked 
criminal gangs. The idea is actually simple. Most people in almost any 
country do not care very much about criminal organizations in the 
abstract, but care deeply about whether their children can go to school 
without fear of being kidnapped or being pressured to join gangs. 
Specifically, the President announced the launch of the Central 
American Citizen Security Partnership, under which the United States 
will increase efforts to help ``address the social and economic forces 
that drive young people toward criminality.'' He added: ``We'll help 
strengthen courts, civil society groups, and institutions that uphold 
the rule of law,'' and that the United States will work closely with 
regional and international partners ``to confront the narcotics 
traffickers and gangs that have caused so much violence in all our 
countries.'' The President's initiative thus embodies the principle of 
networked, whole-of-government partnership a key focus of this hearing. 
The implication for DOD is that we will work even harder to broaden and 
deepen our interagency and international partnership approach and take 
a holistic view of security. As always, DOD will provide supporting 
efforts and complementary programs to overall strategic approaches led 
for the U.S. Government by the White House and the State Department, 
avoiding any overemphasis on military approaches.
    While we are on the topic of El Salvador, I would like to note with 
deep appreciation that El Salvador hosts a DOD CN forward operating 
location at its airport in Comalapa, which is critically important to 
regional CN detection and monitoring efforts.

          ILLEGAL DRUG DEMAND REDUCTION AND WEAPONS SMUGGLING

    The United States bears a special responsibility to improve its own 
illegal drug demand reduction efforts and to reduce weapons smuggling, 
as well as illegal financial flows, to other countries. Although 
illegal drug, weapons, financial, and other markets are global in 
scope, countries in our hemisphere are especially harmed by illegal 
supply and demand forces in the United States which blight so many of 
our own citizens' lives. Reducing illegal drug demand, gunrunning and 
money laundering are clearly among the three most prominent specific 
needs for increased coordination between domestic and international 
activities, which is one of the themes of this hearing.
    The DOD role in illegal drug demand reduction concentrates 
principally on eliminating drug abuse in the U.S. Armed Forces and 
Defense civilian workforce as well as reaching out to DOD families and 
their communities to reduce drug abuse. To address rising prescription 
drug rates, DOD plans to implement recommendations from the Chairman of 
the Joint Chiefs of Staff for its Drug Demand Reduction Program to 
expand testing to include commonly abused prescription drugs, establish 
random unannounced drug testing in-theater, establish mobile collection 
teams, complete the prescription drug verification portal, and make 
drug prosecution statistics part of readiness reporting. The National 
Guard, acting under the authority of the State and territorial 
governors, also plays an especially important role through community 
outreach and helping at-risk youth resist drug-related temptation. This 
is in keeping with the President's ``National Drug Control Strategy,'' 
which points out:

        The demand for drugs can be further decreased by comprehensive, 
        evidence-based prevention programs focused on the adolescent 
        years, which science confirms is the peak period for substance 
        use initiation and escalation into addiction. We have a shared 
        responsibility to educate our young people about the risks of 
        drug use, and we must do so not only at home, but also in 
        schools, sports leagues, faith communities, places of work, 
        and--other settings and activities that attract youth.

    The DOD role in reducing weapons smuggling from the United States 
to other countries concentrates on analytical support to law 
enforcement authorities with regard to weapons captured by foreign 
authorities. DOD likewise provides analytical support to U.S. law 
enforcement agencies in counterthreat finance efforts.

        COORDINATION BETWEEN DOMESTIC AND INTERNATIONAL EFFORTS

    The primary implication for the U.S. Government, and particularly 
for DOD, of TCOs' globalization, networking and diversification is that 
we have to build our own global, flexible, multifaceted networks to 
defeat threatening networks. Governments traditionally organized their 
functions in categories such as military, law enforcement, trade and 
financial regulation, courts, diplomatic, and economic development 
functions. Governments also tend to separate domestic and international 
activities even within such functions. There are many valid reasons for 
specialization, but governments are increasingly finding that we have 
to use all these tools and others in well-planned, long-term, 
integrated campaigns to be effective. For DOD, these lessons were 
powerfully reinforced by our difficult experiences in Iraq and 
Afghanistan, where counterinsurgency and stabilization require 
integrating all aspects of state activity to deprive the adversary of 
support, as well as to defeat his combat capabilities. For the U.S. 
Government, this has required drawing on parts of the government and 
cooperating with nongovernmental actors which have not traditionally 
participated so directly in our country's conflicts. DOD has also 
become more sophisticated, working with other U.S., foreign, and 
multilateral agencies and organizations, in conducting counternetwork 
efforts in areas such as defeating organizations that traffic in 
weapons of mass destruction materials, improvised explosive device 
materials and other threats. In another context, the critical factor in 
Colombia's impressive security progress has been strengthening 
governance and extending the effective reach of the state to previously 
underserved areas, including building the security forces' unity of 
effort with judicial, health, education, and other state functions.
    Cooperation within and among governments and other institutions has 
been the central theme of my remarks--and cooperation depends on 
coordination. In my opinion, the U.S. Government has made important 
improvements in recent years in coordinating on issues such as 
countering transnational crime, as exemplified by the President's 
Citizen Security Partnership with Central America. The DOD CN program 
plays an important set of supporting roles in such efforts, such as 
through the U.S. Northern Command's component Joint Task Force-North, 
in El Paso, TX. JTF-North coordinates much of the military training, 
engineering, communications, analytical and other support that DOD 
provides to U.S. law enforcement partners within our country. For 
example, JTF-North is coordinating DOD intelligence analysis and 
training support to the DEA-led interagency El Paso Intelligence Center 
(EPIC), including for the DHS-led Border Intelligence Fusion Section 
(BIFS). In the United States, we often find that coordinating domestic 
policy and activities with international efforts is especially 
challenging with our decentralized, federal system. Such coordination 
is, however, also increasingly important in an age when criminal 
globalization, threat association, and diversification are making 
distance and borders less important. JTF-North and EPIC, however, 
exemplify how federal task forces can partner with U.S. State and local 
officials to achieve effects that ripple well past our own country's 
borders.
    In dealing with sovereign foreign countries, the United States must 
be very careful to bear in mind our partners' sometimes very different 
legal, cultural, and political realities. The shared responsibility 
that is the theme of this hearing extends to a responsibility to 
understand and respect one another.
    Thank you for the opportunity to testify. I welcome your questions 
and comments.

    Senator Menendez. Thank you all for your testimony.
    We'll start with 7-minute rounds since I don't see as many 
members.
    Ambassador Brownfield, I am used to your humor, but for 
those who may not understand, we did not change the hearing for 
you to be able to make the 1 o'clock. There is a 2 o'clock 
Libya hearing before the full committee and, as much as I would 
want to defer to your interest in the national pastime, I just 
wanted the record to be clear as to why we changed the hearing.
    Ambassador Brownfield. But I remain grateful.
    Senator Menendez. We are happy that you're grateful.
    Let me start off, Director, with you. In recent weeks we 
learned that ATF officers were engaged in gun-walking, allowing 
thousands of weapons to be sold to Mexican cartels as part of a 
failed plan to gain intelligence and take down a major drug 
cartel. Were you aware of this strategy?
    Mr. Kerlikowske. No; I was not.
    Senator Menendez. To your knowledge, has the practice 
ceased?
    Mr. Kerlikowske. I know that the Attorney General has taken 
this very seriously and has ordered an investigation by the 
inspector general. I don't have any knowledge of the current 
ATF operations.
    Senator Menendez. Well, I am concerned about a major breach 
with our partner, Mexico, in this. A former ATF commander said 
``stemming the flow of guns to Mexico is a Herculean task, 
given the lack of law enforcement resources and political 
will.'' And he said ``I don't see how it's realistically going 
to slow down if we don't make changes in resources, laws, and 
policies.'' He went on to say it's important because people are 
being slaughtered.
    So I look to you and Ambassador Brownfield here and ask, 
What is our response here? The Mexican Government under 
President Calderon has taken this fight seriously. But how do 
we respond to the challenges?
    We have the most militarized border we have had in quite 
some time, all on the question of immigration. You would think 
that that militarized border would be able to see and act on 
gun trafficking.
    Mr. Kerlikowske. I would mention a couple things, Senator, 
on this issue. One is that the Southwest border strategy, which 
was issued by myself, Secretary Napolitano, and the Attorney 
General in June 2009 and is now by law being updated and ready 
to be released, that strategy 2 years ago for the first time 
addressed gun trafficking and had a chapter devoted to it.
    In response to that strategy, I think there have been 
unprecedented levels of focus and resources placed by the U.S. 
Government on gun trafficking and attempting to stem the flow 
of guns going south. Technology improvements, the training of 
Government of Mexico customs officials to search vehicles that 
in fact enter Mexico, gun trafficking cases and investigations, 
and an increase in ATF agents that have expertise in this area 
are all efforts.
    Additionally, the eTrace system, which was put into form 
for our Government of Mexico officials to use, will allow them 
as it becomes more robust to trace every gun that is seized in 
Mexico from its first point of retail sale.
    Senator Menendez. Well, I appreciate being able to trace 
guns that are sold in Mexico. The question is how we stop the 
flow before they get to Mexico. And it seems I hear a lot about 
how many people we are intercepting at the border in terms of 
immigration issues--and these are people who are basically 
looking simply to be able to feed their families but with all 
of the Border Patrol agents, Customs agents, DEA agents, ATF 
agents, etc., I can't understand how this flow of weapons 
continues largely unabated.
    Mr. Kerlikowske. Well, I think progress has been made. But 
I would also tell you, just from a long experience in law 
enforcement, that catching people with guns, particularly a 
small number of guns, one or two or three in the trunk of a 
vehicle, given the millions of people that transit these 
borders, makes it difficult.
    I'd love to see improvements in technology and I think that 
the----
    Senator Menendez. Do we really think it's just two or 
three?
    Mr. Kerlikowske. It's what's called the ants, that instead 
of taking a trunkful of guns, which in fact may be detected by 
a K-9, you have unlimited labor that can cross that border only 
carrying one or two or three guns at a time. So I think those 
days of seeing a trunkful of essentially assault weapons 
purchased in the United States are few and far between. It's 
the much smaller numbers, and of course I think that makes the 
job more difficult for Customs on both sides of the border.
    Senator Menendez. Well, the question then might be how we 
would stop or stem the sale. We have an incredible number of 
licenses along that border. So you have to be looking at how 
that sale is taking place as well.
    Ambassador Brownfield, the President was in the region last 
week. He reaffirmed his commitment to assisting the region in 
addressing the security crisis that is perpetuated by the 
narcotics trade and by drug trafficking organizations. Yet the 
budget request for fiscal year 2012 for State INL appears to be 
significantly reduced, at $575.6 million versus $701.4 million.
    Why the reduction when the challenge is greater? And is 
funding for Merida, CARSI, and CBSI being shifted to other 
accounts?
    Ambassador Brownfield. Senator, if you were to ask me if I 
would be pleased to have more resources to dedicate to this 
challenge, of course the answer is ``Yes.'' I, like every other 
head of a bureau, organization, or agency, would like to have 
more resources. I operate under the same budget, fiscal, and 
political realities as everyone else.
    I am comfortable that we can in fact seriously pursue our 
strategy in the four subregions that I tried to describe in my 
statement, the Andean Ridge, Mexico, Central America, and the 
Caribbean, with the resources that we have. It will be more 
difficult. It will require us integrating all parts of the U.S. 
Government into a single coherent approach. It will require us 
leveraging our partners, both traditional partners like Canada 
and Europe and nontraditional partners like Colombia and Chile 
and maybe Mexico. It will require us working more closely than 
we have in the past with the host governments themselves on 
their programs.
    I have said publicly, and I meant it, I believe we can put 
$200 million of INCL money into a Central America security 
partnership initiative this year, and I think that can in fact 
have serious impact. But I go back to the way I closed my 
statement: I cannot give you a solution by the end of this 
calendar year. We have to think long term. We have to think 
incrementally. And we have to be prepared to adjust as the 
traffickers adjust their own approach.
    Senator Menendez. Well, I appreciate your answer. Let me 
just say, we all are dealing with fiscal realities, but then 
again part of making budget decisions is looking at where your 
challenges and opportunities are and addressing them.
    These drugs end up on the streets of our cities. They 
ultimately addict our families. And while I am a big proponent 
and consider the director's work on demand reduction to be an 
essential part of this, I just don't get how, when we are 
seeing a rising challenge, when we are looking at every major 
drug trafficking route in Latin America and the Caribbean 
coming to the United States, when I look at the average 
homicide rates by global region and look at Latin America and 
the Caribbean being the largest in the world through that time 
period, I just don't get it. I just don't get it.
    I understand that in many areas we're going to have to do 
more with less, but this is a challenge where investing less 
has real consequences for us here at home. When we are seeing 
more flights and routes into the United States, greater 
challenges in Central America, and an inability to interdict 
guns going into Mexico we're going to do more with less? This 
is just one of those equations that just doesn't work. I wasn't 
a math expert, but I've got to be honest with you; this one 
doesn't add for to me.
    Senator Rubio.
    Senator Rubio. Thank you.
    Gentlemen, thank you for joining us today.
    I want to begin with the Ambassador, Ambassador Brownfield. 
I wanted to ask about Venezuela. I know that--well, first of 
all, how would you characterize their cooperation with us in 
regards to the counternarcotics efforts?
    Ambassador Brownfield. Senator, I would say, as I have been 
saying since the three very long years that I spent in 
Venezuela as the United States Ambassador there, from 2004 to 
2007, I would say that we have been very clear, very public, 
and very explicit that we are willing to cooperate with that 
government in a pragmatic manner to address common 
counternarcotics threats. And the response has been as close to 
zero as you can get in my diplomatic experience.
    Senator Rubio. I know we're focused today on the Central 
America routes through Mexico and into the Southwest, and 
that's clearly the most emergent issue. But what impact has the 
lack of cooperation from Venezuela had on the Caribbean route, 
the ability of drugs to enter, for example, through my home 
State of South Florida? Maybe that's a question for some other 
panelists, who may want to weigh in on it.
    Ambassador Brownfield. I'll start, Senator, and then 
obviously invite anyone else to add as they wish. My own view 
and the figures and statistics that I have read suggest an 
explosive growth in the movement, the transit, principally of 
cocaine and coca-related products through Venezuela on their 
way to market, a growth of somewhere between 500 and 1,000 
percent over the last 7 or 8 years.
    Logic and geography suggest that much of that that is 
pushing out through Venezuela heads through the eastern 
Caribbean and then across the Atlantic to West Africa and to 
markets in Europe. Some of it does not, obviously, and that 
part is of continued importance to the United States of 
America.
    The bottom line, however, is that in order for all of this 
product to process through Venezuela the traffickers require 
networks. Networks are formed of individuals who have in 
essence been corrupted to permit the flow of the illicit 
product, and at the end of the day that hollows out and 
corrupts institutions along the entire line.
    Now, you could argue that that is not necessarily the 
United States of America's problem and it is true. But the 
extent to which the product obviously leaves Venezuela and 
moves north to North America, it becomes our problem because we 
become its victims.
    Senator Rubio. Now I'm asking you to speculate, but do we--
or maybe you know the answer. Why is Venezuela so unwilling to 
help us or work with us on this, on this effort?
    Ambassador Brownfield. I will refrain from speculation, 
Senator, not because I don't have opinions, because in fact I 
do and they're pretty strongly formed opinions, but because it 
is not my place to offer assessments and policies on areas that 
are not strictly in my lane. I believe I can say that what the 
Government of Venezuela has said, largely through the 
mouthpiece of its own President, is: one, he believes that 
cooperation with the United States is inherently wrong because 
our objectives are inconsistent with his revolutionary 
objectives for the future; two, he has suggested publicly and 
frequently that the institutions of the United States 
Government with which he would be asked to cooperate--United 
States law enforcement, the Department of State, and even the 
Department of Defense--are not reliable partners for him; and 
three, he has suggested publicly and with great frequency that 
he is having greater success in this effort without cooperation 
with the United States of America than with it.
    That is what he has said and I will spare you having to ask 
the next question. I actually do not agree with any of those 
three conclusions.
    Senator Rubio. Briefly I want to talk about insurgent 
terrorist groups, particularly the FARC. What is their 
relationship and status in Venezuela and how does that all play 
into all of this narcotics issues?
    Ambassador Brownfield. Senator, you're going to get me in 
trouble because once again you put a question to me that 
technically is not right up my lane. However, I will answer it.
    Senator Rubio. And I----
    Ambassador Brownfield. I will answer it, Senator.
    Senator Rubio. OK, good. I didn't know whose lane it was.
    Ambassador Brownfield. You need not worry. Reticence has 
never been something that anyone has accused me of.
    I do not answer this question purely as the Assistant 
Secretary of State for INL. I do have a right to some views 
based upon the fact that I was also United States Ambassador to 
Venezuela from 2004 to 2007 and to Colombia from 2007 to 2010. 
It is my belief that the FARC is today one of the largest 
narcotics trafficking organizations in the entire world, that 
they process much of their funding through this industry and 
through this business.
    It is my opinion that the same networks that move illicit 
product, narcotics, from Colombia through Venezuela and out to 
market are precisely the same networks by which the FARC is 
able to acquire supplies, weapons, munitions, and so forth. It 
is my opinion, which I believe has been expressed by a number 
of senior U.S. Government officials over the last 2 or 3 years, 
that a substantial amount of the senior FARC leadership, three 
members of its seven-member Secretariat, do in fact have near-
permanent presence on the Venezuelan side of the border.
    How this all ties together in terms of the narcotics 
question I submit to you is--it's a matter of common sense. But 
I do believe it is part of the larger question of how to 
address the flow of cocaine and illicit drugs from the Andean 
Ridge to markets either in North America or in Europe.
    Senator Rubio. So to summarize your testimony in your 
capacity as a former Ambassador to Colombia and Venezuela and 
just what we've gathered here today, would it be accurate to 
say that the Government of Venezuela does not cooperate with us 
on counternarcotics efforts, in fact potentially undermines us 
on it; that for some reason, which I'm sure we'll know the 
answer to shortly, they in fact allow these organizations to 
operate within their country almost with impunity; and to top 
it all off, they provide safe harbor to the leaders of 
insurgent terrorist groups who, in addition to terrorizing the 
neighborhood, the region, also are heavily involved with 
narcotics trafficking. Is that an accurate assessment of 
Venezuela's role in all of this?
    Ambassador Brownfield. Senator, I've learned never to 
challenge the observations of a Member of the U.S. Senate.
    Senator Rubio. I've only been here 12 weeks. I'm not that 
smart yet.
    Thank you.
    Senator Menendez. Thank you, Senator Rubio.
    I have just another round of questions here. Ambassador, in 
your estimation, what region of the world poses the greatest 
threat to U.S. interests from narcotics trafficking?
    Ambassador Brownfield. I believe this is probably the 
answer you suspect I'm going to give you, and it would be from 
Latin America and the Western Hemisphere.
    Senator Menendez. I asked you that because I want to 
reiterate that the funding seems to be incongruent with the 
threat. And to the extent that we all have to live with the 
economic challenges that confront the Nation, we should at 
least line up the funding with the threat at the end of the 
day.
    I hope we can work with our friends in the administration 
to at least organize and focus our funding if we have to deal 
with a significant reduction of funds in light of a rising 
challenge.
    Ambassador, in addition to traditional security assistance, 
President Obama has recognized that in order to stem the flow 
of narcotics we need to address the factors that perpetuate the 
narcotics trade, namely poverty and lack of economic 
opportunity. Now, these are traditionally areas funded by 
USAID. But, having served in the region and witnessed the 
process of trial and error that eventually yielded a beneficial 
program in Colombia, what value do you place on complementing 
traditional narcotic assistance with development assistance, 
and do you think we are doing enough in the region to address 
the underlying causes of the narcotics trade?
    Ambassador Brownfield. Senator, let me offer you kind of 
Brownfield's theory on this matter, and it's something that has 
developed and I think I have been learning over the last 20 
years and certainly over the last say 10 years when I've been 
serving as an ambassador, because I do believe this is an 
evolving process and we have been learning lessons on this 
front since at least the 1970s.
    First, I believe it is impossible to do an effective long-
term counternarcotics policy and program without integrating 
development, economic, social, educational, and health care 
development into the program.
    Second, I believe it has to be more complicated than simple 
alternative development or, in its simplest possible terms, 
crop substitution, what we were trying to do perhaps in the 
1970s, where we would deliver a barrel of corn seed to the 
campesino and say: Here it is; go forth, grow corn rather than 
coca, and the world will be a better place. That did not work, 
for rather obvious economic reasons as well as security 
reasons.
    I believe the economic development eventually has to give 
that campesino, that community, a stake in its legitimate 
future. It must incorporate roads and drinking water and sewage 
and electricity and schools and clinics, so that the campesino 
not only sees that he has an alternative crop he can grow than 
coca or opium poppy, but he actually sees a future for him and 
his family, because I do accept the argument--I don't accept 
many of the arguments that I hear from those who are solicitous 
of coca growers--but I do accept the argument that these are 
not inherent criminals, these are not people who actually want 
to commit crime. These are people who live, if you will, at the 
margins of economic survival, who are looking out for the best 
interests of their families and are in fact therefore quite 
vulnerable to the attractions that are offered to them by the 
narcotics industry.
    Finally, as I address this issue kind of in the larger 
macrosense, if you will, my own view is we take a series of 
challenges. Let's use Central America as an example. I'm a very 
simple man from the Texas Panhandle and I have to think in very 
simple terms as to how we address this problem. I see a 
pyramid. At the top of the pyramid are two active threats that 
are affecting and attacking Central America and, through 
Central America, the United States of America. They are drug 
trafficking and illegal gangs. The two are connected, 
obviously, but not all drug traffickers are in gangs and not 
all gangs do drug trafficking.
    Those two active threats, next level down, are feeding on 
vulnerabilities in the region. The vulnerabilities are 
corruption, weak institutions, porous borders, disaffected 
youth who don't have education or economic possibilities, poor 
corrections systems, et cetera. That's level two.
    Level three then is what we, the U.S. Government and our 
international partners, can bring to bear to address those 
vulnerabilities and those weaknesses. That is where I see the 
essential importance of all the communities of the U.S. 
Government--the foreign affairs community, the developmental 
community, the defense or security community, and the law 
enforcement community--coming together, having a coherent 
approach by which this pie will be divided up so all of it is 
addressed in some way, shape, or form.
    Senator Menendez. All right.
    Ambassador Brownfield. Development is part of it.
    Senator Menendez. Let me ask you then, why, of the $1.6 
billion in law enforcement support promised under the Merida 
initiative, of which $258 million were assigned to Central 
America, only $20 million of it had been spent by April of last 
year, according to the GAO? What is happening there?
    Ambassador Brownfield. A very valid question, and what is 
happening----
    Senator Menendez. I have asked all valid questions.
    Ambassador Brownfield. An equally valid question, as with 
all of your other valid questions.
    What I believe is happening is the following. Congress 
appropriated very generous sums of money. They appropriated 
them to institutions, embassies, and INL sections in countries 
that had actually in the preceding 10 to 15 years drawn down to 
very, very small sections. They were not staffed and resourced 
to move this product quickly.
    They have in fact improved enormously. We have reached the 
point now where more than $400 million of goods and services 
have been delivered to Mexico, and I have promised the 
Secretary of State, who in turn has publicly promised the 
Mexican Government, that we will deliver another $500 million 
worth this calendar year.
    I believe that in turn is a function of the commitment of 
the various parts of the United States Government who do 
contracts, acquisition, and procurement to support us more 
aggressively in this effort and, finally, the importance of the 
host governments, Mexico and the seven Central Americans, but 
particularly Guatemala, Honduras, and El Salvador, to come to 
quick decisions on the equipment, the contracts, the services, 
and the goods that they want from us.
    My prediction, my hope, my prayer, is that we will have a 
better story to tell you as this year unfolds.
    Senator Menendez. So the answer is their capacity?
    Ambassador Brownfield. Capacity on three fronts, Senator. 
Yes, capacity on my front, which is to say my own people in the 
field, who have now been staffed up to the point where they 
have a higher capacity to process, capacity of the governments 
to receive and absorb this equipment, and finally capacity back 
here in headquarters of those parts of our departments and 
agencies who do acquisitions and contracts to move them more 
quickly.
    Senator Menendez. Finally, Director, you and I had an 
opportunity to talk and I think you've done a tremendous job 
going around the country on the issue of demand. I hope that we 
can focus on the hemisphere in a comprehensive way. As you 
know, I consider Merida, CARSI, and CBSI to be piecemeal 
approaches. In my mind, I hope integration will be part of your 
mission moving forward.
    Mr. Kerlikowske. I couldn't agree more, and I believe that 
the national drug control strategy serves as a good model of 
not only true consultation, but of wrapping together a whole 
host of domestic programs and recognizing the international 
partnerships. And I believe or I promise to you that that's 
what you'll see in a Western Hemisphere strategy.
    Senator Menendez. Thank you.
    Senator Rubio.
    Senator Rubio. Three quick questions for each of the 
panelists. Director Kerlikowske, how do we measure success with 
regards to our efforts on the southwest border? What are the 
metrics that we use?
    Mr. Kerlikowske. There are a host of metrics. I think that, 
one, we want to see a reduction in violence certainly in 
Mexico. Many of the metrics in fact are in Mexico, and 
assisting them in building along the four pillars that you're 
familiar with is particularly important. The amount of drugs 
seized, which can be a metric of both good and bad proportions, 
because, as we have seen increases in seizures, we can clearly 
attribute that to not only better cooperation with our 
government of Mexico counterparts, but we could also see that 
or attribute that to the increase in border authorities.
    The number of guns seized, the amount of training that 
occurs for Government of Mexico officials, not just customs but 
organizations such as CSET and others.
    Then last, making sure that we recognize--and I think this 
is one part that is not always recognized very well by people 
here in the United States--is Mexico is not just to be thought 
of as a transit or a production nation. As the Ambassador has 
so clearly said, it should be thought of as a consumer nation 
also. And helping them reduce their own demand is critical to 
building up their own institutions.
    Senator Rubio. Secretary Wechsler, let's talk a little bit 
about Honduras. We have a strong history of cooperation with 
them. We saw some events happen governmentally for them in the 
summer of 2009. Where is that cooperation now? Is it back to 
the 2009 levels? What's the status of our cooperation with 
Honduras and our work there?
    Mr. Wechsler. We do have very good cooperation with 
Honduras. The status is improving, and there is also some way 
to go. It's a challenged country, as are many of its neighbors 
in Central America, by a growing problem that the Assistant 
Secretary so rightfully described, and we are happy to have the 
opportunity to cooperate with Honduras in a very positive and 
mutually constructive way.
    Senator Rubio. Finally, Ambassador, I hate to keep dragging 
you back to Venezuela and Colombia on these issues. But take it 
as a compliment. Your testimony on it comes with great 
credibility. I'm sure you're aware of this case of Walid 
Makled. Last Friday the Supreme Court in Colombia authorized 
the President to extradite him. We would like to bring him here 
and try him and so do the Venezuelans.
    Could you talk briefly about what your views are on that 
and how important it is to our counternarcotics effort to bring 
him here, to have him extradited to the United States?
    Ambassador Brownfield. Senator, I will be careful because, 
obviously, there is an ongoing U.S. possible prosecution here 
and I do not want to cross any redlines that would cause me--
that would cause concerns from the appropriate U.S. attorney's 
office and the U.S. law enforcement that are attempting to move 
the case.
    As you know, we have formally requested Mr. Makled's 
extradition to the United States to stand trial on serious 
narcotics-related charges. And as you presumably know, while 
the Supreme Court of Colombia has approved or authorized his 
extradition in response to both extradition requests, the 
Venezuelan request and the United States request, the 
Government of Colombia up to the level of its President, Juan 
Manuel Santos, has in fact stated publicly his intention to 
extradite the gentleman to Venezuela.
    My own view is the most important thing from our 
perspective is to ensure that any information that Mr. Makled 
might have that would be of value to U.S. law enforcement and 
future prosecutions is made available, that it is made 
available in a way that could in fact be of value to both U.S. 
law enforcement and for potential U.S. prosecution.
    It is my personal view that that is our essential objective 
right now, and how the final extradition process plays out I 
would guess is going to be a triangular matter between the 
Government of Colombia, the Government of Venezuela, and us.
    If you will permit me to conclude with one final comment, 
it is my personal view that hearing emphatically from some 
Members of the U.S. Congress that this extradition request to 
the United States is in fact a matter of great importance is 
actually helpful, not hurtful.
    Senator Rubio. And to that end, I'll make a comment on it 
now. You don't have to comment on it. It's always welcome. But 
Mr. Makled has--as you've stated, it's important for our 
counternarcotics efforts to have information that he may have 
made available to us. If that information were to potentially 
implicate some other nation state, perhaps one that he might 
even be extradited to, he probably is less willing to speak 
with regards to that information.
    I think it's critically important that he be extradited to 
the United States and therefore that our law enforcement 
agencies can take that and pursue it as need be. It's my 
intention, and I will speak to some other Senators as well in 
the hopes, if we can get a bipartisan group that will weigh in 
on this matter, stating that it's in the strong national 
interest of our Nation for Mr. Makled to be extradited to this 
country.
    Thank you for your testimony today.
    Senator Menendez. Thank you, Senator Rubio.
    Thank you all very much for your testimony and your 
insights. We look forward to continuing working with you in the 
days ahead.
    Let me introduce our second panel as we ask them to come 
up. In the interest of time, I'll start introducing them. Dr. 
Venda Felbab-Brown is a foreign policy and 21st century defense 
initiative fellow at the Brookings Institute. She focuses on 
the national security implications of illicit economies and 
strategies for managing them, and she is the author of 
``Shooting Up: Counterinsurgency and the War on Drugs.'' She 
has done research in Mexico and Colombia on many of the 
questions that interest us on the subcommittee such as the 
nexus between drug trafficking, crime, and the threat to 
citizen security, and we welcome her.
    Dr. Cynthia Arnson is the director of the Latin American 
Program at the Woodrow Wilson International Center for 
Scholars. She is a coauthor of ``Rethinking the Economics of 
War: The Intersection of Need, Creed, and Greed,'' and a 
seasoned Latin American hand who knows the challenges of 
countries in the Andean region--Central America, and Mexico. 
She has served as an academic, an advocate for human rights and 
a foreign policy aide in the House of Representatives during 
the Carter and Reagan administrations. We welcome her.
    Stephen Johnson is the new director of the Americas Program 
at the Center for Strategic and International Studies. He has 
more than 20 years of experience in Western Hemisphere affairs, 
spanning policymaking, policy advocacy, public affairs, in the 
Department of Defense, the Washington policy community, the 
State Department, and the U.S. Air Force. In 2007 to 2009 he 
served as Deputy Assistant Secretary of Defense for the Western 
Hemisphere Affairs.
    Eric Olson is the senior advisor to the Security Initiative 
at the Mexico Institute of the Woodrow Wilson International 
Center for Scholars here in Washington. He oversees the 
institute's work on United States-Mexico security cooperation 
and research on organized crime and drug trafficking between 
the United States, Mexico, and Central America. He is the 
coeditor of ``Shared Responsibility: U.S.-Mexico Policy Options 
for Confronting Organized Crime,'' and he is literally recently 
back from Mexico, having successfully made all his connecting 
flights. We appreciate you being here as well.
    Let's proceed in the order of introductions. Dr. Brown.

  STATEMENT OF DR. VANDA FELBAB-BROWN, PH.D., FELLOW, FOREIGN 
         POLICY, BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. Felbab-Brown. Senator Menendez, thank you for giving me 
this opportunity to address the committee on the important 
issue.
    You had mentioned during the previous session that crime-
related insecurity is a major problem in Latin America. Indeed, 
to an unprecedented degree citizens there complain about living 
in fear, fear from organized crime, but often critically 
neglected, also fear from street crime. Organized crime, such 
as drug trafficking and other illicit economies which are 
prevalent in the region, pose multiple threats to state and 
society. They threaten security and public safety. In some 
cases they can reach the very level of threatening national 
security of a country. Colombia is experiencing it. Perhaps one 
can argue also Mexico is experiencing it.
    They also threaten traditional law enforcement 
institutions, hollowing them out and corrupting them to a 
degree that they can no longer function.
    They have complex economic reasons, some of which are 
negative. Paradoxically, however, the relationship between 
human insecurity, citizen insecurity, organized crime, and law 
enforcement is a very complex one. In many parts of Latin 
America, governments struggle with the provision of a 
multifaceted state presence and public goods, socioeconomic 
goods, and critical legal employment. Thus, many segments, 
large segments, of society in Latin America find themselves 
trapped in dependence on illegal or, at minimum, informal 
economies.
    Paradoxically, thus, criminal organizations and 
belligerents that sponsor such illicit economies obtain not 
only large financial resources, but often also political 
support. This is because they provide what the state has failed 
to provide--jobs, socioeconomic benefits, and often, 
paradoxically, even order and safety on the street and dispute 
resolution mechanisms.
    It is important under these difficult conditions not to 
overemphasize or not to solely emphasize law enforcement 
response as the appropriate response to deal with the 
challenge. In such areas of state weakness and underprovision 
of public goods, increased law enforcement actions will often 
be insufficient, even though it might be a critical ingredient 
of the response.
    Rather, an effective state response to dealing with such 
organized crime and illicit economies will be equally 
multifaceted. It will incorporate socioeconomic programs to 
address the dependence, to remove the dependence of the 
population on criminal organizations. It will incorporate 
expanding access to rule of law and justice, so that 
populations do not go to organized crime groups for resolutions 
of their disputes.
    It will also, critically, incorporate moving from a law 
enforcement solely focused on organized crime to one of 
community policing that can build bonds with the population.
    It requires also a proper sequencing between measures to 
suppress illicit economies and once again developing social 
options for the population. Often, repressive measures only do 
not actually bankrupt belligerent groups, nor do they bankrupt 
criminal groups, but they can be deeply counterproductive by 
increasing the bonds between them and the population and 
weakening the bonds between the population and the state.
    Another policy response might well be reconceptualizing how 
we think about interdiction and the role of interdiction. 
Should it be merely or dominantly to focus on stopping the 
flows of illicit commodities or should it rather be one of 
focusing on reducing the coercive and corruption power of 
criminal groups? Such reconceptualization might require very 
different targeting packages than we frequently see.
    We need to realize that even with the regional policy, in 
the absence of a reduction in demand, drug trafficking will 
relocate somewhere, and there are limits to what even regional 
policies can do. It is of course very desirable to try to 
mitigate the negative responses by focusing on areas that are 
experiencing problems. Central America is a very good example. 
But we have to be very careful, we in the United States, in how 
we provide assistance, lest we run the risk of simply training 
more effective drug traffickers by training special forces that 
will go rogue in environments of extreme corruption and very 
weak law enforcement.
    Finally, I would like to suggest that the Obama 
administration has in fact moved to such a multifaceted 
response in Mexico. We can talk about funding and, as the 
previous panel acknowledged, it's always desirable to have more 
funding. But Beyond Merida is a much greater structure for a 
program than the previous Merida program was. The outgoing 
Ambassador, Carlos Pascual, deserves much credit for helping 
the Mexican Government to move away solely from high-value 
targets to a more multifaceted approach.
    Much work remains and Mexico remains a critical challenge.
    Much work also remains in Colombia, despite its 
achievements. One of the important possibilities for progress 
is for the Santos administration to move away from focus on 
Zero Coca, from conditioning all economic assistance to coca 
farmers upon them having eradicate all of coca. This policy is 
ineffective and frequently is also counterproductive.
    Thank you.
    [The prepared statement of Dr. Felbab-Brown follows:]

                Prepared Statement of Vanda Felbab-Brown

    Mr. Chairman and members of the subcommittee, I am honored to have 
this opportunity to address the subcommittee on the important issue of 
the impact of the drug trade and counternarcotics policies in the 
Western Hemisphere on citizens' security and U.S. national security 
goals. The threats posed by the production and trafficking of illicit 
narcotics and by organized crime, and their impacts on U.S. and local 
security issues around the world, are the domain of my work, and the 
subject of my book, ``Shooting Up: Counterinsurgency and the War on 
Drugs'' (Brookings, 2009). I have conducted fieldwork on these issues 
in Latin America and elsewhere in the world numerous times, including 
this year for 8 weeks in both rural and urban parts of Colombia, Peru, 
and Mexico.
    In my testimony, I first provide an overview of crime trends in the 
Western Hemisphere. I then sketch some of the dynamics of the crime-
insecurity nexus and its complex impacts on state security and 
citizens' security. In the third section, I discuss elements of a 
multifaceted response for addressing the threats generated by the drug 
trade while at the same time enhancing citizens' security. In the 
fourth section, I sketch key U.S. and local counternarcotics efforts in 
Mexico and Colombia.

          I. OVERVIEW OF ORGANIZED CRIME AND STREET CRIME AND
                    HUMAN SECURITY IN LATIN AMERICA

    Citizens' insecurity has greatly intensified over the past two 
decades in many parts of the Western Hemisphere. To an unprecedented 
degree, ordinary people in the region complain about living in fear of 
crime. With the exception of Colombia, criminal activity throughout the 
region has exploded. Overall, the rates of violent crime are six times 
higher in Latin America than in the rest of the world.\1\ Since the 
1980s, homicide rates in Latin America as a whole have doubled and are 
among the highest in the world. The available data show El Salvador 
with a murder rate of 57.3 per 100,000 in 2007; Colombia with 42.8 per 
100,000 in 2006, Venezuela with 36.4 per 100,000 in 2007, and Brazil 
with 20.5 in 2008.\2\ The U.S. homicide rate for 2009, the most recent 
data available, was 5 per 100,000.\3\ The United Nations considers a 
murder rate of more than 10 per 100,000 an epidemic rate of homicides.
---------------------------------------------------------------------------
    \1\ See, for example, Jorge Sapoznikow et al., ``Convivencia y 
Seguridad: Un Reto a la Gobernabilidad'' (``Coexistence and Security: A 
Challenge to Governability,'' Inter-American Development Bank, 
Washington, DC: 2000, and Centro Nacional de Datos, Fondelibertad, 
Ministrio de Defensa Nacional, Republica de Colombia, ``Cifras 
Extorcion'' (Extortion Rates), June 20, 2007; available from 
www.antisecuestro.gov.co/documentos/7_16_2007_4_58_07_
PM_CifrasHistorias.pdf, accessed May 17, 2008.
    \2\ ``Murder Rate Among Youths Soars in Brazil,'' The Washington 
Post, February 24, 2011. Since data collection, reporting mechanisms, 
and strength of law enforcement varies greatly among Latin American 
countries and many murders go unreported and undetected, there are 
limits to the accuracy of the data. Moreover, data are not always 
available for the same year for all countries.
    \3\ Ibid.
---------------------------------------------------------------------------
    Mexico far exceeds the epidemic threshold, reporting over 6,000 
deaths in 2008, over 6,500 in 2009, and over 11,200 in 2010 (more than 
a 75 percent increase over 2009), and with drug-related violence 
surpassing conflict-caused deaths in both Afghanistan and Iraq.\4\ 
Although it has received less media attention, Guatemala's homicide 
rate is four times that of Mexico's. Kidnapping is also frequent in the 
region. Well above 50 percent of the approximately 7,500 worldwide 
kidnappings in 2007 took place in Latin America.\5\
---------------------------------------------------------------------------
    \4\ ``Ejecutornetro 2010'' (Metrics of Execution 2010), La Reforma, 
accessed April 15, 2010, and December 27, 2010.
    \5\ ``La industria del secuestro esquilma a America Latina,'' El 
Pais, February 17, 2008.
---------------------------------------------------------------------------
    Organized crime is one of the principal sources of threats to human 
security but so is flourishing street crime, which frequently receives 
far less attention from governments in Latin America and the Caribbean. 
Indeed, law enforcement in Latin America is clearly struggling to cope 
with both organized and street crime, and two decades of efforts to 
improve and reform law-enforcement institutions have little to show in 
improvements in public safety and accountability of law enforcement. 
Many Latin Americans are deeply distrustful of and dissatisfied with 
their local law-enforcement institutions.\6\ Indeed, the provision of 
security in Latin America has been increasingly privatized, with large 
segments of the population relying on private security companies or 
even criminal organization for protection and basic order on the 
streets. Thus in Guatemala and Honduras private security personnel 
outnumber police by 5 to 10 times.\7\
---------------------------------------------------------------------------
    \6\ See, for example, John Bailey and Lucia Dammert, ``Public 
Security and Police Reform in the Americas,'' in Public Security and 
Police Reform in the Americas, Pittsburg: University of Pittsburg 
Press, 2006, pp.1-22.
    \7\ Michael Shifter, ``Central America's Security Predicament,'' 
Current History, February 1, 2011.
---------------------------------------------------------------------------
    Although the negative effects of high levels of pervasive street 
and organized crime on citizens' security, sometimes often referred to 
as human security, are clear, the relationships between human security, 
crime, illicit economies, and law enforcement are highly complex. Human 
security includes not only physical safety from violence and crime, but 
also economic safety from critical poverty, social marginalization, and 
fundamental underprovision of elemental social and public goods such as 
infrastructure, education, health care, and rule of law. Chronically, 
Latin American governments have been struggling to provide these public 
goods in large parts of their countries, in both the rural and urban 
areas.
    Multifaceted institutional weaknesses are at the core of why the 
complex relationships between illegality, crime, and human security are 
so inadequately dealt with. By sponsoring illicit economies in areas of 
state weakness where legal economic opportunities and public goods are 
seriously lacking, criminal groups frequently enhance some elements of 
human security even while compromising others. At the same time, 
simplistic law enforcement measures can and frequently do further 
degrade citizens' security. These pernicious dynamics become especially 
severe in the context of violent conflict.

             II. DYNAMICS OF THE CRIME-INSECURITY NEXUS AND
           THE COMPLEX THREATS THE DRUG TRADE POSES TO STATES

    A variety of actors have penetrated various illicit economies, 
including the drug trade, usually considered the most lucrative of 
illicit economies and estimated to generate revenues on the order of 
hundreds of billions of dollars a year.
    Participants in illicit economies include the populations that 
produce the illicit commodities and services; criminal groups such as 
drug trafficking organizations (DTOs) and mafias; belligerent actors 
such as terrorist, insurgent, paramilitary, and militia groups; and 
corrupt government and law enforcement officials.
    The penetration of the illicit economies by terrorist or insurgent 
groups provides an especially potent threat to states and regional 
stability since belligerent groups typically seek to eliminate the 
existing state's presence in particular locales or countries. The FARC 
in Colombia and the resurgent Sendero Luminoso (Shining Path) in Peru 
continue to profit from the drug trade and mobilize cocaleros alienated 
from the state as a result of crop eradication policies.
    Criminal organizations usually have more limited aims. However, 
groups such as the Comando Vermelho in Brazil or the Zetas in Mexico 
also seek to dominate the political life of a community, controlling 
the community's ability to organize and interact with the state, 
determining the extent and functions of local government, and sometimes 
even exercising quasi-control over the local territory. Thus they too 
can represent an intense and acute threat to governments, at least in 
particular locales.
    Youth gangs known as maras have spread rapidly through Central 
America, now often having individual memberships in the tens of 
thousands. Emerging out of limited social opportunities for extensive 
youth populations and their deep sense of alienation from the state, 
the maras have complex and varied linkages to organized crime. 
Sometimes they participate in drug trafficking, at other times they 
perpetrate street crime. But they often represent a major source of 
insecurity for the citizens of the countries they operate in, even as 
they provide a sense of identification, belonging, and empowerment to 
their disaffected members.
    Many Latin American criminal groups now increasingly operate across 
country borders. They traffic in drugs from the source country all the 
way to the final street distribution areas, as currently the Mexican 
DTOs do from the border of Colombia to the streets of United States. 
Similarly, Colombian DTOs operate in Bolivia; as do Brazilian 
traffickers in Peru. A newer, and particularly dangerous, development 
is the effort by Mexican DTOs, such as the Zetas and the Sinaloa DTO, 
do themselves control territory in transshipment countries of Central 
America.
    Moreover, beyond Colombia, several countries in Latin America have 
experienced the emergence of dangerous militia groups who pose 
significant threats to both communities and the state, even while 
presenting themselves as protectors of the citizenry against crime. In 
addition to Colombia, such militia groups have appeared, for example, 
in Brazil and Mexico.
    Extensive criminality and illicit economies generate multiple 
threats to states and societies. They corrupt the political system, by 
providing an avenue for criminal organizations to enter the political 
space, corrupting and undermining the democratic and legitimate 
process. These actors, enjoying financial resources and political 
capital generated by sponsoring the illicit economy, frequently 
experience great success in politics. They are able to secure official 
positions of power as well as wield influence from behind the scenes. 
The problem perpetuates itself as successful politicians bankrolled 
with illicit money make it more difficult for other actors to resist 
participating in the illicit economy, leading to endemic corruption at 
both the local and national levels. Guatemala, El Salvador, and Haiti 
are cases in point.
    Large illicit economies dominated by powerful traffickers also have 
pernicious effects on a country's law enforcement and judicial systems. 
As the illicit economy grows, the investigative capacity of the law 
enforcement and judicial systems diminishes. Impunity for criminal 
activity increases, undermining the credibility of law enforcement, the 
judicial system, and the authority of the government. Powerful 
traffickers frequently adopt violent means to deter and avoid 
prosecution, killing or bribing prosecutors, judges, and witnesses. 
Colombia in the late 1980s and Mexico today are stark examples of how 
the existence of extensive criminal networks and high levels of 
violence can corrupt and paralyze law enforcement and indeed the entire 
judicial system. The profound collapse of Guatemala's judicial system 
resulting from its penetration by criminal entities compelled the 
country to invite a special U.N. judicial body, the International 
Commission Against Impunity in Guatemala (CIGIG) to help its judiciary 
combat organized crime and state corruption.
    In addition to outright corruption by organized crime and impunity 
of powerful elites, judicial systems across Latin America are deficient 
in other ways: Justice is rarely equally available to all, is often 
painfully slow, and rarely produces significant convictions.
    Moreover, illicit economies have large and complex economic 
effects. Drug cultivation and processing, for example, generate 
employment for the poor rural populations and can even facilitate 
upward mobility. They also can have powerful macroeconomic spillover 
effects through boosting overall economic activity. But a burgeoning 
drug economy typically contributes to inflation that and can harm 
legitimate, export-oriented, import-substituting industries as well as 
tourism. It encourages real estate speculation and undermines currency 
stability. It also displaces legitimate production. Since the drug 
economy is more profitable than legal production, requires less 
security and infrastructure, and imposes smaller sunk and transaction 
costs, the local population is frequently uninterested in, or unable 
to, participate in other (legal) kinds of economic activity. The 
illicit economy can thus lead to a form of so-called Dutch disease 
where a boom in an isolated sector of the economy causes or is 
accompanied by stagnation in other core sectors since it gives rise to 
appreciation of land and labor costs. In Mexico, for example, the drug 
violence has already undermined not only Mexican citizens' human 
security and overall law and order, but also economic activity, 
including tourism.
    Most importantly, burgeoning and unconstrained drug production and 
other illicit economies and strong organized crime have profound 
negative consequences not only for local stability, security, and 
public safety, but at times also for national security. Illicit 
economies provide an opportunity for belligerent groups to increase 
their power along multiple dimensions--by gaining control of physical 
resources, and also by obtaining support from local populations. Such 
belligerents hence pose a serious security threat to local and national 
governments and, depending on the objectives of the group, to regional 
and global security. With large financial profits, the belligerent 
groups improve their fighting capabilities by increasing their physical 
resources, hiring greater numbers of better paid combatants, providing 
them with better weapons, and simplifying their logistical and 
procurement chains.
    Crucially and frequently neglected in the design of policy 
responses, however, is the fact that large populations in Latin America 
in areas with minimal state presence, great poverty, and social and 
political marginalization are dependent on illicit economies, including 
the drug trade, for economic survival and the satisfaction of other 
socioeconomic needs. For many, participation in informal economies, if 
not outright illegal ones, is the only way to satisfy their basic 
livelihood needs and obtain any chance of social advancement, even as 
they continue to exist in a trap of insecurity, criminality, and 
marginalization. The more the state is absent or deficient in the 
provision of public goods--starting with public safety and suppression 
of street crime and including the provision of dispute resolution 
mechanisms and access to justice, enforcement of contracts, and also 
socioeconomic public goods, such as infrastructure, access to health 
care, and education--the more the neglected communities can become 
dependent on, and even supportive of, criminal entities and belligerent 
actors who sponsor the drug trade and other illegal economies.
    Such belligerents derive significant political capital--legitimacy 
with and support from local populations--from their sponsorship of the 
drug and other illicit economies, in addition to obtaining large 
financial profits. They do so by protecting the local population's 
reliable (and frequently sole source of) livelihood from government 
efforts to repress the illicit economy. They also derive political 
capital by protecting the farmers from brutal and unreliable 
traffickers (bargaining with traffickers for better prices on behalf of 
the farmers), by using revenues from the illicit economies to provide 
otherwise absent social services such as clinics and infrastructure, as 
well as other public goods, and by being able to claim nationalist 
credit if a foreign power threatens the local illicit economy. In 
short, sponsorship of illicit economies allows nonstate armed groups to 
function as security providers and economic and political regulators. 
They are thus able to transform themselves from mere violent actors to 
actors that take on proto-state functions.
    Although the political capital such belligerents obtain is 
frequently thin, it is nonetheless sufficient to motivate the local 
population to withhold intelligence on the belligerent group from the 
government if the government attempts to suppress the illicit economy. 
Accurate and actionable human intelligence is vital for success in 
counterterrorist and counterinsurgency efforts as well as law 
enforcement efforts against crime groups.
    Four factors determine the size of the political capital which 
belligerent groups obtain from their sponsorship of illicit economy: 
the state of the overall economy; the character of the illicit economy; 
the presence (or absence) of thuggish traffickers; and the government 
response to the illicit economy.

  <bullet> The state of the overall economy--poor or rich--determines 
        the availability of alternative sources of income and the 
        number of people in a region who depend on the illicit economy 
        for their basic livelihood.
  <bullet> The character of the illicit economy--labor-intensive or 
        not--determines the extent to which the illicit economy 
        provides employment for the local population. The cultivation 
        of illicit crops, such as in Colombia or Peru, is very labor-
        intensive and provides employment to hundreds of thousands to 
        millions in a particular country. Production of 
        methamphetamines such as that controlled by La Familia 
        Michoacana (one of Mexico's drug trafficking organizations), on 
        the other hand, is not labor-intensive and provides livelihoods 
        to many fewer people.
  <bullet> The government responses to the illicit economy (which can 
        range from suppression to laissez-faire to rural development) 
        determine the extent to which the population depends on the 
        belligerents to preserve and regulate the illicit economy.

    In a nutshell, supporting the illicit economy will generate the 
most political capital for belligerents when the state of the overall 
economy is poor, the illicit economy is labor-intensive, thuggish 
traffickers are active in the illicit economy, and the government has 
adopted a harsh strategy, such as eradication, especially in the 
absence of legal livelihoods and opportunities. This does not mean that 
sponsorship of non-labor-intensive illicit economies brings the 
antigovernment belligerents or armed groups no political capital. If a 
non-labor-intensive illicit economy, such as drug smuggling in Sinaloa, 
Mexico, generates strong positive spillover effects for the overall 
economy in that locale (by boosting demands for durables, nondurables, 
and services that would otherwise be absent, and hence indirectly 
providing livelihoods to and improved economic well-being of poor 
populations) it too can be a source of important political capital. 
Thus in the Mexican state of Sinaloa the drug trade has at times been 
estimated to account for 20 percent of the state's Gross Domestic 
Product (GDP); and for some of Mexico's southern states, the proportion 
might be higher.\8\ Consequently, the political capital of the sponsors 
of the drug trade there, such as the Sinaloa cartel, is hardly 
negligible. Moreover, Mexico's drug trafficking organizations (DTOs) 
also derive important political capital from their sponsorship and 
control of an increasing range of informal economies in the country. 
Similarly, in Brazil the ability of drug gangs to provide better social 
services and public goods than the state has them to dominate some of 
country's poor urban areas. In such circumstances, the criminal groups 
and belligerents will also provide socioeconomic services, such as 
health clinics and trash disposal.
---------------------------------------------------------------------------
    \8\ Guillermo Ibara in Manuel Roig-Franzia, ``Mexico's Drug 
Trafficking Organizations Take Barbarous Turn: Targeting Bystanders,'' 
Washington Post, July 30, 2008.
---------------------------------------------------------------------------
    In addition, both criminal entities and belligerent groups will 
often provide security in the communities they dominate. Although the 
sources of insecurity and crime in the first place, once in power they 
have an interest in regulating the level of violence, and suppressing 
street crime, such as robberies, thefts, kidnapping, and homicides. 
Street or common crime in Latin America is extremely intensive, one of 
the highest rates in the world. Functioning as providers of public 
order and rules brings criminal entities important support from the 
community, in addition to facilitating their illegal business since it 
too benefits from the reduced transaction costs and increased 
predictability.
    Indeed, in many parts of Latin America, public safety has become 
increasingly privatized: with upper and middle classes relying on a 
combination of official law enforcement and legal and illegal private 
security entities, while marginalized segments rely on organized 
criminal groups to establish order on the streets. Organized criminal 
groups and belligerent actors, such as the Primero Comando da Capital 
in Sao Paolo's shantytowns, also provide dispute resolution mechanisms 
and even set up unofficial courts and enforce contracts. The extent to 
which they provide these public goods varies, of course, but it often 
takes place regardless of whether the nonstate criminal entities are 
politically motivated. Yet the more they do provide such public goods, 
the more they become de facto proto-state governing entities.
    Moreover, unlike ideologies of politically motivated belligerents, 
which promise rewards in the future, sponsorship of illicit economies 
allows belligerent groups to deliver in real time concrete material 
improvements to lives of marginalized populations and thus gain 
support. Especially when ideology wanes, and the brutality of the 
belligerents and criminal groups alienates the wider population, their 
ability to deliver material benefits to the population can preserve the 
belligerents' and criminal groups' political capital.
    The ability of illegal groups to provide real-time, immediate 
economic improvements to the lives of the population also explains why 
even criminal groups without ideology can garner strong political 
capital. This will be especially the case if the criminal groups couple 
their distribution of material benefits to poor populations with the 
provision of otherwise absent order and minimal security. By being able 
to outcompete with the state in provision of governance, organized 
criminal groups can pose significant threats to states in areas or 
domains where the government's writ is weak and its presence limited. 
Consequently, discussions of whether a group is a criminal group or a 
political one or whether belligerents are motivated by profit, 
ideology, or grievances are frequently overstated in their significance 
for devising policy responses.

                III. POLICY RESPONSES AND CONSIDERATIONS

    In areas of state weakness and underprovision of public goods, 
increased action by law enforcement agencies to suppress crime rarely 
is a sufficient response. Approaches such as mano dura policies, 
saturation of areas with law enforcement officers, especially if they 
are corrupt and inadequately trained, or the application of highly 
repressive measures are rarely effective in suppressing organized crime 
and often attack only the symptoms of the social crisis, rather than 
its underlying conditions.
    Policies that focus on degrading the belligerents' physical 
resources by attempting to destroy the illicit economy are frequently 
ineffective with respect to the objective of drying up the 
belligerents' resources. In the case of labor-intensive illicit 
economies where there are no legal economic alternatives in place, such 
policies are especially counterproductive with respect to securing 
intelligence and weaning the population away from the terrorists and 
insurgents. Eradication of illicit crops has dubious effects on the 
financial profits of belligerents. Even when carried out effectively, 
it might not inflict serious, if any, financial losses upon the 
belligerents since partial suppression of part of the illicit economy 
might actually increase the international market price for the illicit 
commodity. Given continuing demand for the commodity, the final 
revenues might be even greater.
    Moreover, the extent of the financial losses of the belligerents 
also depends on the ability of the belligerents, traffickers, and 
farmers to store drugs, replant after eradication, increase the number 
of plants per acre, shift production to areas that are not subject to 
eradication, or use high-yield, high-resistance crops. Belligerents 
also have the opportunity to switch to other kinds of illicit economies 
such as synthetic drugs. Yet although the desired impact of 
eradication--to substantially curtail belligerents' financial 
resources--is far from certain and is likely to take place only under 
the most favorable circumstances, eradication will definitely increase 
the political capital of the belligerents since the local population 
all the more will strongly support the belligerents and will no longer 
provide the government with intelligence.
    Policies to interdict drug shipments or measures to counter money 
laundering, while not alienating the local populations from the 
government, are extraordinarily difficult to carry out effectively. 
Most belligerent groups maintain diversified revenue portfolios. 
Attempts to turn off their income are highly demanding of intelligence 
and are resource-intensive. Colombia provides one example when drug 
interdiction efforts in particular locales registered important 
tactical success against the FARC and reduced its income. The overall 
improvement in Colombia's military and counterinsurgency policy, 
however, was the critical reason for the vast improvements in security 
in the country and the success against the FARC.
    Counterinsurgency or anti-organized-crime policies that focus on 
directly defeating the belligerents and protecting the population tend 
to be more effective than policies that seek to do so indirectly by 
suppressing illicit economies as a way to defeat belligerents. Efforts 
to limit the belligerents' resources are better served by a focus on 
mechanisms that do not harm the wider population directly, even though 
such discriminate efforts are difficult to undertake effectively 
because of their resource intensiveness.
    Overall therefore, counternarcotics policies have to be weighed 
very carefully, with a clear eye as to their impact on 
counterinsurgency and counterterrorism. Seemingly quick fixes, such as 
blanket eradication in the absence of alternative livelihoods, will 
only strengthen the insurgency and compromise state-building, and 
ultimately the counternarcotics efforts themselves.
    Effectiveness in suppressing illicit economies is critically 
predicated on security. Without constant and intensive state presence 
and security, neither the suppression of illicit economies nor 
alternative livelihoods programs have been effective.
    It is also important to note that some alternative illicit 
economies, and new smuggling methods to which belligerents are pushed 
as result of suppression efforts against the original illicit economy, 
can have far more dangerous repercussions for state security and public 
safety than did the original illicit economy. Such alternative sources 
of financing could involve, for example, obtaining radioactive 
materials for resale on the black market. Reports that the leftist 
Colombian guerrilla group, the FARC, acquired uranium for resale in 
order to offset the temporary fall in its revenues as a result of 
eradication during early phases of Plan Colombia before coca 
cultivation there rebounded, provide an example of how unintended 
policy effects in this field can be even more pernicious that the 
problem they are attempting to address. The traffickers' switch to 
semisubmersibles for transportation of drugs is another worrisome 
example of unintended consequences of a policy, this time intensified 
air and maritime interdiction. The more widespread such transportation 
technologies are among nonstate belligerent actors, the greater the 
likelihood that global terrorist groups will attempt to exploit them 
for attacks against the U.S. homeland or assets.
    Similarly, in the absence of a reduction of global demand for 
narcotics, suppression of a narcotics economy in one locale will only 
displace production to a different locale where threats to local, 
regional, and global security interests may be even greater. 
Considerations of such second- and third-degree effects need to be 
built into policy. An appropriate response would be a multifaceted 
state-building effort that seeks to strengthen the bonds between the 
state and marginalized communities dependent on or vulnerable to 
participation in the drug trade for reasons of economic survival and 
physical insecurity. The goal of supply-side measures in 
counternarcotics efforts would be not simply to narrowly suppress the 
symptoms of illegality and state-weakness, such as illicit crops or 
smuggling, but more broadly and fundamentally to reduce the threat that 
the drug trade poses to human security, the state, and overall public 
safety.
    Effective state response to intense organized crime and illicit 
economies usually requires that the state address all the complex 
reasons why populations turn to illegality, including law enforcement 
deficiencies and physical insecurity, economic poverty, and social 
marginalization. Such efforts entail ensuring that peoples and 
communities will obey laws. One component is increasing the likelihood 
that illegal behavior and corruption will be punished. An equally 
important component is creating a social, economic, and political 
environment in which the laws are consistent with the needs of the 
people and therefore can be seen as legitimate and can be internalized.
    In the case of efforts to combat illicit crop cultivation and the 
drug trade, one aspect of such a multifaceted approach that seeks to 
strengthen the bonds between the state and society and weaken the bonds 
between marginalized populations and criminal and armed actors would be 
the proper sequencing of eradication and the development of economic 
alternatives. Policies that emphasize eradication of illicit crops, 
including forced eradication, above rural development, such as 
alternative livelihoods efforts, have rarely been effective. Such 
sequencing and emphasis has also been at odds with the lessons learned 
from the most successful rural development effort in the context of 
illicit crop cultivation: Thailand. Indeed, Thailand offers the only 
example where rural development succeeded in eliminating illicit crop 
cultivation on a countrywide level (even while drug trafficking and 
drug production of methamphetamines continue).
    Effective rural development does require not only proper sequencing 
of security and alternative livelihoods development, but also a well-
funded, long-lasting, and comprehensive approach that does not center 
merely on searching for a replacement crop. Alternative development 
efforts need to address all the structural drivers of why communities 
participate in illegal economies--such as poor access to legal markets, 
deficiencies in infrastructure and irrigation systems, no access to 
legal microcredit, and the lack of value-added chains.
    But the economic approaches to reducing illegality and crime should 
not be limited only to rural areas: there is great need for such 
programs even in urban areas afflicted by extensive and pervasive 
illegality where communities are vulnerable to capture by organized 
crime, such as in Mexico or Brazil. Often the single most difficult 
problem is the creation of jobs in the legal economy, at times 
requiring overall GDP growth. But GDP growth is often not sufficient to 
generate jobs and lift people out of poverty as long the structural 
political-economic arrangements stimulate capital-intensive growth, but 
not job creation--a common feature in Latin America, and one that only 
increases inequality.
    It is important, however, that such social interventions are 
designed as comprehensive rural development or comprehensive urban 
planning efforts, not simply limited social handouts or economic 
buyoffs. The latter approaches have failed--whether they were conducted 
in Medellin as a part of the demobilization process of the former 
paramilitaries (many of whom have returned as bandas criminales) or in 
Rio de Janeiro's favelas. The handout and buyoff shortcuts 
paradoxically can even strengthen criminal and belligerent entities. 
Such buyoff approaches can set up difficult-to-break perverse social 
equilibria where criminal entities continue to control marginalized 
segments of society while striking a let-live bargain with the state, 
under which criminal actors even control territories and limit state 
access.
    Effectiveness of law enforcement efforts to combat organized crime 
is enhanced if interdiction policies are designed to diminish the 
coercive and corruption power of criminal organizations, rather than 
merely and predominantly to stop illicit flows. The former objective 
may mandate different targeting strategies and intelligence analysis. 
Predominant focus on the latter objective often weeds out the least 
capacious criminal groups, giving rise to a vertical integration of the 
industry and ``leaner and meaner'' criminal groups.
    An effective multifaceted response by the state also entails other 
components:

  <bullet> Addressing street crime to restore communities' 
        associational capacity and give a boost to legal economies;
  <bullet> Providing access to dispute resolution and justice 
        mechanisms--Colombia's casas de justicia are one example;
  <bullet> Undertaking law enforcement, corrections, and justice 
        sectors reform to enhance their performance, expand their 
        accessibility, and increase their accountability;
  <bullet> Encouraging protection of human rights, reconciliation, and 
        nonviolent approaches;
  <bullet> Improving access to effective education as well as health 
        care--a form of investment in human capital;
  <bullet> Insulating informal economies from takeover by the state and 
        limiting the capacity of criminal groups to become polycrime 
        franchises; and
  <bullet> Creating public spaces free of violence and repression so 
        that civil society can recreate its associational capacity and 
        social capital.

    Boosting the capacity of communities to resist coercion and 
cooptation by criminal enterprises, however, does not mean that the 
state can rely on communities themselves to tackle crime, especially 
violent organized crime. In fact, there is a great deal of danger in 
the state attempting to mobilize civil society to take on crime 
prematurely while the state is still incapable of assuring the 
protection of the people. Without the state's ability to back up 
communities and secure them from violence by organized crime or 
belligerents, the population will not provide intelligence to the 
state. Actionable and accurate human intelligence is often critical for 
success not only of counterinsurgency, but also for anti-organized-
crime efforts. Equally significant, unless the needed backup is 
provided, the community can all the more sour on the state. It will 
then be very hard for the state to mobilize civil society the second 
time around and restore trust in state capacity and commitment.
    Whether as a result of organized criminal groups' warfare or as a 
side effect of crime suppression policies, intense violence quickly 
eviscerates associational and organizational capacity and the social 
action potential of communities. Even if the drug traffickers or maras 
are killing each other, intense violence on the streets hollows out the 
communities. Success hinges on the state's ability to bring violence 
down: without a reduction in violence, socioeconomic interventions do 
not have a chance to take off and even institutional reforms become 
difficult to sustain as political support weakens.
    Reducing demand is a critical component of counternarcotics control 
policy. The need for demand reduction measures is no longer limited to 
Western countries, such as the United States or Western Europe. In 
fact, in many countries in Latin America, such as Brazil, Argentina, 
and Mexico (as well as Afghanistan, Pakistan, Russia, and China), 
demand for illicit narcotics has greatly increased over the past 20 
years. In some of these countries, including in Latin America, the per 
capita consumption of illicit narcotics rivals and even surpasses that 
of the United States or West European countries.
    However, prevention and treatment programs are often lacking in 
many of the countries with increasing consumption and tend to assigned 
low policy priority. At the same time, demand reduction programs often 
suffer from poor design and implementation not grounded in the best 
available scientific knowledge.
    Regional coordination and the sharing of best practices can 
mitigate the dangers of displacing illicit economies and organized 
crime to new locales. Nonetheless, in the absence of a significant 
reduction in demand, drug supply and transshipment will inevitably 
relocate somewhere. Thus, there is a limit to what regional efforts can 
accomplish to mitigate this so-called balloon effect. As long as there 
is weaker law enforcement and state-presence in one area than in 
others, the drug trade will relocate there.
    Moreover, areas with very weak state and law enforcement capacity 
and high levels of corruption often have constrained capacity to 
constructively absorb external assistance. Worse yet, such assistance 
risks being perverted: in the context of weak state capacity and high 
corruption, there is a substantial chance that counternarcotics efforts 
to train antiorganized crime units will only end up training more 
effective and technologically savvy drug traffickers. The best 
assistance in such cases may be to prioritize strengthening the 
capacity to fight street crime, reduce corruption, and increasing the 
effectiveness of the justice system. Once such assistance has been 
positively incorporated, it may be fruitful to focus on further 
antiorganized crime efforts, including through advanced-technology 
transfers and training specialized counternarcotics and antiorganized 
crime units. Such careful considerations of absorption capacity and 
possible unintended consequences are, for example, urgently needed 
regarding the level and design of policy interventions in Central 
America. Even though the countries there may be severely impacted by 
the drug trade, simply rushing in with standard counternarcotics 
assistance packages in the form of equipment transfer and specialized 
units training could potentially aggravate the situation. Putting a 
premium on overall law enforcement and justice sector reforms may well 
be more desirable forms of outside assistance.

    IV. THE OBAMA ADMINISTRATION'S POLICY TOWARD THE DRUG TRADE AND
               ORGANIZED CRIME IN THE WESTERN HEMISPHERE

    The Obama administration has unequivocally acknowledged joint 
responsibility for efforts to suppress the drug trade and the threats 
it poses to states and local communities. Even though U.S. funding for 
demand reduction measures has been increased only modestly, the Obama 
administration has clearly committed itself to reducing the demand in 
the United States. A robust and well-funded commitment to demand 
reduction not only reduces consumption, but also greatly facilitates 
the effectiveness of supply-side measures. As long as there is a strong 
demand for illicit narcotics, supply-side measures cannot be expected 
to stop supply and eliminate consumption.
Mexico
    The Obama administration has also embraced a multifaceted approach 
to dealing with organized crime and illicit economies. Indeed, a focus 
on reinforcing the relationship between marginalized communities in 
Mexico's cities, such as Cuidad Juarez, and the state is now the fourth 
pillar of the new orientation of the Merida Initiative, ``Beyond 
Merida.'' Beyond Merida recognizes that there are no quick 
technological fixes to the threat that DTOs pose to the Mexican state 
and society. It also recognizes that high-value-targeting of drug 
capos, even while backed up by the Mexican military will not end the 
power of the Mexican DTOs; paradoxically, it is one important driver of 
violence in Mexico, with all its deleterious effects on rule of law and 
society.
    Instead, Beyond Merida focuses on four pillars: a comprehensive 
effort to weaken the DTOs that goes beyond high-value decapitation; 
institutional development and capacity-building, including in the 
civilian law enforcement, intelligence, and justice sectors; building a 
21st century border to secure communities while encouraging economic 
trade and growth; and building community resilience against 
participation in the drug trade or drug consumption. Beyond Merida thus 
seeks to expand interdiction efforts from a narrow high-value targeting 
of DTO bosses to a more comprehensive interdiction effort that targets 
the entire drug organization and giving newly trained police forces the 
primary street security function once again while gradually putting the 
military in a background support function. By focusing on the building 
of a secure but smart United States-Mexico border that also facilitates 
trade, the strategy not only helps U.S. border States for which trade 
with Mexico often represents an economic lifeline, but also helps 
generate economic opportunities in Mexico that reduce the citizens' 
need to participate in illegality for obtaining basic livelihood. 
Pillar three then critically meshes with fourth pillar--focused on 
weaning the population away from the drug traffickers--which again 
seeks to build resilient communities in Mexico to prevent their 
takeover by Mexican crime organizations.
    Beyond Merida is designed to also significantly enhance the 
capacity of the Government of Mexico. The outgoing U.S. Ambassador to 
Mexico, Carlos Pascual, deserves much credit for helping to devise such 
a comprehensive and multifaceted U.S. policy toward Mexico and for 
helping Mexico's Government recognize the need to expand its law 
enforcement strategy, institutionalize its rule of law reforms, and 
complement its law enforcement strategy with socioeconomic programs 
that can break the bonds of Mexico's poor and marginalized communities 
with the criminal groups. Social programs sponsored by the U.S. fourth 
pillar, such as Todos Somos Juarez, aim to restore hope for 
underprivileged Mexicans--20 percent of Mexicans live below the extreme 
poverty line and at least 40 percent of the Mexican economy is 
informal--that a better future and possibility of social progress lies 
ahead if they remain in the legal economy. Such bonds between the 
community and the state are what at the end of the day will allow the 
state to prevail and crime to be weakened. But they are very hard to 
effectuate--especially given the structural deficiencies of Mexico's 
economy as well as political obstacles. Indeed, Mexico's implementation 
of Todos Somos Juarez has encountered some serious problems.
    Notwithstanding the level of U.S. assistance so far, including 
having generated over several thousand newly trained Mexican Federal 
police officers, Mexico's law enforcement remains deeply eviscerated, 
deficient in combating street and organized crime and corrupt. 
Corruption persists even among the newly trained police. Expanding the 
investigative capacity of Mexico's police is an imperative yet 
frequently difficult component of police reform, especially during 
times of intense criminal violence when law enforcement tends to become 
overwhelmed, apathetic, and all the more susceptible to corruption. The 
needed comprehensive police reform will require sustained commitment 
over a generation at least.
    U.S. assistance to Mexico in its reform of the judicial system and 
implementation of the accusatorial system, including training 
prosecutors, can be particularly fruitful. Urgent attention also needs 
to be given to reform of Mexico's prisons, currently breeding grounds 
and schools for current and potential members of drug trafficking 
organizations.
    Such a multifaceted approach toward narcotics and crime and 
emphasizing social policies as one tool to mitigate crime, is 
increasingly resonating in Latin America beyond Mexico. Socioeconomic 
programs designed to mitigate violence and crime--for example, the 
Virada Social in Sao Paolo or the socioeconomic component of the 
Pacification (UPP) policy in Rio de Janeiro's favelas--have been 
embraced by state governments in Brazil.
Colombia
    Yet they continue to be slow to expand in Colombia, even as 
President Juan Manuel Santos has initiated a range of socioeconomic 
programs, such as land restitution to victims of forced displacement. 
The National Consolidation Plan of the Government of Colombia, 
currently under reevaluation, recognizes the importance of addressing 
the socioeconomic needs of the populations previously controlled by 
illegal armed actors. But state presence in many areas remains highly 
limited and many socioeconomic programs often consist of limited one-
time handouts, rather than robust socioeconomic development. The 
Government of Colombia also lacks the resources to robustly expand its 
socioeconomic development efforts and its security and law enforcement 
presence to all of its territory and even its strategic zones.
    Although the size and power of illegal armed groups, such as the 
leftist guerillas, the Fuerzas Armadas Revolucionarias de Colombia 
(FARC) have been substantially reduced, and the guerrillas have been 
pushed away from strategic corridors, they still maintain a presence of 
perhaps several thousand, critically undermine security in parts of 
Colombia, and participate in the drug trade and extortion. Despite the 
formal demobilization of the paramilitary groups, new paramilitary 
groups, referred to by the Government of Colombia as bandas criminales, 
have emerged and by some accounts number 10,000. They too participate 
in the drug trade and undermine public safety in ways analogous to the 
former paramilitaries. Such paramilitary groups have also penetrated 
the political structures in Colombia at both the local and national 
levels, distorting democratic processes, accountability, and 
socioeconomic development, often to the detriment of the most needy. 
New conflicts over land have increased once again and displacement of 
populations from land persists at very high levels. Homicides and 
kidnapping murders are up in Bogota and Medellin, once hailed as a 
model success. The government's provision of security in many areas 
remains sporadic and spotty.
    Yet the government of President Santos needs to be given major 
credit for recognizing the need to focus rigorously on combating the 
bandas criminales, all the more so as municipal elections are scheduled 
in Colombia this year. The government also deserves credit for focusing 
on combating street crime and urban violence and for unveiling a well-
designed plan for combating urban crime, Plan Nacional de Vigiliancia 
Comunitaria por Cuadrantes, emphasizing crime prevention, community 
policing, and local intelligence.
    Critically, with all its emphasis on social policies, the Santos 
administration has yet to move away from the ineffective and 
counterproductive zero-coca policy of inherited from Colombia's 
previous administration. The zero-coca policy conditions all economic 
aid on a total eradication of all coca plants in a particular locality. 
Even a small-scale violation by one family disqualifies an area, such 
as a municipality, from receiving any economic assistance from the 
Government of Colombia or from cooperating international partners. Such 
a policy thus disqualifies the most marginalized and coca-dependent 
communities from receiving assistance to sustainably abandon illicit 
crop cultivation, subjects them to food insecurity and often also 
physical insecurity, pushes them into the hands of illegal armed 
groups, and adopts the wrong sequencing approach for supply-side 
counternarcotics policies. In cooperating with the Santos 
administration in Colombia, the United States Government should 
encourage the new Colombian leadership to drop this counterproductive 
policy.
    Over the past 9 years, reflecting the results of U.S. assistance 
under Plan Colombia and the Andean Counterdrug Initiative, Colombia has 
experienced very significant progress. Nonetheless, the success remains 
incomplete. It is important not to be blinded by the success and 
uncritically present policies adopted in Colombia as a blanket model to 
be emulated in other parts of the world, including in Mexico. While its 
accomplishments, including in police reform and the impressive 
strengthening of the judicial system, need to be recognized and indeed 
may serve as a model, the limitations of progress equally need to be 
stressed, for it is important to continue working with Colombia in 
areas of deficient progress and to avoid repeating mistakes elsewhere 
around the world.
    Furthermore, in counternarcotics and anticrime policies, as in 
other aspects of public policy, it is important to recognize that a 
one-shoe-fits-all approach limits the effectiveness of policy designs. 
Local institutional and cultural settings will be critical determinants 
of policy effectiveness; and addressing local drivers of the drug trade 
and criminal violence and corruption will be necessary for increasing 
the effectiveness of policies.
Central America
    In its efforts against organized crime and narcotics in the Western 
Hemisphere, the Obama administration has also recognized the danger of 
countering the balloon effect and the possibility that intensified law 
enforcement efforts in Mexico risk increasing drug shipment flows and 
associated threats to the states and societies in Central America and 
the Caribbean. To mitigate the spillover effects, the Obama 
administration has adopted two initiatives: the Central American 
Regional Security Initiative (CARSI) and the Caribbean Basin Security 
Initiative (CBSI). During his recent visit to El Salvador, President 
Barack Obama significantly increased U.S. assistance to CARSI, pledging 
$200 million. However, I would like to emphasize that even such 
regional efforts are unlikely to prevent the emergence of a crime 
displacement effort altogether and countries in Central America are 
constrained in their capacity to absorb various types of assistance. 
Careful consideration of the design of counternarcotics and 
antiorganized crime efforts, vetting of the recipients of U.S. 
assistance, and overall careful and constant monitoring of such 
assistance programs and their side effect is needed in Central America.

                               CONCLUSION

    Efforts to strengthen the state in Latin America will facilitate 
what local governments can accomplish against organized crime. An 
indispensible component of state-strengthening capacity in Latin 
America includes reforming the law-and-order apparatus and the justice 
sector so that the state can provide public safety and the rule of law 
for all of its citizens. But states in Latin America would be more 
effective in combating transnational organized crime if they also 
focused more than they now do on combating street crime. The latter, 
often receiving little priority in U.S. development-assistance policies 
and in policies of many Latin American countries, would provide new 
opportunities for cooperation with the United States, where innovative 
local community-policing programs have been experiencing considerable 
success in recent years. The needed comprehensive law-enforcement and 
justice-sector reforms would involve expanding police presence and 
limiting police corruption, brutality, and abuse, in addition to 
greater emphasis placed on community policing.
    The governments in Latin America are also likely to become more 
effective in combating crime if they intensify their focus on the 
socioeconomic issues that underlie key aspects of criminality and 
informal and illegal economies in Latin America. Expanding economic and 
social opportunities for underprivileged marginalized populations can 
facilitate community cooperation against organized crime. If the 
manifestation of the state becomes benevolent by providing legal 
economic opportunities for social development and legitimate and 
reliable security and justice, many root causes of transnational crime 
would be addressed and belligerent and crime organizations 
delegitimized. Latin American citizens would become both far less 
interested in participating in illicit economies and far more willing 
to participate with the state in tackling transnational crime.
    Thank you for giving me this opportunity to address the 
subcommittee on this important issue.

    Senator Menendez. Thank you.
    Dr. Arnson.

  STATEMENT OF DR. CYNTHIA J. ARNSON, PH.D., DIRECTOR, LATIN 
   AMERICAN PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                    SCHOLARS, WASHINGTON, DC

    Dr. Arnson. Senator Menendez, thank you very much for the 
invitation to testify. I will touch on many of the themes that 
were raised by the administration witnesses and hopefully 
underscore some of the problems that I see that have been 
reflected in your questions.
    The dimensions of the citizen security crisis in Central 
America cannot be understated. For those of us who have 
followed Latin America for a long time, I think it's indeed 
tragic to note that the levels of violence associated with 
crime and organized crime are now much higher than the levels 
of violence associated with the internal armed conflicts of the 
1980s.
    The situation is obviously most acute in the countries of 
the so-called Northern Tier--Honduras, El Salvador, and 
Guatemala. Because levels of crime and violence are associated 
with large numbers of young people, they indeed strike hard at 
a country's future. The OAS Inter-American Commission for Human 
Rights has indicated that Central America and Latin America 
have the highest levels of youth violence in the world. That is 
something that is more than double that of Africa and 36 times 
that of developing countries. In El Salvador alone, 68 percent 
of homicide victims are between the ages of 15 and 34. Nine out 
of ten victims are male.
    The deterioration in public security in Central America is 
longstanding and has multiple causes, just as do the 
explanations for the rise of youth gangs. The explanations 
range from severely stressed family structures due to high 
rates of emigration, low levels of education, low levels of 
access particularly to secondary education, high levels of 
youth unemployment, rapid and chaotic urbanization, and an 
abundance of illegal light as well as heavy caliber weapons.
    I think you were right in pointing out that the social 
indicators shed important light on the dimensions of the 
problem. The countries of the Northern Triangle have 
development indicators compiled by the United Nations 
Development Program and the World Bank, among others, that are 
among the lowest in Latin America. In Central America the 
scores, according to the World Bank Opportunity Index, are as 
much as 20 points below the average for Latin America and the 
Caribbean.
    Official responses to crime in many cases have not remedied 
the problem; have only exacerbated it. Hard-line policies, 
known as mano dura, iron fist or strong hand, have increased 
the size of the prison population, resulting in longer 
sentences, without improving and indeed I think exacerbating 
the surging rates of crime and violence.
    The growing activity of organized crime takes advantage, as 
others have noted, of the region's weak and fragile 
institutions, as well as its geographic proximity to North 
American drug markets.
    I think Central America--we have talked about the balloon 
effect earlier in the hearing. Central America in my view is a 
classic representation of the unrelenting dynamic of the drug 
trade over the last several decades. Improvements in one 
country or subregion translate into deterioration elsewhere. 
Typically, we've used the term ``balloon effect'' to talk about 
the displacement of coca cultivation from one area to another, 
but I think the full dimensions of the balloon effect are much 
more pernicious. All aspects of organized crime, from the 
cultivation of drugs to production to all forms of illegal 
trafficking constantly change shape as traffickers adapt to 
increased enforcement and to meet persistent levels of demand 
and the corresponding levels of profit.
    I'd like to switch quickly to some suggestions for policy. 
In my view and tragically, U.S. policy over several decades has 
failed to anticipate the changing dynamics of the drug trade, a 
tendency that became more pronounced with the launching of Plan 
Colombia in the year 2000. The United States Government was 
slow to respond to the ways that increased counterdrug efforts 
in Colombia would affect neighbors in the Andean region, slow 
to adjust to the ways that improvements in the Andes would 
affect Mexico and the countries of Central America.
    Central America, as you know, was initially an afterthought 
to Plan Merida, although now with the deteriorating situation 
in Central America the Obama administration has increased its 
support for CARSI and for the Caribbean through CBSI.
    Organized crime groups, unfortunately, have demonstrated a 
much higher learning curve regarding the subregional dynamics 
of illegal economies, and I think there's no substitute at this 
point for a comprehensive approach that addresses 
simultaneously the Andean region, Mexico, Central America, and 
the Caribbean, indeed, as the first panel, many members of the 
first panel indicated.
    The multiply U.S. agencies that are engaged in this 
effort--State, DOD, AID, DEA, FBI, ATF, Homeland Security, and 
others--as the U.S. assistance expands, the need for 
coordination among the different agencies of the U.S. 
Government is more critical than ever.
    No one has mentioned yet United States immigration policy 
and, given the high percentage of criminals among deportees 
from the United States to El Salvador, Guatemala, and Honduras, 
I think we must take special care to minimize the impact of our 
own law enforcement policies on the countries already 
struggling with high levels of crime and violence.
    There's also I think a need for coordination with other 
international donors--the IDB, the World Bank, the agencies of 
the U.N. system--as well as with, obviously, the Central 
American governments and regional security organizations, such 
as SECA.
    The Obama administration has made major strides in 
redirecting significant portions of the counterdrug budget in 
the United States to reduce domestic demand. It is positive, I 
believe, that drug use has been redefined as a public health 
problem in addition to being a law enforcement problem.
    I think, however, that the Obama administration has failed 
to couple the discourse of shared responsibility with concrete 
measures, for example to reduce the flow of weapons, as you 
have noted earlier in your questions, from north to south, or 
to foster a much broader debate in the United States and the 
U.S. Congress on alternative antidrug strategies as called for 
by many Members of the U.S. Congress.
    I think it's no exaggeration that crime and violence 
abetted by organized crime constitute central threats to 
democratic governance in Central America and the survival of 
democratic institutions. The task finally at the end of the day 
is to not only increase law enforcement and judicial capacity, 
but also to address the poverty, exclusion, and lack of 
opportunity that provide a vast breeding ground for crime and 
violence throughout the region.
    Thank you very much.
    [The prepared statement of Dr. Arnson follows:]

              Prepared Statement of Dr. Cynthia J. Arnson

    Mr. Chairman and members of the Subcommittee, I am grateful for 
this opportunity to discuss the crisis of citizen security and 
organized crime in Central America, and offer some modest suggestions 
for addressing it.
    The dimensions of the citizen security crisis in Central America 
cannot be understated. It is tragic to note that 15 to 20 years after 
the end of brutal armed conflicts in the region, levels of criminal 
violence in Central America are higher than during the wars. The United 
Nations Development Program (UNDP) noted in 2009 that the seven 
countries of Central America--Belize, Costa Rica, El Salvador, 
Guatemala, Honduras, Nicaragua, and Panama--registered the highest 
levels of nonpolitical violence in the world. The situation is most 
acute in the countries of the so-called ``Northern Triangle''--El 
Salvador, Guatemala, and Honduras--but countries such as Costa Rica and 
Nicaragua are also witnessing rising rates of insecurity associated 
with the increased presence of organized crime.\1\
---------------------------------------------------------------------------
    \1\ United Nations Development Program, ``Informe Sobre Desarrollo 
Humano Para America Central 20092010'' (New York: UNDP, October 2009).
---------------------------------------------------------------------------
    Statistics compiled by governments as well as international 
institutions vary somewhat, but all paint a similarly grim picture. 
According to the UNDP, the overall homicide rate in Central America is 
more than three times the global average; it exceeds the Latin American 
average by 7 percentage points, and is increasing.\2\ According to the 
United Nations Office on Drugs and Crime in 2010, murder rates in the 
countries of the Northern Triangle are five to six times higher than in 
Mexico, a country whose orgy of narcotrafficking violence has captured 
U.S. and international attention.\3\ National averages themselves may 
understate and mask important subnational variations. Just as within 
Mexico, border cities such as Tijuana and Ciudad Juarez suffer homicide 
rates that far exceed the national average, the murder rates in 
specific regions in Central America--Guatemala's Peten or the 
Department of Atlantida in Honduras, for example--similarly exceed the 
national averages and are closely correlated with drug trafficking 
corridors. In El Salvador, the number of murders in and around the 
capital is more than four times as high as the national average.\4\
---------------------------------------------------------------------------
    \2\ Ibid. The increase in violence between 2000 and 2008 was most 
severe in Guatemala, where homicides increased 20 percent.
    \3\ United Nations Office on Drugs and Crime, ``Crime and 
Instability: Case Studies of Transnational Threats'' (Vienna: UNODC, 
February 2010), 22. In 2008, the murder rates were 60.9 per 100,000 in 
Honduras; 51.8 in El Salvador; 49.0 in Guatemala; 11.6 in Mexico; 5.2 
in the United States.
    \4\ Marcela Smutt, UNDP, ``La (in)seguridad ciudadana en El 
Salvador,'' presentation at the Woodrow Wilson International Center for 
Scholars, June 24, 2010.
---------------------------------------------------------------------------
    Because levels of crime and violence are strongly correlated with 
large numbers of young people, they strike hard against a country's 
future. In mid-2010 the OAS Inter-American Commission for Human Rights 
reported that Latin America has the highest levels of youth violence in 
the world.\5\ U.N. figures indicate that the rate of youth homicide in 
Latin America is more than double that of Africa, and 36 times the rate 
of developed countries.\6\ In El Salvador alone, 68 percent of homicide 
victims are between the ages of 15 and 34, and 9 out of 10 victims are 
male.\7\ To appreciate the full magnitude of the problem, one should 
recall that citizen insecurity is not solely reflected in the number of 
homicides. Indeed, the United Nations estimated in 2010 that for every 
fatality, there were 20-40 victims of nonfatal youth violence.\8\
---------------------------------------------------------------------------
    \5\ Organization of American States, Inter-American Commission on 
Human Rights, ``Report on Citizen Security and Human Rights,'' May 10, 
2010.
    \6\ United Nations Office on Drugs and Crime, ``The Globalization 
of Crime: A Transnational Organized Threat Assessment'' (Vienna: UNODC, 
2010), 32.
    \7\ Marcela Smutt, op. cit.
    \8\ United Nations Office on Drugs and Crime, ``The Globalization 
of Crime,'' 32.
---------------------------------------------------------------------------
    The deterioration in public security in Central America is 
longstanding and has multiple causes, just as do explanations for the 
rise of youth gangs, whose members number in the tens of thousands in 
El Salvador, Guatemala, and Honduras.\9\ Oft-cited explanations for the 
growth of gangs include severely stressed family structures due to high 
rates of emigration, low levels of education, high levels of youth 
unemployment, rapid and chaotic urbanization, and an abundance of 
illegal light as well as heavy-caliber weapons (reflecting inadequate 
programs of post-war disarmament and reintegration as well as illegal 
weapons flows from the United States).
---------------------------------------------------------------------------
    \9\ The U.S. Southern Command in 2007 estimated Central American 
gang membership at 70,000. That same year, UNODC estimated gang 
membership to be 10,500 in El Salvador; 36,000 in Honduras, and 14,000 
in Guatemala. Cited in Clare Ribando Seelke, ``Gangs in Central 
America,'' Congressional Research Service, January 3, 2011, 5.
---------------------------------------------------------------------------
    A number of social and economic indicators help to shed light on 
the dimension of the problem. By 2008, the number of primary-school-age 
children who were enrolled in school reached 94 percent in El Salvador, 
95 percent in Guatemala, and 97 percent in Honduras. But progress in 
expanding access to basic education, was not matched in enrollment 
rates in secondary school, which were only 55 percent in El Salvador 
and 40 percent in Guatemala (figures for Honduras are not 
available).\10\ The countries of the Northern Triangle have human 
development indicators (compiled by the United Nations Development 
Program) that are among the lowest in Latin America. The three 
countries similarly rank low on the World Bank's Human Opportunity 
Index, with scores as much as 20 points below the average for Latin 
American and the Caribbean.\11\
---------------------------------------------------------------------------
    \10\ Figures are from the World Bank, World Development Indicators, 
and United Nations Educational, Scientific, and Cultural Organization 
(UNESCO) Institute for Statistics, cited in Aaron Terrazas, Demetrios 
G. Papademetriou, and Marc R. Rosenblum, ``Demographic and Human 
Capital Trends in Mexico and Central America, Draft, Migration Policy 
Institute,'' February 2011, 10-13.
    \11\ Jose R. Molinas, Ricardo Paes de Barros, et. al., ``Do Our 
Children Have a Chance?'' The 2010 Human Opportunity Report for Latin 
America and the Caribbean (Washington, DC: The World Bank, 2010), 55.
---------------------------------------------------------------------------
    The costs of violence are huge. The UNDP estimates that violence in 
a country such as El Salvador costs the country roughly 11.5 percent of 
yearly GDP, double the spending on education and health combined. The 
figure is roughly equivalent to 8 months of remittances from 
Salvadorans abroad. The amount that individuals and private companies 
pay for private security and surveillance exceeded the Salvadoran 
Government's public spending for the security sector in 2008-09. The 
costs of crime to business are higher in El Salvador than in any other 
Latin American country and among the highest in the world, according to 
a survey of World Bank data compiled by Latin Business Chronicle.\12\
---------------------------------------------------------------------------
    \12\ Losses due to theft, robbery, vandalism, or arson represent 
2.6 percent of company sales, the highest rate in Latin America and the 
10th highest in the world. See ``Crime Cost: El Salvador Worst,'' Latin 
American Business Chronicle, August 10, 2010.
---------------------------------------------------------------------------
    Official responses to the rise in violent crime have not remedied 
the problem, and indeed, some analysts blame government policies for 
worsening the crisis of citizen security.\13\ Hard-line policies known 
as mano dura (``strong hand'' or ``iron fist'') have increased the size 
of the prison population and resulted in longer sentences throughout 
the Northern Tier, without resolving, and indeed, exacerbating the 
surging rates of crime and violence. In El Salvador alone, for example, 
the prison population increased by 184 percent between 2000 and 2009 as 
a result of the previous administration's mano dura policy. Severe 
overcrowding--the main men's prison outside the capital was at 424 
percent capacity in 2009--has converted prisons into veritable 
incubators for future criminal activity.
---------------------------------------------------------------------------
    \13\ See, for example, Jose Miguel Cruz, Rafael Fernandez de 
Castro, and Gema Santamaria Balmaceda, ``Political Transition, Social 
Violence, and Gangs,'' in Cynthia J. Arnson, ed., ``In the Wake of War: 
Democratization and Internal Armed Conflict in Latin America'' 
(Washington, DC, and Palo Alto, CA: Woodrow Wilson Center Press and 
Stanford University Press, forthcoming, 2011).
---------------------------------------------------------------------------
    DRUG TRAFFICKING HAS EXACERBATED ALREADY HIGH LEVELS OF VIOLENCE

    The growing activity of organized crime groups in Central America, 
particularly drug traffickers, takes advantage of the region's weak and 
fragile institutions as well as its geographical proximity to North 
American drug markets. Dysfunctional judicial systems throughout the 
subregion foster high levels of impunity, while processes of police 
reform and professionalization in the wake of peace settlements in 
Guatemala and El Salvador have been incomplete. The region's porous 
land borders and extensive coastlines are not adequately controlled, 
making them vulnerable to exploitation by criminal groups.
    Criminal networks--including some originating during the era of 
internal armed conflict--have operated in Central America for decades 
(moving drugs, contraband, arms, and human beings), there is no doubt 
that pressures on drug cartels in Mexico have led to the expansion of 
organized crime in the contiguous territories of Central America.\14\ 
The region is geographically close to North America, which constitutes 
the largest global market for cocaine, among other drugs.\15\ Cocaine 
from Colombia, Peru, and Bolivia--the world's largest producers--is 
trafficked to the United States and Canada through Central America and 
Mexico, by sea as well as land. The United Nations Office on Drugs and 
Crime estimated that 180-200 tons of cocaine were trafficked through 
Mexico and Central America in 2009, worth about $38 billion in U.S. 
markets.\16\ The share of cocaine flowing through Guatemala and 
Honduras, in particular, has increased. The U.S. State Department 
estimated in 2010 that some 42 percent of the cocaine entering the 
United States passes through Central America.\17\
---------------------------------------------------------------------------
    \14\ See Steven Dudley, ``Drug Trafficking Organizations in Central 
America: Transportistas, Mexican Cartels and Maras,'' in Eric L. Olson, 
David A. Shirk, and Andrew Selee, eds., ``Shared Responsibility: U.S.-
Mexico Policy Options for Confronting Organized Crime,'' Woodrow Wilson 
Center Mexico Institute and University of San Diego Trans-border 
Institute, 2010; and three Latin American Program Working Papers on 
Organized Crime in Central America: James Bosworth, ``Honduras: 
Organized Crime Gaining Amid Political Crisis,'' December 2010; Douglas 
Farah, ``Organized Crime in El Salvador: The Homegrown and 
Transnational Dimensions,'' February 2011; and Julie Lopez, 
``Guatemala's Crossroads: Democratization of Violence and Second 
Chances,'' December 2010.
    \15\ North America alone accounts for some 43 percent of the global 
market value of cocaine. See United Nations Office on Drugs and Crime, 
``Crime and Instability,'' 5.
    \16\ Ibid., 19, 21.
    \17\ Clare Ribando Seekle, op. cit., 3.
---------------------------------------------------------------------------
    Central America is a classic representation of the unrelenting 
dynamic of the drug trade over the past several decades, in which 
improvements in one country or subregion translate into deterioration 
elsewhere. The ``balloon effect'' usually describes the phenomenon by 
which reductions in coca cultivation in one country lead to increases 
in another. But the balloon effect is much more pernicious; all aspects 
of organized crime--from cultivation of drugs to production to all 
forms of illegal trafficking--constantly change shape as traffickers 
adapt to increased enforcement to meet persistent levels of demand and 
corresponding levels of profit.
    Not all sources agree on the extent to which existing youth gangs 
are involved in--or potentially taken over by--organized crime. The 
U.N. Office on Drugs and Crime has tended to downplay the relationship, 
but a stream of reporting from the region points to the growing 
involvement of maras in organized crime.\18\
---------------------------------------------------------------------------
    \18\ See Hannah Stone, ``Street Gang No More, MS-13 Moves Into 
Organized Crime,'' InsightCrime, March 9, 2011; Katherine Corcoran, 
``Mexican Drug Cartels Move Into Central America,'' Associated Press, 
March 14, 2011; and Tracy Wilkenson, ``El Salvador Becomes Drug 
Traffickers' `little pathway','' Los Angeles Times, March 22, 2011.
---------------------------------------------------------------------------
               THE EFFECT OF INSECURITY ON GOVERNANCE AND
                    ON CITIZEN SUPPORT FOR DEMOCRACY

    The huge amounts of money and cash involved drug trafficking, 
coupled with Central America's weak institutionality, make public 
officials at all levels of government susceptible to corruption by drug 
money. In Guatemala in 2009, the chief and deputy chief of the National 
Police, together with the heads of operations and investigations, were 
purged for their involvement in drug trafficking. In 2008, something 
similar occurred in El Salvador, when the police chief was forced to 
resign after two top assistants were accused of involvement in drug 
trafficking. Other times, however, public servants have paid with their 
lives for standing up to crime syndicates, as when Honduras' chief 
counternarcotics official, Gen. Aristides Gonzalez, was murdered in 
2009.\19\ The intended effect of threats against and killings of 
members of the police, judicial officials, and local authorities is to 
sow terror among the population and weaken the resolve and ability of 
the state to assert its authority against criminal organizations.
---------------------------------------------------------------------------
    \19\ See UNODC, ``Crime and Instability: Case Studies of 
Transnational Threats,'' 23.
---------------------------------------------------------------------------
    Various regional public opinion polls register the degree to which 
citizens throughout Latin America are concerned about crime and 
violence and the ways that high levels of crime and violence as well as 
corruption detract from support for democracy and the rule of law. 
According to the Chilean firm Latinobarometro in 2010, citizen security 
is now the principal concern among citizens of the region, overtaking 
concern with unemployment for only the second time since the mid-
1990s.\20\ While satisfaction with democracy increased in El Salvador 
following the election of President Mauricio Funes, the three countries 
of the Northern Triangle are among the bottom 5 of 26 countries of the 
region in terms of support for the idea of democracy, and El Salvador 
and Honduras were in the bottom 6 out in terms of support for the rule 
of law.\21\ The AmericasBarometer of the Latin American Public Opinion 
Project (LAPOP) demonstrates the degree to which crime victimization 
and the perception of insecurity detract from support for democratic 
systems as well as respect for the rule of law.\22\
---------------------------------------------------------------------------
    \20\ Corporacion Latinobarometro, ``Informe 2010,'' Santiago, 
December 2010, www.latino
barometro.org.
    \21\ Support for democracy is measured in terms of agreement with 
the statement ``democracy may have problems, but it is better than any 
other form of government.'' Support for the rule of law is measured in 
terms of agreement with the statement that ``in order to catch 
criminals . . . the authorities should always abide by the law.'' See 
Latin American Public Opinion Project, ``Political Culture of 
Democracy,'' 2010, http://www.vanderbilt.edu/lapop/ab2010/2010-
comparative-en-revised.pdf.
    \22\ Ibid., 81, 84-85.
---------------------------------------------------------------------------
                 THE NEED FOR A COMPREHENSIVE APPROACH

    In general, U.S. policy over several decades has failed to 
anticipate the changing dynamics of the drug trade, a tendency that 
became more pronounced with the launching of Plan Colombia in 2000. The 
U.S. Government was slow to respond to the ways that increased 
counterdrug efforts in Colombia would affect its neighbors in the 
Andean region, and then slow to adjust to the ways that increased 
enforcement throughout the Andes would affect Mexico and other 
countries closest to the world's largest drug market in North America. 
Central America was initially an afterthought as the United States and 
Mexico launched Plan Merida; although faced with the deteriorating 
situation in Central America, the Obama administration has increased 
its support for the countries of Central America through CARSI, and for 
the Caribbean through the CBSI.
    Organized crime groups have exhibited a much steeper learning curve 
regarding the subregional dynamics of illegal economies, and there is 
no substitute now
for a comprehensive approach that, at a minimum, addresses 
simultaneously the Andean region, Mexico, Central America, and the 
Caribbean; that is, all the geographical areas including and in between 
the source countries of illegal drugs and the major consumption markets 
in the United States and Canada.
    Multiple U.S. agencies--the State Department, Agency for 
International Development, DEA, FBI, ATFE, Homeland Security, and 
others--are involved in the efforts to improve citizen security and 
combat organized crime in Central America and elsewhere. As U.S. 
assistance expands, the need for coordination among different 
government agencies is more critical than ever. Given the high 
percentage of criminals among deportees from the United States to El 
Salvador, Guatemala, and Honduras, the U.S. Government must take 
special care to minimize the impact of its own law enforcement policies 
on nations already struggling with high rates of crime and violence. 
Similarly, there is a need for coordination with other international 
donors, including the Inter-American Development Bank, the World Bank, 
and the agencies of the U.N. system, as well as with Central American 
governments and regional security institutions such as SICA. 
Coordinating strategy among national stakeholders and members of the 
international community is all the more essential as increased 
resources flow into the Central American region. The administration 
should be especially supportive of efforts of Central American nations 
to create additional bodies such as the United Nations Commission 
Against Impunity In Guatemala (CICIG), which has investigated major 
criminal cases and contributed to capacity building in Guatemala.
    The Obama administration has made major strides in redirecting 
significant portions of the U.S. counterdrug budget to reduce domestic 
demand and in redefining drug use as a public health as well as law 
enforcement problem. It has also devised incentives for Central 
Americans to contribute resources to the fight against organized crime, 
by offering small challenge grants to those who meet the required 
criteria.\23\ In general, however, the Obama administration has failed 
to couple the discourse of shared responsibility with concrete measures 
to reduce the flow of illegal weapons from North to South, or to foster 
a broad national debate on U.S. demand reduction and antidrug 
strategies, as called for by many in Congress. More and more countries 
of the region who have suffered the violence associated with drug 
trafficking and organized crime have called on the United States to 
engage in the search for new paradigms.
---------------------------------------------------------------------------
    \23\ ``Estados Unidos Promete Mas Fondos Para Combater Mafias,'' 
Prensa Libre (Guatemala), March 29, 2011.
---------------------------------------------------------------------------
    It is no exaggeration to say that crime and violence abetted by 
organized crime constitute central threats to democratic governance in 
Central America and the survival of democratic institutions. The task 
is not only to increase law enforcement and judicial capacity, but also 
to address the poverty, exclusion, and lack of opportunity that provide 
a vast breeding ground for crime and violence throughout the region.

    Senator Menendez. Thank you.
    Mr. Johnson.

   STATEMENT OF STEPHEN JOHNSON, DIRECTOR, AMERICAS PROGRAM, 
 CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Johnson. Chairman Menendez, Ranking Member Rubio. Thank 
you very much for inviting me to testify on this crucial 
subject today. As a foreign policy analyst and former Defense 
Department official, I see the Americas as a complex region, 
with governments of different sizes and capabilities, a lot of 
them overwhelmed by the challenges they face.
    Drug trafficking and transnational crime is a global 
multibillion dollar enterprise that's hard to offset, even when 
countries like our own have resources and trained personnel. 
With tiny budgets and limited ability to collect taxes, most of 
our neighbors in the hemisphere are challenged by this task. 
Some even deny that they're impacted by the threat, so the 
problems seem to multiply.
    The war on drugs is not a war that anyone can win, but a 
condition that requires control. The question is how badly will 
it impact most Americans' lives. Now, if we're serious about 
pursuing drug trafficking and attendant ills of other forms--
and other forms of trafficking and violence, then strategy and 
cooperation are the keys to successful mediation. Currently 
it's not clear that the United States has what could be called 
a strategy, and it most assuredly does not have all its 
neighbors' cooperation.
    But that hasn't stopped the United States from responding 
to drug trafficking and attendant ills in the past. Typically, 
we lurch from one crisis to the next. Plan Colombia, the Merida 
Initiative, and the Central American Regional Security 
Initiative all developed rather suddenly in response to 
situations that were deemed out of control. Reaction, as 
opposed to anticipation, has its costs in efficiency. In 
Colombia the United States was lucky it had a partner willing 
to make sacrifices and structural changes. Colombia now helps 
other countries.
    In Mexico the crisis came at a vulnerable moment when the 
state was making its democratic transformation. In Central 
America, longstanding governance and resource problems, crime 
problems, dog any solution. The problems, we now realize--their 
problems, we now realize, affect Mexico.
    Only in the Caribbean have we thought ahead with the 
Caribbean Basin Security Initiative, anticipating a shift in 
trafficking patterns as we help our neighbors in Mexico and 
Central America.
    In the President's annual determinations of which countries 
cooperate with us in counternarcotics efforts, the emphasis is 
on political will. Only Bolivia and Venezuela are marginal in 
this respect. Bolivia kicked out our Ambassador in 2008 and 
cooperates at a very low level. Venezuela has refused to accept 
our Ambassador-designee and only occasionally extradites drug 
kingpins. Most suspect air tracks originate from its 
southwestern flank. Yet it has embarked on a billion dollar 
weapons buildup that has nothing to do with defeating the 
hemisphere's most pressing threat--transnational crime.
    But there is another determination to be made that impacts 
cooperation: capacity to act. Most neighbors would like to 
reduce the threat of drug trafficking and attendant crime, but 
face significant limitations, such as available resources--
Central America and the Caribbean don't have much--public 
opinion; is counternarcotics anticrime assistance positively 
viewed? Are there sensitive aspects, like status of force 
agreements and heavy military footprints that might be 
involved? Law enforcement and justice systems. Are the police 
poorly trained, equipped? Are the courts adequately 
functioning? Environmental challenges. Are there isolated 
borders or large swaths of ungoverned territory?
    The capacity to absorb is also important. Is equipment easy 
to use, maintain? Are needed skills easily learned? Sometimes 
we don't take this into account.
    All this is to say that we need to develop and strengthen a 
planning culture with regards to counternarcotics and 
transnational crime. I'm pleased to hear that Director 
Kerlikowske said today that there would be a new strategy for 
the Western Hemisphere forthcoming this summer. But we have to 
realize what a strategy is. It's something that is 
comprehensive. It's a plan of action that considers resources, 
strengths and weaknesses, and assigns priorities. Multiple 
agencies are involved, but the Office of National Drug Control 
Policy and the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs are probably two good 
places to start.
    Second, our annual findings on drug producing or 
transitting countries should include a more robust capacity 
determination, including the factors that I've just mentioned. 
Perhaps that will enable better forecasting of where threats 
will become more acute in the future.
    Finally, Congress must understand that these are not wars. 
I can see that that isn't a problem in this committee, in this 
subcommittee. But our work will not be finished any time soon. 
To the degree that our countries are connected, we must learn 
how to address these threats together.
    Again, thank you, Chairman Menendez and ranking member. I 
appreciate the opportunity.
    [The prepared statement of Mr. Johnson follows:]

                 Prepared Statement of Stephen Johnson

    Chairman Menendez, Ranking Member Rubio, distinguished members of 
the committee, thank you for inviting me to testify on this crucial 
subject of the shared responsibility the countries of the Western 
Hemisphere faces in counternarcotics and securing citizen safety. I am 
honored to do so, mindful of the deep experience on this topic among 
the committee members and staff, as well as the expertise of my 
colleagues on this panel. For the record, I would like to state that 
the views I express are entirely my own and do not represent the Center 
for Strategic and International Studies, the U.S. Government, or any 
entities or individuals with whom I may consult.
    As a foreign policy analyst and former Defense Department official, 
I've come to know the Americas as a complex region, with governments of 
different sizes and capabilities, a lot of them overwhelmed by the 
challenges they face. Drug trafficking and transnational crime is a 
global multibillion-dollar enterprise that is hard to offset, even when 
countries like the United States have resources and trained personnel. 
With tiny budgets and limited ability to collect taxes, most neighbors 
in the hemisphere are challenged by the task. Some deny they are 
impacted by the threat. So the problems multiply.
    Popularly dubbed a ``war on drugs,'' it is not a war anyone can 
win, but a condition that requires control. No one has ever been able 
to stamp out crime, and we are not about to disband our police anytime 
soon. Likewise, drug trafficking has been around a long time, and will 
remain so. The question is how badly it will impact most American's 
lives. Libertarians say legalization is the right approach. Narcotics 
production and distribution would not be a crime, violent criminals 
would not be involved in distribution, and it would thus not be a 
problem. Users would be responsible for their own health and safety. 
Yet, in today's society in which so many of us are coming to rely on 
government benefits and health care, such indulgences would cost 
taxpayers plenty. And as we all know, espousing that view at a local 
elementary school PTA meeting is a political dead letter.
    If we are serious about pursuing drug trafficking and the attendant 
ills of other forms of trafficking and violence, then strategy and 
cooperation are the keys to successful mediation. Currently, it is not 
clear that the United States has what could be called a strategy. And 
it most assuredly does not have all its neighbors' cooperation. That 
has not stopped the United States from responding to drug trafficking 
and attendant ills in the past. But efforts are likely to be more 
effective if guided by a strategy and if more countries in the 
hemisphere are encouraged to cooperate in ways that make sense for 
them.
    A strategy is a plan of action to achieve policy goals in a 
competitive global environment, using instruments at hand, taking 
advantage of opportunities and using available resources to maximum 
effect to defeat threats or adversaries. As the definition suggests, a 
strategy requires considerable analysis. Most plans touting themselves 
as strategies, including the President's own National Security 
Strategy, are not so much strategies, per se, as lists of objectives. 
The Office of National Drug Control Policy's National Drug Control 
Strategy belongs in that category, in that it presents a guide to 
actions but offers little consideration of the trafficking environment 
or how best to prioritize scarce resources.
    This is not to blame responsible authorities in present or past 
administrations for trying to be all things to all people. But 
executive branch strategies are often political statements that reflect 
what bureaucracies would like to do or show that they are doing. 
Moreover, strategic thinking is made difficult by the lack of planning 
cultures outside of the U.S. Armed Forces. Add to that a national 
budgeting process that funnels agency requests through the White House 
to Congress, then back again for consultation before budgets are 
passed, it is no wonder that original requests are often sliced and 
diced, mixed and paired with other programs such that appropriations 
bear little resemblance to agency desires.
    Given that strategies are conceptual exercises at best, the United 
States has tended to react episodically to perceived threats. During 
the late 1970s, illicit drug use in the United States rose 
dramatically. It was in that climate that the State Department created 
the International Narcotics Matters Bureau, the forerunner of the 
Bureau of International Narcotics and Law Enforcement Affairs. It was 
then that policymakers began thinking seriously about drug crop 
eradication on foreign soil and narcotics interdiction. The first 
``International Narcotics Control Strategy Report'' came out in 1987. 
The White House stood up its Office of National Drug Control Policy 
(ONDCP) in 1988. Yet by then, hard drug use had leveled off and started 
to come down.
    In 1993, the Clinton administration cut the ONDCP staff and reduced 
budgets for drug interdiction in the hemisphere. In 1994, Ernesto 
Samper was elected President of Colombia, allegedly with the aid of 
campaign contributions from drug traffickers. Colombia was decertified 
as cooperating in counternarcotics, and barred from receiving U.S. 
security assistance. In 1999, after assistance had been restored, ONDCP 
Director Barry McCaffrey described Colombia as a near failing 
narcostate. Coca cultivation had tripled, Marxist guerrillas and right-
wing paramilitaries controlled more than half of the countryside, 
murders, kidnappings, and massacres were all up, and some 3.5 million 
people had left the country. The U.S. response was a $1.3 billion 
emergency aid package and collaboration on a 10-point agenda known as 
Plan Colombia.
    Initially, Plan Colombia looked like it was going nowhere. Then, 
under the inspired leadership of President Alvaro Uribe, Colombians 
developed the political will to make it work. Most of all, the plan 
combined institutional reforms with the professsionalization of 
security forces that started to roll back decades of rural lawlessness. 
President Uribe collected a $780 million war tax to finance security 
sector reforms that increased the size and improved the training of the 
armed forces and police. From 2002 to 2007, homicides dropped 40 
percent, kidnappings went down 83 percent, and terror attacks 
diminished by 76 percent. In the past 11 years, the United States has 
contributed $7 billion to that effort.
    According to the United Nations Office on Drugs and Crime, coca 
cultivation fell by half from 2001 to 2008,\1\ but hardly put a dent in 
cocaine going to some 20 million U.S. users from Colombia and other 
countries. As Colombia's Attorney General told me in 2005, the drug 
lords and trafficking arms of the illegal armed groups learned a lesson 
from the coffee industry--they warehoused their product for later sale, 
hiding it in underground huacas or pits.
---------------------------------------------------------------------------
    \1\ The United Nations Office on Drugs and Crime (UNODC), 
``Colombia Coca Cultivation Survey,'' Government of Colombia, Bogota, 
June 2009. The Department of State's ``Bureau of International 
Narcotics and Law Enforcement Affairs International Narcotics Control 
Strategy Report 2009'' disputes this. However in 2005, U.S. areas 
surveyed by U.S. aerial imagery were enlarged to measure a much greater 
area than before.
---------------------------------------------------------------------------
    In a similar situation to Colombia, the United States had been 
helping Mexico with low to moderate levels of counternarcotics training 
and surplus equipment since the 1990s.\2\ Coming into office in 2006, 
President Felipe Calderon decided to take on drug trafficking 
organizations that had operated with alleged tacit acknowledgement of 
the government during the seven decades Mexico was under one-party 
rule. Alarm bells rang when these organizations started fighting back. 
Meeting in the city of Merida at the end of a whirlwind tour of Latin 
America in March 2007, U.S. President George Bush listened as Calderon 
asked for help combating crime levels that had started to spike.
---------------------------------------------------------------------------
    \2\ At the time, equipment transfers reflected an ``off-the-shelf'' 
approach. The Department of Defense transferred 72 Vietnam-era UH-1H 
Huey helicopters to Mexico in 1997, that were returned when safety of 
flight issues grounded the fleet.
---------------------------------------------------------------------------
    The outcome was the $1.4 million multiyear assistance package for 
Mexico, Central America, the Dominican Republic, and Haiti called the 
Merida Initiative. As the project was unexpected on the U.S. side, 
requirements had to be drawn up and funding cobbled together from 
existing authorities and accounts. Coupled with congressional 
certifications and lead times for the development of some technical 
equipment to be transferred, some two-thirds of the funds appropriated 
had yet to be spent as of 2011--a less than nimble response that became 
an irritant in the bilateral relationship.
    As Merida was conceived as a United States-Mexico counternarcotics 
effort, enhancing existing support to combat transnational crime in 
Central America and the Caribbean was an afterthought. Initially, the 
Bush administration asked for $950 million for Mexico and $150 million 
for Central America in its FY 2008 supplemental and FY 2009 requests. 
Congress then carved out $5 million of the supplemental funding for the 
Dominican Republic and Haiti--two major drug transit countries. 
However, it became clear that Mexico's problems with drugs and crime 
were related to Central American shipping networks that account for 
nearly 90 percent of the cocaine destined for the United States.
    In December 2009, Congress split off Central America 
counternarcotics and anticrime funding from Merida into what is known 
as the Central America Regional Security Initiative (CARSI). Once 
sleepy countries during the 1960s, the northern triangle states of 
Central America (El Salvador, Guatemala, and Honduras) now have the 
highest murder rates in the world according to United Nations Office on 
Drugs and Crime statistics, and are home to most of the region's gang 
members. Estimated at between 69,000 and 100,000 strong, they are 
described by Honduran Security Minister Oscar Alvarez as the ``reserve 
army for organized crime.'' \3\ Some $260 million in CARSI funds have 
been committed to support law enforcement and justice sector reforms, 
as well as security force training, gang prevention, and social 
programs.
---------------------------------------------------------------------------
    \3\ Danilo Valladares, ``Central America: Youth Gangs--Reserve Army 
for Organized Crime,'' Inter Press Service, September 21, 2010.
---------------------------------------------------------------------------
    In the 1980s, the Caribbean had been the favored route for South 
American drugs to reach the United States. As U.S. interdiction efforts 
picked up there, traffickers moved west. So, in perhaps the only 
proactive move by U.S. policymakers against narcotics trafficking and 
crime, the State Department led an interagency effort to develop a 
Caribbean regional security effort as a complement to Merida, assuming 
that gathering interdiction capabilities in Mexico and Central America 
might shift trafficking back to the east. That was at the end of the 
Bush era. The Obama administration developed it into the $124 million 
Caribbean Basin Security Initiative (CBSI) to strengthen maritime 
border control over a million square miles of ocean among 13 island 
nations and 3 European territories. Also included were projects to 
train police, improve information-sharing, and social programs for at 
risk youth.
    As it is, the Caribbean could be a smuggler's paradise, located 
between North and South America and consisting of mostly open water. 
Haiti and the Dominican Republic are the most heavily countries 
impacted. Traffickers like Haiti because of rudimentary law enforcement 
and plentiful volunteers who will set out in small boats to pick up 
floating packets in open waters. The Dominican Republic has its hands 
full with illegal Haitian migrants, a difficult coastline, and drug 
money that promotes corruption. Both governments cooperate with U.S. 
authorities, but have limited resources. The ``good'' news is that only 
about 10 percent of the flow now moves through the Caribbean. However, 
if Mexican and Central American interdiction capabilities improve under 
Merida, the routes will shift.
    If CBSI represents an advance toward strategic thinking, it is only 
partial. Further evolution is needed in U.S. expectations of just how 
cooperative neighbors might be in stemming narcotics flows and 
implementing security reforms. Political will has always been an 
important measure. Some countries have it, as Colombia and Mexico have 
demonstrated. Others are less interested. Venezuela, for example, 
reportedly has maintained an unofficial friendship with Colombia's FARC 
guerrillas who have sustained their struggle to overthrow the Colombian 
Government mostly through drug trafficking. In 2010, much of the 
suspect air activity departing South America to Central America and the 
Caribbean came from Venezuela's southwest border with Colombia, as 
tracked by the U.S. Joint Interagency Task Force South. Currently, a 
Venezuelan businessman is being held in Colombia in connection with 5.5 
tons of cocaine that turned up in Campeche, Mexico, in 2006.
    For years, Congress required the President to annually certify the 
willingness of major drug producing or transiting countries to 
cooperate in order for them to receive foreign assistance. That process 
was made less rigid in 2002, as a result of what happened when 
Washington denied assistance to Colombia in the 1990s. However, other, 
more practical factors can affect levels of cooperation:

  <bullet> Available resources--How much can a partner nation 
        contribute on its own? For example, one Caribbean nation has a 
        population of 72,000 and a gross domestic product of $377 
        million. Its 2011 government budget will run close to US$181 
        million. If it needs a helicopter for coastal patrol aircraft 
        that costs $15 million, it will eat up about 8 percent of the 
        budget. That may be a tough choice for its leaders, but not so 
        hard for transnational criminals who want a similarly priced 
        jet and participate in a $394 billion a year global enterprise.
  <bullet> Public opinion--Is counternarcotics/anticrime assistance 
        positively viewed, are any aspects negative? Following the 
        election of President Rafael Correa in Ecuador, new 
        sensitivities came into play with the U.S. forward operating 
        location for drug monitoring flights at Manta. Despite millions 
        of U.S. dollars spent upgrading the airfield, public opinion 
        was divided as it was seen (rightly or wrongly) as mostly a 
        U.S. operation in which Ecuador got little benefit. The U.S. 
        lease on ramp space ran out in November 2009. This could have 
        cast a cloud on Ecuadoran counternarcotics cooperation, except 
        that, in other aspects, cooperation improved.
  <bullet> Law enforcement and justice systems--Are the police properly 
        trained, equipped, and deployed in sufficient numbers? Is the 
        criminal justice system underresourced and backlogged? In the 
        1990s following civil conflicts in Central America, the 
        international community and the United States advised Central 
        American governments to separate their police forces from their 
        armies and link them more closely to their justice systems. As 
        levels of drug trafficking and violent crime increased, 
        soldiers had to be brought back in to reinforce the police, 
        especially in rural patrols. In Haiti, finding recruits with 
        adequate levels of education has been a challenge. In Colombia, 
        criminal cases were backlogged several years in some cases, 
        until the justice system itself adopted oral, adversarial 
        trials and invested in adequate infrastructure. That process is 
        still a work in progress.
  <bullet> Environmental challenges--Are there isolated borders or 
        large swaths of ungoverned territory? Many countries in South 
        and Central America have large, undeveloped regions that lack 
        infrastructure and representatives of state authority such as 
        police. Colombia's illegal armed groups controlled such areas 
        until security forces began to rout them and encourage 
        demobilizations. Now, authorities are trying to find a way to 
        occupy these areas to keep traffickers and criminals out. A 
        similar scenario is repeating itself in Guatemala's mountains 
        and northern marshlands. And,
  <bullet> The capacity to absorb--Is equipment easy to use, maintain; 
        are needed skills easily learned? From 1999 to 2006, U.S. 
        Southern Command's $67 million Operation Enduring Friendship 
        program provided a package of 60-mile-per-hour fast boats and 
        maintenance training to Caribbean and Central American states 
        to improve maritime drug interdiction capabilities. However, in 
        some countries, the required maintenance was beyond the skill 
        levels of available mechanics.

    As evidenced by the President's annual determinations, almost all 
countries in the hemisphere are cooperative on some level. But some are 
much less so than others. Cooperation is limited in Central America, 
the Caribbean, and some of South America because of microbudgets, 
environmental hurdles, and sometimes the capacity to absorb. Bolivia 
and Venezuela are marginally cooperative for current lack of political 
will.
    In conclusion, U.S. policies toward drug trafficking and 
transnational crime in the Western Hemisphere could be more effective 
if policymakers thought more strategically: considering trends, 
strengths, and weaknesses in our abilities to build multilateral 
cooperation, and technological advantages that the United States might 
have. As we develop sensoring and surveillance capabilities for defense 
missions in other parts of the world, we have yet to apply many of them 
to our transnational crime monitoring efforts. The development of a 
true planning culture in the U.S. agencies that combat transnational 
crime would encourage that kind of integration and perhaps help us to 
meet future challenges head on, as opposed to lurching from one crisis 
to the next.
    The other key to success is to address cooperative deficits. One 
way is to plan on some partners needing more help than others in 
resolving their security situations, and then finding a way to get it 
to them before their security situations become acute and expensive. 
ONDCP and the Bureau of International Narcotics and Law Enforcement 
Affairs at the Department of State could do more analysis in that 
regard. Another is to leverage the accomplishments of some partners. 
This has already begun to happen. Colombia has been providing advice to 
Mexico and to El Salvador in police and justice sector reforms. 
Meanwhile the International Commission Against Impunity Agreement in 
Guatemala (CICIG) is being examined by other countries as a way to 
invite international involvement in strengthening local prosecutions 
against corrupt officials--needed where justice systems are extremely 
weak.
    Finally, the good news is that with the forward-looking Caribbean 
Basin Security Initiative, U.S. policymakers are beginning to think 
proactively. It is a start. The flip side is that they can't stop 
there.
    Again, Mr. Chairman, thank you for this opportunity to testify 
before this distinguished committee.

    Senator Menendez. Thank you, Mr. Johnson.
    Mr. Olson.

 STATEMENT OF ERIC OLSON, SENIOR ASSOCIATE, MEXICO INSTITUTE, 
LATIN AMERICAN PROGRAM, WOODROW WILSON INTERNATIONAL CENTER FOR 
                    SCHOLARS, WASHINGTON, DC

    Mr. Olson. Thank you, Chairman Menendez and Ranking Member 
Rubio, for the invitation to appear before you today on this 
panel on behalf of the Woodrow Wilson's Mexico Institute.
    I've been asked to talk about firearms trafficking 
specifically and most of what I want to say is found in a 
recent volume that we edited on the subject. You so graciously 
mentioned our book, ``Shared Responsibility: U.S. Policy 
Options for U.S. and Mexico to Confront Organized Crime.'' The 
chapter was actually written by my good friend and colleague, 
Colby Goodman, who is here with me this morning, and I'm going 
to just summarize some of the main findings from that article 
or that chapter.
    First, it's clear to me that the erupting organized crime-
related violence in Mexico is exacerbated by the relatively 
easy access organized crime has to military-style firearms like 
AK-47s, AR-15s, and even 50 BMG caliber rifles. Well-armed 
organized crime groups are often more likely to attack their 
rivals, law enforcement, and government officials when they 
have superior weapons and can act with total impunity. And 
journalists and innocent bystanders often pay the price.
    Last year, Colby and I and four other researchers were in 
Ciudad Juarez, Mexico, the day after 15 young people were 
gunned down while they celebrated a victory of their sports 
team at home in their working class neighborhood. We went to 
express our condolences the next day and what we were told was 
that the hit men who carried out this crime were looking for a 
rival gang member, but apparently found it easier to spray the 
room with bullets and kill many innocent young people at a 
time. One of the weapons used was traced back to the United 
States.
    So the question is what is being done to disrupt the flow 
of weapons to organized crime? Here we have some good news and 
bad news. On the good news side, Mexico's security forces are 
doing a much better job of capturing and seizing weapons. 
Between December 2006 and May 2010, Mexico seized more than 
85,000 total firearms, including 50,000 AK-47 and AR-15 rifles. 
They also seized an estimated 5 million rounds of ammunition.
    With increased seizures comes increased opportunities to 
identify and trace these firearms. While this process isn't 
perfect, traces suggest that the vast majority of weapons come 
from the United States. It also suggests that AK-47 type 
semiautomatic rifles and also AR-15 semiautomatic rifle clones 
are the most preferred firearms by organized crime in Mexico, 
and that Texas, Arizona, and California are the top source 
States for those firearms.
    Now, there are caveats with each one of those statements, 
but it begins to paint a general picture of the phenomenon. But 
there are also problems. Mexico's process for identifying, 
registering, and tracing firearms is improving, but it is still 
very slow at times, inaccurate, overly centralized. It can take 
as long as 1 year for some firearms to go through the process.
    ATF could help with training and providing better access to 
the online database system known as eTrace and making that 
available to the Mexican law enforcement. But they do not have 
the staff and I'm afraid that in the wake of the scandal 
surrounding Operation Fast and Furious ATF is not likely to 
have greater presence and access to firearms in Mexico in the 
short term.
    Mexican officials also complain that ATF is slow to provide 
them with intelligence and background information that would 
allow them to better track trafficking networks in Mexico.
    U.S. border agencies and ports of exits are still ill 
prepared to disrupt trafficking, even when there is good 
intelligence about potential traffickers. There are not enough 
agents and the infrastructure and technology for southbound 
inspection are woefully lacking. The United States has only 48 
license plate readers in some 118 outbound lanes on the 
southwest border.
    Personally, I do not believe one can stop the trafficking 
of weapons at the border, but outbound inspections could be 
used effectively if they're done in a targeted and strategic 
manner and there is adequate personnel and equipment.
    Within the United States, ATF has had some success in 
combatting trafficking when it has been strategic and focused. 
A special operation in the Houston area netted some good 
results, so focusing their efforts in high trafficking areas 
makes a lot of sense.
    On the other hand, the Department of Justice inspector 
general's report on ATF's Project Gunrunner found several 
problems, including that ATF does not systematically share 
leads and intelligence with other United States agencies and 
the Government of Mexico, and they seem to be resistant to 
press for prosecutions for smuggling violations, which carry 
much stiffer penalties than misdemeanor firearms infractions.
    Now, I see my time has run out and I just want to refer you 
to the written testimony that includes a number of policy 
suggestions, policy options. I'm happy to talk about those in 
more detail, but let me just finish by saying the United States 
Government has a historic opportunity to assist the Government 
of Mexico to reduce the violence and weaken transnational 
criminal organizations operating from Mexico. Helping curb 
access to large quantities of sophisticated firearms and 
ammunition and thus their ability to carry out atrocities 
against civilians and overpower Mexican authorities is one 
critical way the U.S. Government can address this serious 
threat to Mexico and increasingly to the United States.
    Thank you very much.
    [The prepared statement of Mr. Olson follows:]

                  Prepared Statement of Eric L. Olson

    Senator Menendez, Ranking Member Rubio, and Members of the 
subcommittee I am grateful for the opportunity to appear before you 
today on behalf of the Woodrow Wilson Center to discuss an issue of 
enormous importance in United States-Mexican relations, firearms 
trafficking.
    As you know, in 2007 Presidents George W. Bush and Felipe Calderon 
Hinojosa announced a landmark security cooperation agreement called the 
Merida Initiative. The significance of this agreement was not only the 
money and equipment involved but the innovative framework of ``shared 
responsibility'' that formalized the commitment of both countries to 
work together to address the serious security problems posed by 
organized crime. For the first time both countries acknowledged that 
the roots of the crime and violence convulsing Mexico were to be found 
in both countries. Mexico acknowledged that it needed to more 
aggressively confront organized crime by increasing deployments of its 
security forces, and dramatically strengthening its institutions by 
rooting out corruption, professionalizing its police, transforming its 
justice system, and improving the capacity of its military and 
intelligence services. For its part, the United States acknowledged 
that consumption of illegal drugs in the United States, the profits 
generated, and the trafficking of firearms was feeding the violence in 
Mexico.
    The Obama administration continued and deepened this cooperative 
framework and reemphasized the shared nature of the problem and the 
urgency of working cooperatively to address the problem.
    Last year, the Wilson Center's Mexico Institute, which is part of 
the Latin America Program directed by Dr. Cynthia Arnson, undertook an 
extensive study of the security challenges posed by organized crime in 
United States-Mexico relations. We commissioned 13 papers to examine 
multiple aspects of the problem. The resulting volume is entitled, 
``Shared Responsibility: U.S.-Mexico Policy Options for Confronting 
Organized Crime,'' which I had the honor to coedit with Dr. Andrew 
Selee, Director of the Mexico Institute, and Dr. David Shirk, Director 
of the Trans-Border Institute at the University of San Diego.
    Since I have been invited today to talk specifically about firearms 
trafficking to Mexico, I would like to take the remainder of my time to 
summarize some of the key findings in the chapter on the subject 
authored by Colby Goodman and Michel Marizco, and add some additional 
information that has come to light since our publication. While our 
study focused on a number of issues related to the nature and 
consequences of U.S. firearms trafficking to Mexico, I am going to 
focus on the issues most relevant to the Senate Subcommittee on Western 
Hemisphere, Peace Corps and Narcotics Affairs. After an overview of the 
main findings of the report, I will provide more detail about the 
challenges the United States and Mexican Government are facing in 
working together to tackle this problem, especially related to firearms 
trace requests, intelligence-sharing, and border enforcement, and offer 
some policy options for addressing these challenges.
    Firearms Violence. Traditionally, Mexican organized crime groups 
used firearms to establish and maintain dominance over trafficking 
routes, access points into the United States, and territory (known as 
``plazas'' in Spanish), usually by wresting rival drug syndicates away 
and establishing the environment necessary to maintain a reliable 
trafficking enterprise. Much of this was performed through specific 
assassinations, focused attacks that allowed for the establishment of 
regional control. However, as the rivalries between criminal 
organizations increased, and the Mexican Government more directly 
challenged organized crime, the demand for firearms increased 
dramatically, especially for more sophisticated military-style firearms 
from the United States. In the last 3 years we have witnessed the use 
of these weapons in open combat with rival organizations, and often 
resulting in the increasing lethality of these attacks and the deaths 
of innocent by-standers. The resulting murder rate is now seven times 
what it was at the beginning of the decade, and Mexico's democratic 
governance is at serious risk. The most recent data from the Government 
of Mexico shows a 60-percent increase in homicides between 2009 and 
2010 with last year being the most violent since the beginning of the 
Calderon administration with approximately 15,300 people were killed in 
organized-crime related violence.
    While most of the violence and killings are amongst and between 
organized crime groups they have also used firearms to target both 
local and federal officials, politicians, journalists, businesses, and 
the general public. In late 2006, for example, in the Sinaloan village 
of Zazalpa, 60 drug traffickers looking for a rival DTO gathered all 
the residents and destroyed the town, raking buildings with U.S.-
purchased
AR-15 firearms. According to Mexican President Calderon, crime groups 
are also ``imposing fees like taxes in areas they dominate and trying 
to impose their own laws by force of arms.'' In February 2010, U.S. and 
Mexican citizens waiting to cross into Mexico from Nogales, AZ, were 
trapped in a firefight erupted in the plaza on the Mexican side. In the 
spring of 2008, tourists returning through the Lukeville port of entry 
were also trapped in line waiting to cross when a gunfight ensued. In 
that same year, a woman from Nogales, AZ, was murdered at a fake 
checkpoint on a federal interstate in Sonora. Authorities said she was 
shot with AK-47 gunfire. A Mexican Government official familiar with 
the murder said three .50 BMG caliber rifle shells were found at the 
scene.
    Seizures and Tracing. In light of the increasing use of firearms by 
organized crime groups in more dangerous and threatening ways, the U.S. 
and Mexican Governments have increased their efforts both independently 
and collectively to curb Mexican DTO's access to firearms and 
ammunition in the last few years. The Mexican Government, for example, 
has significantly increased the number of firearms it has seized per 
year since the start of the Calderon administration. According to the 
latest figures from Mexico, the Mexican Government confiscated 32,332 
firearms in 2009, an increase of more than 22,770 firearms over 2007 
seizures. From December 2006 to May 2010, Mexico seized more than 
85,000 total firearms, including 50,000 AK-47 and AR-15 riles. An 
estimated 5 million rounds of ammunition has been confiscated from 
December 2006 to May 2010.
    Recognizing that submitting firearm trace requests to the United 
States is key to combating U.S. firearms trafficking, the Mexican 
authorities have also increased the number of firearm trace requests to 
ATF in the last few years. In late October 2009, for example, the 
Mexican military submitted an extensive list of firearms seized over 
the past few years to ATF for tracing. While ATF was not able to use 
much of the data--because it either already had information on the 
firearm or there were duplicates in the list--among other challenges, 
the list provided ATF with new data on tens of thousands of firearms 
recovered in Mexico. As of May 2010, ATF said they had inputted data on 
a total of 69,808 firearms recovered in Mexico from 2007 to 2009. Since 
then, the Washington Post has reported that number has increased to 
around 75,000.
    To assist Mexican authorities with firearms tracing and related 
investigations, ATF and ICE have pledged to add personnel to U.S. 
consulates in Mexico and to provide Mexican officials with training and 
support on electronic firearms tracing or eTrace. In late December 
2009, ATF started the initial rollout of a bilingual (Spanish and 
English) version of eTrace with limited deployment to Mexico and other 
Central American countries for testing. Through eTrace, Mexican 
officials can submit a firearm trace request to ATF electronically, 
which is more accurate than the older paper-based tracing system. If 
ATF is able to trace the firearm to the first purchaser, then officials 
from both governments can use this information to build leads on 
firearms trafficking investigations and prosecution. From FY 2007 to 
2008, ATF personnel trained 375 Mexican law enforcement officials on 
eTrace. Once eTrace is expanded throughout Mexico, as planned, ATF 
expects to provide more training to Mexican authorities. ATF and ICE 
officials have also been tracing some firearms seized in Mexico 
themselves, particularly in cities close to the United States-Mexico 
border.
    Cooperation in the United States has also increased. Personnel from 
the office of Mexico's Federal Attorney General (PGR in Spanish) now 
work with ATF directly in Phoenix, AZ, and they have sent a PGR 
specialist to work with U.S. authorities at the El Paso Intelligence 
Center (EPIC) in El Paso, TX.
    For the future, the United States and Mexico will reportedly 
establish a working group to increase the number of firearms 
trafficking prosecutions on each side of the border and create a unit 
to help link firearms to drug cartels for prosecution. Mexico also 
plans to develop a list of individuals who have a history of obtaining 
firearms in Mexico to share with the U.S. Government.
    Firearms and Ammunition Origins. According to information provided 
by U.S. and Mexican Government officials, U.S.-origin firearms account 
for the vast majority of firearms seized in Mexico over the last few 
years. As Mexico has submitted many more firearms to ATF for tracing, 
ATF now has a much better capability to determine the percentage of 
U.S.-origin firearms recovered in Mexico than it had just 2 years ago. 
However, ATF has been unwilling to release this information because of 
a debate within ATF about what constitutes a U.S. origin firearm. In 
many cases, for example, ATF has been unable to trace a firearm 
recovered in Mexico to the first purchaser in the United States and, 
thus, there are questions as to whether the firearm is of U.S. origin. 
In other cases, ATF has been able to determine that the firearm was 
manufactured in or imported into the United States, and as a result, 
ATF officials have said they can only determine there is a very strong 
possibility the firearm was sold in the U.S. domestic market and 
directly smuggled into Mexico.
    Although the above information is important for understanding the 
total amount of U.S.-origin firearms seized in Mexico, it does not 
provide a clear sense of the number of firearms regularly and illegally 
crossing the United States-Mexico border. Data on U.S. prosecutions 
shines some light on this issue. According to ATF congressional 
testimony in March 2010, individuals illegally transferred an estimated 
14,923 U.S. firearms to Mexico from FY 2005 to FY 2009. In FY 2009 
alone, an estimated 4,976 U.S. firearms were trafficked to Mexico, up 
more than 2,000 firearms from FY 2007. A Violence Policy Center (VPC) 
study that reviewed just 21 indictments alleging illegal firearm 
trafficking filed in U.S. Federal courts from February 2006 to 2009 
showed that defendants also participated in trafficking 70,709 rounds 
of ammunition to Mexico. It is likely these annual trafficking numbers 
only represent a small percentage of the total amount of trafficking 
per year because these numbers are only based on U.S. prosecutions and 
do not include thousands of U.S. firearms seized in Mexico per year 
that are not part of U.S. prosecutions.
    Another way to approximate the demand for U.S. firearms in Mexico 
is by examining the price differential between U.S.-origin AK-47 
semiautomatic rifles sold just across the United States-Mexican border 
($1,200 to $1,600) and U.S.-origin AK-47s sold in southern Mexico 
($2,000 to $4,000). Such a price difference suggests a strong demand 
for U.S. firearms in Mexico and the lack of quality assault-type rifles 
from Central America.
    As ATF does not regularly attempt to trace rounds of ammunition, it 
is harder to assess the annual trafficking of ammunition to Mexico. 
Hundreds of thousands of rounds of ammunition intended for Mexico and 
seized each year in the United States suggests it is a significant 
problem. In addition, several U.S. law enforcement authorities in El 
Paso, TX, say traffickers regularly use large amounts of ammunition in 
their firearm attacks. The quantity of rounds of ammunition owned by 
some criminals has helped them win some firefights with Mexican 
authorities. For instance, in May 2008 seven Mexican Federal police 
officers were gunned down trying to raid a home in Culiadn, Mexico. The 
traffickers inside the house responded to the Mexican Federal police 
officers raid with AK-47s and overpowered the Federal police after a 
period of time because the police ran out of ammunition.
    New data from ATF on firearms recovered in Mexico from 2007 to 2009 
also shows that Texas, California, and Arizona respectively are the top 
three U.S. States where U.S. firearms are purchased and later 
trafficked to Mexico. It, however, is important to note that this data 
does not show when the firearm was purchased in the United States. As 
the average time-to-crime was 15.7 years for U.S. firearms recovered in 
Mexico and traced to the first purchaser in 2009, it is possible there 
are significant differences in which U.S. States account for the most 
firearm purchases in the last 3 to 5 years. Despite California being a 
top source State, ATF in California has said the State is not among the 
top three U.S. source States if one limits the analysis by firearms 
purchased in the United States in the last 3 years. ATF in California 
also reports that most of their investigations in the last few years 
involve individuals transporting firearms through California to Mexico 
instead of purchasing the firearms in California. This shift in 
purchasing patterns for firearms trafficked to Mexico appears to be the 
result of stiffer laws on buying firearms in California.
    Trafficking Trends. Based on firearms recovered in Mexico and where 
ATF was able to determine that the firearm was purchased in the United 
States, the top two firearms were AK-47 type semiautomatic rifles and 
then AR-15 semiautomatic rifle clones. The Romarms (Romanian 
manufactured) AK-47 rifle and the Bushmaster AR-15 rifle clone have 
been particularly popular. The NORINCO (Chinese manufactured) AK-47 was 
also popular for 2010. While these firearms were in a semiautomatic 
configuration when purchased in the United States, many of them were 
converted to fire as select fire machineguns by the time they were 
discovered in Mexico. ATF officials have also said organized crime 
continues to seek .50 BMG caliber rifles, which are especially lethal 
because they can strike accurately from more than a mile away and 
penetrate light armor, as well as FN Five-seven 5.7 mm pistols. There 
has also been some concern about .50 BMG caliber uppers conversions 
fitted into AR-15s because of the lack of Federal restrictions on 
purchasing these uppers in the United States.\1\
---------------------------------------------------------------------------
    \1\ http://www.safetyharborfirearms.com/news/articles/
arrifleman.pdf.
---------------------------------------------------------------------------
    According to officials from Immigration and Customs Enforcement 
(ICE) and the Bureau for Alcohol, Tobacco, Firearms, and Explosives 
(ATF), individuals and groups seeking to traffic U.S. firearms to 
Mexico use several different schemes to purchase and transport U.S. 
firearms to Mexico. In a large number of cases, several straw 
purchasers and one or more intermediaries or brokers are used to 
traffic the firearms to Mexico. The straw purchasers are eligible to 
purchase firearms in the United States while the brokers are usually 
legally prohibited from purchasing firearms because they are convicted 
felons, not U.S. citizens or residents, or for other reasons. Sometimes 
taking orders from a person in Mexico, the U.S.-based broker may hire 
three or more straw purchasers to buy a few firearms each at various 
locations. In a more complex scheme intended to better hide a 
trafficker's identity and avoid prosecution, a managing broker hires 
additional brokers, and these brokers then hire the straw purchasers.
    Perhaps not surprisingly, some brokers arranging firearms 
trafficking to Mexico are also involved in other illegal activities. 
According to ATF, ICE, and Drug Enforcement Administration (DEA) 
officials based along the U.S. and Mexican border, there are cases in 
which individuals involved in distributing illegal narcotics in the 
United States are also engaged in trafficking U.S. firearms to Mexico.
    ATF officials also say firearms traffickers purchase firearms at 
U.S. gun stores and pawn shops as well as U.S. gun shows and other 
secondary sources, which require fewer checks on a person's identity 
and criminal history.
    According to U.S. authorities, it appears there has been little 
change in the main routes used by traffickers to transport firearms 
purchased in the United States across the border into Mexico. In 
September 2009, for instance, the U.S. Department of Justice's 
inspector general included the most recent official map of trafficking 
routes in an interim review of ATF's Project Gunrunner. The three main 
trafficking corridors are: (1) the ``Houston Corridor,'' running from 
Houston, San Antonio, and Laredo, TX, and crossing the border into 
Nuevo Laredo, Reynosa, and Matamoros; (2) the ``El Paso Corridor,'' 
running from El Paso, TX, across the border at Ciudad Juarez; and (3) 
the ``Tucson Corridor,'' running from Tucson, AZ, across the border at 
Nogales. ATF officials, however, are increasingly concerned that an 
additional corridor could be from Florida to Guatemala to Mexico. ATF 
officials say that once the firearms reach Mexico, they mostly follow 
major transportation routes through Mexico.
    By far, the most common method of transporting the firearms across 
the United States-Mexican border is by vehicle using U.S. highways. 
While U.S. authorities sometimes catch individuals with dozens of 
firearms, most are carrying smaller numbers of firearms in order to 
avoid detection. ATF officials have said a good time to catch firearm 
smugglers is right after a U.S. gun show in Arizona or Texas. A source 
within the Mexican Center for Research and National Security (CISEN) 
said most weapons now cross through remote Arizona ports of entry, such 
as Lukeville and Sasabe. These two ports see very little traffic 
compared to nearby Nogales or Tijuana and, more importantly, there is 
no checkpoint infrastructure beyond that of Mexican Customs at the port 
of entry.
    Both U.S. and Mexican citizens are also engaged in smuggling 
firearms with commercial and noncommercial vehicles, and they use 
various techniques--some unsophisticated like concealing a weapon in a 
detergent box, and some quite sophisticated such as underground 
tunnels. Using cars, trucks, vans, or buses, traffickers employ 
techniques such as zip-tying the firearms to a hidden compartment of 
the vehicle, or they stuff the firearms under a truck bed liner or in a 
fuel tank. In other cases, the transporters have no fear of capture. 
For example, traffickers had about 30,000 rounds of ammunition sitting 
near the front seat of a civilian passenger bus when Mexican 
authorities caught them at an inspection point several miles inside 
Mexico from the Arizona border in March 2010.
    Some Major Challenges in U.S.-Mexican Government Efforts. Several 
U.S. Government agencies are involved in fighting firearms trafficking 
to Mexico including a number in the Department of Homeland Security--
Immigration and Customs Enforcement (ICE) and Customs and Border 
Protection (CBP), and the Department of Justice's Drug Enforcement 
Administration (DEA). But the agency with the largest responsibility is 
DOJ's Bureau for Alcohol, Tobacco, Firearms and Explosives (ATF).
    Despite increased efforts by the U.S. and Mexican Governments to 
combat firearms trafficking, both countries continue to face 
significant challenges in bringing the phenomenon under control. One 
major challenge is the incompleteness and timeliness of some of 
Mexico's firearm trace requests to ATF. Of the estimated 20,451 
firearms recovered in Mexico in 2009 and for which ATF had information, 
it was only able to trace 4,999 firearms to the first U.S. purchaser. 
According to ATF, one major reason is that Mexican authorities often 
leave out the import stamp number for AK-47 variants and other 
essential identification information on U.S. manufactured firearms. 
Since many AK-47s sold in the United States are imported from other 
countries, ATF needs the import number to determine where the firearm 
was first sold in the United States. ATF officials face difficulties 
with AK-47 part kits imported to the United States as well as because 
there are no markings on the parts that indicate they have been 
imported into the United States. Firearms traffickers are also 
increasingly obliterating the serial numbers on the firearms.
    ATF officials also recommend that Mexico submit more timely trace 
requests, among other challenges. It appears one major reason why it 
takes so long to submit the requests is that all Mexican firearm trace 
requests are submitted by the PGR in Mexico City, which has a limited 
number of staff working on eTrace, instead of having Federal or local 
officials throughout Mexico submit the requests to ATF directly.
    When U.S. officials ask Mexican authorities to inspect and trace a 
firearm used in a crime in Mexico, the U.S. officials also sometimes 
run into problems. In some cities such as Tijuana, where U.S. law 
enforcement has a fairly strong relationship with Mexican law 
enforcement and the military, ATF receives regular access to the 
firearms. As a result, ATF has been able to trace a firearm within a 
few days after Mexican authorities seize it. In other Mexican states 
such as Sinaloa, where ATF has little presence and corruption is a 
larger problem, ATF is relatively restricted from accessing the 
firearms. ATF agents working with Mexican authorities say the key to 
getting access to firearms is a physical presence in the Mexican city 
and building personal relationships with the respective Mexican 
officials. These same ATF agents say it would also help if Mexico City 
provided clear support for ATF to physically inspect the firearms. In 
some cases, Mexican law enforcement has to seek approval for each 
firearm by a Mexican judge in order for ATF to inspect the firearm.
    Thanks to some increased funding from the U.S. Congress in the last 
few years, ATF has hired additional staff to follow up on firearms 
trace requests and address U.S. firearms trafficking to Mexico in 
general. Starting in FY 2007, ATF had around 100 special agents and 25 
industry operations investigators working for Project Gunrunner. 
According to ATF, as of mid-February 2010 they have about 190 special 
agents, 145 Industry Operations Investigators, and 25 support staff 
working on Project Gunrunner in States along the southwest border. 
While this staff increase appears to have helped with firearms seizures 
and prosecutions, ATF officials stationed along the U.S. southwest 
border say they still do not have enough staff to investigate many 
leads. Additionally, ATF's plans to add staff to U.S. consulates in 
Hermosillo, Guadalajara, Matamoros, Merida, Nogales, and Nuevo Laredo, 
which are key to improving the accuracy and timeliness of Mexico's 
firearm trace requests, but ATF has not received specific congressional 
funding for such positions.
    According to the U.S. Department of Justice Inspector General's 
report on Project Gunrunner released in November 2010, ATF could also 
do more to provide Mexican authorities with key information on U.S. 
firearms trafficking to Mexico. For example, ``ATF has a substantial 
backlog in responding to requests for information from Mexican 
authorities, which has hindered coordination between ATF and Mexican 
law enforcement.'' This is in part because of lack of ATF officials in 
Mexico. ``Although ATF has shared strategic intelligence products with 
Mexican and other U.S. agencies, it is not doing so consistently and 
systematically. For example, we [DOJIG] found that ATF is not 
systematically sharing strategic intelligence on cartel firearms 
trafficking--including trends and patterns in their operations, where 
they are operating, and the composition of their membership and 
associates--with Mexican law enforcement, the DEA, or ICE.'' ATF is 
also not regularly giving Mexican authorities the criminal histories of 
those who may be involved in firearms trafficking, which Mexico has 
repeatedly asked for.
    The U.S. Department of Justice inspector general report also noted 
that ATF was reluctant to develop cases against defendants engaged in 
U.S. firearms trafficking to Mexico using smuggling charges despite the 
longer sentence prosecutors could obtain from such charges. The IG 
report, for example, ``found that from FY 2004 through FY 2009, only 
seven defendants in Project Gunrunner cases were convicted of 
smuggling.'' The same report also ``found that the average sentence for 
smuggling violations was 5 years (60 months), several times longer than 
the average sentences for the types of convictions frequently made from 
ATF investigations.'' It appears ATF's unwillingness to pursue cases in 
connection with smuggling charges is related to some difficulties in 
the interagency coordination between ICE and ATF.
    Because it is difficult for Federal and local authorities to search 
vehicles for illegally possessed firearms in the United States, ATF 
officials have said they sometimes prefer to call ahead to CBP and ask 
them to inspect a vehicle ATF suspects is smuggling firearms across the 
United States-Mexican border. However, sometimes CBP is not able to 
identify the vehicle before it crosses the border because some U.S. 
ports of exit do not have license plate readers or they are using 
license plate readers that sometimes confuse ``8s'' with ``Bs''. 
According to a Government Accountability Office report on Money 
Laundering released this month, CBP only has license plate readers at 
48 of 118 outbound lanes on the southwest border. CBP officials may 
also attempt to stop a vehicle heading south by just standing in front 
of the cars, which could be dangerous if a vehicle decided to speed 
through the border check point. Compared with vehicles going north or 
into the United States from Mexico, U.S. authorities also conduct 
relatively few checks on vehicles going south.
    Policy options: The Woodrow Wilson Center is a nonpartisan research 
institution created by the U.S. Congress. We do not make 
recommendations nor do we promote specific solutions to policy 
questions. Our goal is to provide the best in scholarly research to 
inform issues of policy importance and relevance to the U.S. 
Government. In conducting our research we have developed a number of 
policy options that the U.S. Congress and administration may want to 
consider as it wrestles with these complex issues. These include:
    Increase funding for ATF programs that have demonstrated a positive 
impact on prosecutions and seizures, including adding ATF staff along 
the southwest U.S. border and in Mexico where U.S. firearms are being 
seized. As demonstrated by ATF's GRIT operation in Houston, TX, in 
2009, an influx of 100 ATF agents into an area of heavy U.S. firearms 
trafficking resulted in a large increase in U.S. prosecutions, as well 
as, firearms and ammunition seizures. Since the Mexican Government is 
seizing a large number of firearms in the Mexican states of Michoacan, 
Sinaloa, Tamaulipas, and Jalisco, increased funding for ATF to add 
agents to U.S. consulates in Guadalajara (for Jalisco and Michoacan), 
Hermosillo (for Sinaloa), and Nuevo Laredo and Reynosa (for Tamaulipas) 
might be considered. This increase in ATF funding and resulting staff 
could be used to help ATF better respond to Mexican requests for 
information on criminal histories of arms traffickers and on trends and 
patterns of DTO operations, among other types of information. It would 
also show that the United States continues to recognize this as a 
serious problem that needs to be addressed immediately.
    The U.S. Government could continue to encourage the Mexican 
Government to improve some of its efforts related to tracing firearms. 
In order to speed up the time between when a firearm is seized in 
Mexico and when it is submitted for tracing to ATF, the PGR could more 
quickly move ahead with plans to provide field staff in all Mexican 
states with the capacity to independently submit an electronic trace 
request to ATF. This action would be key for ATF to track down criminal 
suspects in the United States and thwart future firearm trafficking to 
Mexico. Once PGR's plan is approved, it would help if ATF provided PGR 
officials in Mexican states with Spanish-language eTrace, training on 
identifying firearms and filling out the eTrace forms, and eventually 
and potentially full access to ballistics information through NIBIN. 
The PGR should also create a formal policy that allows ATF to 
physically inspect firearms housed with Mexican authorities to speed up 
the tracing and assist with U.S. criminal prosecutions in the United 
States.
    Both the U.S. and Mexican Governments could strengthen some of 
their efforts at the border that would help stem firearms smuggling and 
not curtail the flow of passenger and commercial vehicle traffic 
significantly. For instance, U.S. authorities at the border could 
improve their ability to detect and stop vehicles they are aware are 
attempting to smuggle firearms from the United States to Mexico, 
including increasing the number of quality license plate readers for 
southbound operations at the border. Building some infrastructure at 
U.S. southbound areas would also help prevent vehicles from escaping 
inspection by speeding across the border and protect CBP and ICE staff. 
Both the U.S. and Mexican Governments could also engage in random 
inspections of vehicles at times where the likelihood of firearms 
smuggling may occur. For example, it is more likely that one would find 
a few cars attempting to smuggle firearms into Mexico several hours 
after a U.S. gun show in U.S. cities along the United States-Mexico 
border. Pursuing such efforts could also improve the number of cases 
where defendants are charged with arms smuggling, which often provides 
stiffer penalties and may be more attractive for U.S. attorneys.
    The U.S. Government could also consider changes in Federal law 
related to firearms purchasing and some Federal enforcement practices. 
Similar to when individuals buy multiple handguns, for example, a 
Federal or State law could be created so that U.S. authorities would be 
notified when individuals buy a certain amount of military-style 
firearms in a short period of time.
    Since the U.S. Government already bans the importation of 
semiautomatic assault rifles into the United States and many assault 
rifles that reach Mexican organized crime groups come from U.S. 
imports, ATF could better enforce this law. The U.S. Government might 
also consider requiring some type of import markings are placed on AK-
47 semiautomatic rifle part kits imported into the United States.
    Finally, the U.S. Government has a historic opportunity to assist 
the Government of Mexico to reduce the violence and weaken 
transnational criminal organizations operating from Mexico. Helping 
curb access to large quantities of sophisticated firearms and 
ammunition and thus their ability to carry out atrocities against 
civilians and overpower Mexican authorities is one critical way the 
U.S. Government can address this serious threat to Mexico and 
increasingly to the United States.

    Senator Menendez. Well, thank you. Thank you all for your 
testimony. Your full statements will be included in the record.
    Let me start with you, Mr. Olson. First of all, ATF reports 
that there are about 6,400 or 6,600 Federal firearm licensees 
operating on the Southwest border regions of Texas, New Mexico, 
Arizona, and California, and that the drug trafficking 
organizations are using surrogates, straw purchasers, to buy 
anywhere between 10 and 20 military-style firearms at a time, 
which are then smuggled into Mexico.
    Do you have any idea of how many of these licensees ATF is 
able to inspect or examine annually to ensure their compliance 
with the recordkeeping requirements of the Gun Control Act?
    Mr. Olson. Well, by law they're required to inspect them 
once a year. I don't believe that they actually are doing that, 
again because of insufficient staff. They're totally 
overwhelmed.
    But they're required to do one annual warrantless, in other 
words just to show up and do an inspection, a year, and I don't 
think they're doing an adequate job of that.
    Senator Menendez. This seems to be a circular situation. 
You said even when there is good intelligence, which is key in 
any of our efforts here, there is not the ability to use that 
intelligence to intercept potential gunrunners into Mexico. 
Then we have all of these guns being used in Mexico to arm the 
different drug traffickers and cartels. Then we spend an 
enormous amount of United States money to try to help the 
Mexican Government meet the security challenge this poses to 
them and us.
    I don't understand the lack of effort. While it may not be 
an absolute ability, I don't understand the lack of effort on 
the front end to undermine the gunrunning into Mexico, which 
would be in our own interests at the end of the day. How does 
that public policy make sense for the United States in terms of 
our own interests and security?
    Mr. Olson. I don't think it does make a lot of sense. I 
think what we have seen is that when they're focused and 
targeted in high trafficking areas--and there is roughly three 
main corridors and a growing fourth corridor--when they're 
focused in those areas and they put, deploy their limited 
resources in those areas, they can be successful.
    But again, they're stretched enormously thin. Sometimes 
they're overly cautious in my opinion. They don't pursue bigger 
violations. Smuggling is not one that they push. They push more 
these gun infractions. And they don't take the steps they could 
take to be more effective.
    I don't happen to believe that all the efforts should be 
right on the border. I think it could be more targeted on the 
border, but it has to be in Houston, in the areas where there 
is known corridors of trafficking, and they need to pursue, as 
you mentioned, both straw purchasers and the brokers who 
actually are behind those individual straw purchasers.
    Senator Menendez. Let me ask--and I'll open this to anyone 
on the panel--when does the citizen security threat become a 
national security threat? You know, the level of violence in 
these countries is already among the worst in the world. You 
can tell that in the graphic on the homicide chart. At what 
point do we consider this not only a threat to citizen 
security, but a threat to national security?
    Dr. Felbab-Brown. I would make two observations, Senator. 
One is at the point where citizens lose faith in their state, 
in their government, in their institutions, where they look to 
other actors for the provision of public goods that we expect 
the state to provide. Second, when the institutions become so 
hollowed out that even when the state finds the motivation to 
undertake law enforcement actions, its capacity to implement 
that is very limited because of the lack of capacity and the 
extent of corruption.
    Senator Menendez. Doctor.
    Dr. Arnson. I couldn't agree more. There is I think a 
crisis of citizen security all over the region, high levels of 
crime and violence, particularly in urban areas, throughout 
Latin America. This has been an issue that's been focused on 
extensively by regional and intergovernment institutions.
    I would agree with Vanda, it is a threat--when organized 
crime and crime and violence become threats to the survival of 
democratic institutions, it is indeed a matter of national 
security. The tendency has been to see using the armed forces 
as a way of responding to threats to national security. I think 
when that happens--and I'm not opposed to that in certain 
cases; it has to be done with extreme levels of care, 
particularly given the history of the role of the military in 
internal societies in places like Central America.
    Senator Menendez. Mr. Johnson, do you want to add your 
view?
    Mr. Johnson. Mr. Chairman, I'd just like to say that when 
it impacts the United States it's usually through increased 
immigration, migration of transnational crime into our country, 
lost GDP. I think that has to be considered, and the 
possibility of lost trade opportunities with countries that 
have to deal with these situations. And then the possibility 
that these threats will generate other threats or opportunities 
for other threats to emerge. So those are the specific----
    Senator Menendez. One of my concerns is that we always 
think, for example, of Central America as a transit point, and 
now increasingly it seems to be a production point. But it's 
not just awash in smugglers. The region has become a major 
cocaine consumer in the process because cartels are now paying 
people in drugs and local dealers turn those payments into 
crack that sells for a dollar a hit.
    I look at the Dominican Republic as an example in the 
Caribbean. It was always a transit point, never a consuming 
population, and now it's an increasingly consuming population.
    How do we deal with this problem when there are no real 
alternatives to recruitment in the slums of San Pedro Sulas, in 
Salvador, and Guatemala City?
    Dr. Arnson. I was just going to agree with you that I think 
one of the really pernicious effects of this is that drug 
traffickers are no longer paying in cash, but also paying in 
product, and turning local drug dealers into the providers of 
narcotics to poor neighborhoods.
    How do you deal with this? You attack it as one more aspect 
of the development challenge that comes with attempting to 
restore institutionality and fight drug gangs and provide 
alternative opportunities. I don't think that there is a quick 
and easy solution. I don't think it's short term. I think it 
could last easily a generation. But the resources and the 
commitment need to be significant.
    Senator Menendez. Dr. Brown.
    Dr. Felbab-Brown. What I would add is that it is imperative 
that the United States and other traditional consumers like 
Western Europe reduce demand. But it is equally imperative that 
we help countries in Latin America reduce their own demand. In 
Brazil and Argentina, per capita use is on par with the United 
States. In other countries it is expanding rapidly.
    If you look broadly at the region, the United States is no 
longer necessarily the biggest consumer of drugs, or at least 
in particular kinds of drugs. Yet often in these countries 
efforts at prevention and treatment continue to be deeply 
underfunded and arguably neglected. Many of these countries 
still put the onus on the United States to reduce its own 
demand, neglecting their own internal problems.
    I think we have gone through a big learning curve in the 
United States knowing what prevention and treatment works, how 
they can be improved, and part of our international assistance 
package should be encouraging and helping those countries to 
develop adequate programs at home.
    Senator Menendez. Mr. Johnson, and then I'll turn to 
Senator Rubio.
    Mr. Johnson. I would just add to that that, as bad as the 
burgeoning consumption problems are in some countries, in 
neighboring countries in Latin America, there is a silver 
lining to it, and that is that it becomes very obvious to 
leaders in those countries that they need to cooperate more and 
do more in this area. One obvious example would be Ecuador, 
which has developed a consumption problem and where they have 
made efforts to improve police and armed forces responses 
toward trafficking and transitting organizations in their 
country. Despite the loss of the lease on the Manta facility, 
Ecuador continues to cooperate with United States 
counternarcotics efforts and has actually improved some of 
their capabilities.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Dr. Brown, you spoke or in your statement 
you wrote a little bit about socioeconomic programs, 
particularly in the context of Colombia and some of the 
programs that they should--can you elaborate a little bit on 
some of those programs that they should pursue in terms of 
continuing progress?
    Dr. Felbab-Brown. The new administration of President 
Santos has very much embraced the idea that now it's time to 
focus on socioeconomic issues in Colombia, which have received 
limited attention during the administration of President Uribe. 
They have launched several exciting initiatives. One is to 
return land to those who have been forcibly displaced from 
land.
    How much of a capacity the government has to implement the 
policy, it remains to be the question mark. One of Colombia's 
longstanding problems is that the part of the government that 
functions is the Government in Bogota, and in the 
municipalities, especially further from big towns, local 
government capacity is extremely limited. To the extent that 
there is any local government capacity, it has frequently been 
penetrated by paramilitary organizations, which these days are 
called bandas criminales.
    So with all the good intentions and the appropriate focus 
on land restitution, it yet remains to be seen how much they 
will actually be able to accomplish.
    But I think there is one easy opportunity that 
implementation would not be difficult, where the decision lies 
in Bogota, and it is to move away from the so-called Zero Coca 
policy, which mandates that before a community, however a 
community is defined, a municipality, is eligible for any 
assistance, it needs to eradicate all of its coca a priori. The 
problem with that policy, of course, is that immediately food 
security for the cocaleros is extremely threatened. Food 
intake--or income, rather, collapses, often by 80 to 90 
percent. That might mean that a family that could afford to eat 
meat once a week can now afford to eat meat once a month, 
sometimes even less than that. That has repercussions on health 
and human capacity.
    Also, part of the problem, of course, is that creating 
legal opportunities is extremely challenging and it takes a lot 
of different steps, from infrastructure to access to 
microcredit to access to land to developing value-added chains 
and sustainable and accessible markets. The latter two parts 
are frequently the most difficult component of alternative 
development.
    With all these challenges, to demand that all of coca is 
eradicated immediately means that the family often faces 2 or 3 
years with very suppressed income, is not able to cope with the 
suppression of income, and resorts to coca.
    So one easy way to achieve a move forward would be for 
Bogota to abandon Zero Coca.
    Senator Rubio. The gist of it seems to be, however, that 
the next step to continue progress in Colombia is to do 
everything we can to assist in economic growth, opportunity, 
the ability of the growers to find an alternative crop, not 
only an alternative crop but an economically viable one. In 
essence to help them grow their economy and to be empowered 
economically is the gist of the direction.
    Dr. Felbab-Brown. Yes, I think it's a very critical 
component. However, Colombia still continues to face very 
serious security challenges. Although there has been great 
improvement in security, there are parts of Colombia that are 
worse than they were a few years ago. I spend a few weeks in 
Narina, which is a depart-
ment in southern Colombia, a very difficult security situation. 
I also went north to the border with Venezuela, another 
difficult situation.
    So focusing on the socioeconomic part and enabling the 
growth of a legal economy that is accessible to marginalized 
groups is critically important. But so is continuing focus on 
quality law enforcement, on police that are not abusive to the 
population, that in fact have the capacity for community 
policing.
    Colombia will continue to address continuing deficiencies 
in security, including the rise of bandas criminales, many of 
whom are reconstituted paramilitaries.
    Senator Rubio. I think the key phrase that you used was the 
growth in the legal economy, and I'm not going to ask you to 
opine on it or drag you into it, but we're having a debate 
around here with regards to free trade with Colombia and what 
that could mean for the growth. Clearly, I believe it would 
help foster this desire to have socioeconomic progress.
    Dr. Arnson, you spoke a little bit about something I'm very 
curious about, the balloon effect, and something I want to look 
at. It also ties into Mr. Johnson's testimony, written 
testimony as well, the notion that the balloon effect is real. 
As we succeed in one place, we face challenges somewhere else.
    How do we--I think it will be the same question for both of 
you, Mr. Johnson and Dr. Arnson. How do we face that? What do 
we do moving forward to anticipate, if we're successful in our 
current initiatives, what that balloon effect will look like in 
other parts of the region 10 years down the road, 5 years down 
the road?
    Dr. Arnson. Sure. Well, I think as Steve mentioned, there 
is part of a learning curve in fortifying what's going on in 
the Caribbean right now, so that successes in Central America 
and in Mexico don't worsen the situation. There had been a 
great deal of progress in breaking up the trafficking routes 
through the Caribbean and the threat, obviously, is that those 
would return when there is pressure elsewhere.
    I think the only way to look at it is in terms of a 
comprehensive approach. I agree this is not a war, and there 
have to be I think more discussion in the United States about 
how--the United States and elsewhere, as Vanda has pointed 
out--how to reduce demand, how to invest in our own poor 
communities, in which drug violence and drug consumption are 
major, major problems, and how to mobilize the resources in 
countries that are now experiencing problems of organized crime 
and violence related to drug trafficking, how to mobilize the 
resources of society to invest in the kinds of state-level 
programs that are going to assist in creating opportunities.
    I think the challenge is not only in Latin America to grow 
the economies, but also to have a strong and effective state 
policy capable of carrying out antipoverty and social policies 
that would address many of the root causes. That also involves 
making sure that there are effective tax administrations and 
ways that people who are able to contribute to these efforts in 
Latin America do in fact contribute.
    Mr. Johnson. I would just add to that that over a long 
period of time we've known about drug trafficking and 
transnational crime groups operating in places like Central 
America. We've tracked them, but it never has seemed to be a 
policy priority, and perhaps they've operated at lower levels 
that sort of went under the radar.
    In the 1980s when I was a military attache in Honduras, it 
was a problem. Clandestine airfields and landings at night to 
various places were things that got talked about. But it was 
not the priority at the time.
    The problem for us in developing our institutions is 
perhaps looking at them in strategic ways. This is beginning to 
happen and, as I said, the Caribbean Basin security initiative 
kind of anticipates a problem that could develop because of the 
movement of trafficking into the Caribbean.
    But what is really at issue here is, are we able to sit 
down and analyze whether these things are real threats to us, 
whether these things could converge with other things that are 
happening? For instance the democratic transformation in Mexico 
opened up a possibility that the police would be much weaker 
than they were absent partisan control, than they were in the 
past. Eric could probably talk about that much better than I 
could.
    These are things that you begin to anticipate when you 
analyze things a little bit better and don't necessarily try to 
present a strategy as a list of objectives that looks good to 
the American public. That's why I think it's important for 
organizations like INL and ONDCP to begin to develop this 
capacity.
    One thing that I learned at the Pentagon is planning is 
something that can be very useful, not just one plan that you 
stick to rigidly despite all evidence that it's not working, 
but several different plans that you can pull out in a 
contingency and begin to adapt, because it makes you think 
about the different kinds of possibilities, and then you begin 
to see holes in your own capabilities and resources and 
spending where those might be. That's what would help us 
develop that better forecasting ability so that we could see 
these things happening.
    Again, I think it's heartening that the administration is 
beginning to take a look at this with the CBSI.
    Senator Menendez. Thank you very much.
    One last question from me: If you had the ability to 
effectuate two policy suggestions or initiatives that you think 
are critical for the administration and for Congress to proceed 
on, what would they be?
    Dr. Brown.
    Dr. Felbab-Brown. Expand and institutionalize socioeconomic 
approaches to dealing with threats of illicit economies, such 
as the narcotics trade; and focus on helping local governments 
reform their police forces, focusing on community prevention 
and improving access to rule of law and making justice systems 
more effective.
    Senator Menendez. Dr. Arnson.
    Dr. Arnson. I would agree with that, also suggest that 
there be efforts to establish a political consensus around 
reinstating the assault weapons ban that was allowed to expire 
several years ago and has not been reinstated either by the 
administration or by Congress. That would be one.
    And a second would be to engage in a very serious way with 
a number of former Presidents in Latin America who have 
directly experienced the cost on their own societies of 
organized crime and drug trafficking, and engage in a very 
sustained conversation about what might be alternatives to 
conceiving of counterdrug policy and changes in U.S. law that 
would get us out of the dominant paradigm of demand reduction, 
law enforcement.
    Senator Menendez. Mr. Johnson.
    Mr. Johnson. Develop a strategic planning capability in INL 
and ONDCP to produce realistic budget assessments for what we 
need to meet these current threats and threats in the future, 
and also approve the U.S.-Colombia Free Trade Agreement and the 
U.S.-Panama Free Trade Agreement. Not to do so I think is 
unconscionable, given the sacrifices that Colombia has made to 
produce real progress in this area.
    Senator Menendez. Mr. Olson.
    Mr. Olson. Well, I would say two things which have already 
been hinted at. This effort that you've been a part of to 
rethink counternarcotics policy and evaluate it and try to 
think broader than that, I would say that we need to focus not 
just on drug trafficking, but organized crime generally, and 
look at the multi-level ways in which we need to approach that. 
I think it's a good initiative.
    Specifically on firearms trafficking, I think ATF has 
become a very weakened organization. Some of it's of its own 
doing. Some of it's they don't have the resources. Some of it's 
political pressures they feel from outside. So I think somehow 
we need to either strengthen ATF and give them the cover they 
need to do their jobs or figure out a way for them to work more 
in an interagency way, because this issue of firearms 
trafficking is really a critical one, as you've pointed out. In 
the long run, it costs us enormously, too, by letting it 
persist the way it is now.
    Senator Menendez. Well, thank you all. This has been very 
helpful to the committee's work and we look forward to 
continuing to pick your brain in the days ahead.
    The record will remain open for 5 days for any member who 
wishes to ask any questions. We urge you to respond to it as 
soon as possible.
    With that, with our thanks, this hearing is adjourned.
    [Whereupon, at 11:53 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
